<html>
<title> - LABOR-MANAGEMENT RELATIONS AT THE SOCIAL SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    LABOR-MANAGEMENT RELATIONS AT THE SOCIAL SECURITY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                       JULY 22, 23, AND 24, 1998

                               __________

                             Serial 105-96

                               __________

         Printed for the use of the Committee on Ways and Means



                     U.S. GOVERNMENT PRINTING OFFICE
61-080 CC                    WASHINGTON : 2000




                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                    JIM BUNNING, Kentucky, Chairman

SAM JOHNSON, Texas                   BARBARA B. KENNELLY, Connecticut
MAC COLLINS, Georgia                 RICHARD E. NEAL, Massachusetts
ROB PORTMAN, Ohio                    SANDER M. LEVIN, Michigan
JON CHRISTENSEN, Nebraska            JOHN S. TANNER, Tennessee
J.D. HAYWORTH, Arizona               XAVIER BECERRA, California
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisory of July 15, 1998, announcing the hearing................     2

                               WITNESSES

Social Security Administration, Office of the Inspector General, 
  Hon. James G. Huse, Jr., Acting Inspector General; accompanied 
  by Pamela J. Gardiner, Assistant Inspector General for Audit...     6
Social Security Administration, John Reusing, Claims Authorizer, 
  Division of International Operations...........................   207
Social Security Administration, Jim Beckstrom, Computer 
  Specialist, Office of Systems..................................   211
Social Security Administration, Waco, TX, Jim Schampers, District 
  Manager........................................................   214
Social Security Administration, Tulsa, OK, Edwin M. Hardesty, 
  District Manager...............................................   219
Social Security Administration, Paul D. Barnes, Deputy 
  Commissioner for Human Resources...............................   249

                                 ______

American Federation of Government Employees, AFL-CIO:
    National Council of SSA Field Operations Locals, Witold 
      Skwierczynski..............................................   286
    National Partnership Council, Wiltold Skwierczynski..........   286
American Federation of Government Employees Local 1923:
    John Reusing.................................................   207
    Jim Beckstrom................................................   211


    LABOR-MANAGEMENT RELATIONS AT THE SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                        THURSDAY, JULY 22, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1100, Longworth House Office Building, Hon. Jim Bunning 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHIC] [TIFF OMITTED]61080A.001
    
    [GRAPHIC] [TIFF OMITTED]61080A.002
    
    Chairman Bunning. The Subcommittee will come to order.
    Good morning. Members of this Subcommittee have before them 
a report containing evidence of what I consider to be a serious 
and ongoing abuse of tax dollars in the work force of the 
Social Security Administration. The report comes from no less 
an authority than the Inspector General of the Social Security 
Administration, a man appointed to his post by President 
Clinton.
    Let me be clear. Social Security is a sacred trust between 
the American people and their government. When evidence of 
abuse is discovered, it is our duty to pursue it. One of the 
best ways we can save Social Security first is to root out any 
corruption, abuse, or malfeasance that harms our Nation's 
seniors and their ability to receive services from the Social 
Security Administration.
    According to information provided by SSA to the Inspector 
General, there are 145 people on the public payroll at SSA who 
work full time for labor unions. There are also 1,655 SSA 
employees who spend up to 75 percent of their day on union 
activities. These people are excused from their duties as claim 
representatives, teleservice representatives, or claims 
authorizers. Instead of serving seniors, they serve unions.
    Today, the IG will report a claim by the Social Security 
Administration that taxpayers spent $13.4 million in 1996 to 
pay union salaries, and $1.3 million for union office space. 
That $14.7 million would pay one year's worth of Social 
Security benefits for more than 1,700 seniors. If that's not 
worrisome enough, the IG concludes that no one in the 
government knows how many people really work for the unions, or 
how much money is actually spent to support their activity, 
because SSA's information is not reliable.
    To make matters worse, the IG survey report indicates that 
one-quarter of the SSA managers surveyed suspect abuse of time 
used on union activity. While the union workers are supposed to 
be filing grievances and increasing agency productivity through 
labor-management partnerships, in reality supervisors also have 
no idea if their workers are engaged in authorized activity.
    I understand that the American Federation of Government 
Employees challenged the legality of the IG's review, and 
advised union officials not to cooperate with the audit. 
Despite intervention from the SSA's Commissioner, the union 
never fully cooperated.
    Tomorrow SSA employees will testify about union workers 
spending their time in private sector jobs, engaging in 
personal business, and participating in political activities 
all while they are on the public payroll. These employees 
believe that they are hamstrung, because once someone is on 
union time, they are no longer accountable to Social Security 
managers.
    SSA workers need and deserve our support. These dedicated 
people believe that their ability to serve our Nation's 
seniors, survivors, and the disabled is severely hampered by 
their inability to control their work force.
    I think it is outrageous and it's wrong for people on the 
public payroll to work for someone else. People who are paid by 
the taxpayers should work for the taxpayers. Instead, what we 
have here is a bunch of no-shows, go-slows, and who-the-hell-
knows.
    It appears that the Social Security Administration has lost 
control of its work force, harming our ability to serve our 
senior citizens. We need to protect our seniors and we need to 
fix this problem.
    To do that, I have invited the Commissioner of Social 
Security to testify before our Subcommittee, and I've also 
invited representatives of labor to join us this week. When we 
have heard from all of the parties involved, I look forward to 
working with the Members of this Subcommittee to clean up the 
problem.
    When I played baseball, I helped start the Players Union. 
The SSA Union performs an important service representing 
workers, and I believe in their rights. But when evidence of 
fraud and abuse exists, I hope no one will support looking the 
other way.
    When it comes to protecting people who need Social 
Security, there are no Republican beneficiaries or Democratic 
beneficiaries. We are all in this together. I hope we can 
approach this in the same nonpartisan manner as the Inspector 
General. We need to protect the integrity of the Social 
Security and respect union rights, while rooting out abuse in 
the workplace.
    In the interest of time, it is our practice to dispense 
with opening statements, except from the Ranking Democratic 
Member. All Members are welcomed to submit statements for the 
record. I yield to Congresswoman Kennelly for any statement she 
wishes to make.
    Mrs. Kennelly. Thank you, Chairman Bunning, and I would 
like to tell those in the audience that this is a public 
hearing, that we will be accepting testimony, and that the 
opinions we just heard are not the only ones on this topic. The 
wonderful part of democracy in a bipartisan system is that you 
come together, sit shoulder to shoulder, and have different 
opinions. And so, I will read my statement as we open these 
hearings. It will continue, by the way, for the next 3 days.
    Today's Subcommittee hearing examines labor-management 
relations at the Social Security Administration. I think it's 
fair to say that labor-management relations and employee morale 
at the Social Security Administration are better today than 
they have been at any time during the previous decade.
    Use of official union time was down in 1997 by almost 20 
percent. Unfair labor practice charges by employees dropped by 
36 percent from 1995 to 1997. All of this has occurred since 
1993, when President Clinton issued an Executive Order creating 
a partnership with Federal agency employees.
    In January of this year, the Social Security Administration 
issued a study evaluating the effectiveness of the labor-
management partnership at that agency. I hold forth a copy of 
this study, and hope that all those interested in this question 
take the time to look at it. To my knowledge, this was the 
first ever evaluation of partnership activities to be conducted 
by a Federal agency.
    The report concludes that the partnership agreement has 
helped to improve customer service and employee productivity. 
In addition to improving SSA's toll-free number service, it has 
improved productivity in such areas as reducing disability 
backlogs, redesigning the disability process, and shifting 
workloads between SSA offices.
    The Social Security Administration's Office of the 
Inspector General has just completed three reports telling us 
about additional systems which could be implemented at the 
Social Security Administration to keep track of official time 
and partnership activities. The report does not find any abuses 
in the official time system.
    The Inspector General has simply said that he would like to 
see better official time and auditing systems in place at the 
agency. SSA is doing just that.
    It already has in place a computerized system for reporting 
official time called OUTTS, and it is working on enhancements 
of that system which will alert employees when they are within 
20 percent of exhausting their time, and which will identify 
active and inactive representatives.
    While we would all like to see that system fully 
implemented as soon as possible, I see nothing in the Inspector 
General's report which indicates that the OUTTS system is the 
wrong way to go. In fact, given the current and continuing 
limitation on the Social Security Administration's budget, the 
OUTTS system seems to be an efficient and effective way of 
auditing official time.
    One of the essential elements of any effective business, 
including Federal agencies is productive labor-management 
teamwork. I think the Social Security Administration and the 
Clinton administration have taken major steps in that 
direction. These initiatives have produced better labor-
management relations than at any other time in recent memory, 
and should continue to do so in the time to come.
    I welcome our witnesses, and thank the Chairman for giving 
me the time to remark.
    Chairman Bunning. Thank you, Mrs. Kennelly.
    Testifying today is Hon. James G. Huse, Jr., Acting 
Inspector General from the Office of the Inspector General at 
the Social Security Administration. Mr. Huse will be 
accompanied by Pamela Gardiner, Assistant Inspector General for 
Audit, from the Office of Inspector General at the Social 
Security Administration.
    If the witnesses would please stand as we will swear you 
in. Please raise your right hand and respond.
    [Witnesses sworn.]
    Mr. Huse, you may proceed.
    Mrs. Kennelly. Mr. Chairman.
    Chairman Bunning. Yes.
    Mrs. Kennelly. Do we intend to swear in all of the 
witnesses who come before us the next 3 days?
    Chairman Bunning. I would suspect we will.
    Mrs. Kennelly. Well, I think if we swear in some, we should 
swear in all. There's always a question----
    Chairman Bunning. That's fine.
    Mrs. Kennelly. OK. Thank you, Mr. Chairman.

STATEMENT OF HON. JAMES G. HUSE, JR., ACTING INSPECTOR GENERAL, 
       OFFICE OF THE INSPECTOR GENERAL, SOCIAL SECURITY 
 ADMINISTRATION; ACCOMPANIED BY PAMELA J. GARDINER, ASSISTANT 
                  INSPECTOR GENERAL FOR AUDIT

    Mr. Huse. Chairman Bunning and Members of the Subcommittee, 
thank you for inviting me to appear today. You have been given 
my full statement for the record. I would like to summarize our 
findings for you now.
    In response to a request from this Subcommittee, we 
reviewed official time and partnership activities at the Social 
Security Administration as a follow-up to an earlier General 
Accounting Office report. We divided our work into four parts; 
an audit of official time use, two surveys, and an evaluation 
of partnership activities.
    Today, I would like to discuss three of these. I will not 
be discussing the second survey because it has not been 
released as yet.
    During the review, 18 percent of the union representatives 
we contacted chose not to cooperate, while 100 percent of the 
managers we contacted did cooperate. The response rate from our 
survey consisted of 52 percent of the union representatives and 
85 percent of the managers, which limits the conclusiveness of 
the data we received. Because of this, we caution against 
drawing broad conclusions from the results of our reviews.
    We conducted the audit to verify that official time at SSA 
for union activities complied with relevant laws, regulations, 
and collective bargaining agreements. SSA reported that in 
fiscal year 1996, 481,945 hours were spent on official time 
activities. The cost of these activities, including salaries 
and expenses, totaled $14.7 million.
    We could not verify these data, because SSA did not have 
adequate records and controls at that time, to ensure that 
official time was being used in compliance with applicable 
criteria. Further, the data used to determine the cost of 
official time were unreliable.
    SSA had recognized many of these issues before our review. 
As a result, it had issued new guidance, and developed a new 
automated management information system that will hopefully 
correct these problems.
    We conducted a nationwide survey of union representatives 
and managers to collect their observations concerning the use 
and management of official time for the American Federation of 
Government Employees Union Council 220 activities.
    The responses to our questionnaires indicated the 
following:
    Although most of the managers and union representatives 
stated that they recorded official time as required, some union 
representatives did not always complete an official time form 
before using official time.
    Almost half of the managers were not informed in writing 
who represents the union in their office.
    A number of the managers and union representatives we 
interviewed did not know how many bank hours--the amount of 
hours authorized for use--were available, which created the 
potential for exceeding bank time. Twenty-five percent of the 
managers who responded had suspicions or qualms about the abuse 
of official time. Ninety-five percent of the managers responded 
that they understood where to call with official time issues, 
and that those offices were helpful.
    Our evaluation was conducted in response to this 
Subcommittee's request that we verify SSA's assertions that 
SSA's partnership activities had reduced grievance and unfair 
labor practice filings. We also examined the extent of 
partnership activities; how partnership results are measured, 
and how time devoted to partnership activities is tracked.
    Our review found the following:
    The definition of partnership and related activities was 
unclear. The inventory of partnership activities was 
questionable. SSA's systems did not provide sufficient data to 
support a quantitative interpretation of the results or 
accomplishments from partnership. Both the Social Security 
Administration and AFGE took exception to the conclusions from 
our review of partnership. Thank you.
    [The prepared statement follows. Attachments may be found 
as follows: Final Report--Use of Official Time for Union 
Activities at the Social Security Administration, http://
www.ssa.gov/oig/adobepdf/72013.pdf; Partnership Activities at 
the Social Security Administration, http://www.ssa.gov/oig/
adobepdf/72023.pdf; and Council 220 Union Representative and 
Manager Observations on the Use and Management of Official Time 
at SSA, http://www.ssa.gov/oig/adobepdf/72002.pdf.]

Statement of Hon. James G. Huse, Jr., Acting Inspector General, Social 
Security Administration

    Chairman Bunning and members of the Subcommittee, thank you 
for inviting me to appear today to discuss our reviews of 
official time and Partnership activities at the Social Security 
Administration (SSA).
    In response to a request from this Subcommittee, we 
reviewed official time and Partnership activities at SSA as a 
follow up to an earlier General Accounting Office report. 
Although our interviews with over 100 managers and union 
representatives were revealing, we encountered a delay in 
obtaining necessary information.
    Initially, the American Federation of Government Employees 
(AFGE) advised SSA employees not to cooperate with the reviews. 
We ultimately received the information when the then-Acting 
Commissioner of Social Security mediated an end to the impasse. 
As part of this process, we agreed to make some minor 
modifications to our survey.
    During the reviews, 18 percent of the union representatives 
we contacted chose not to cooperate, while 100 percent of the 
managers we contacted did cooperate. The response rate from our 
survey consisted of 52 percent of the union representatives and 
85 percent of the managers, which limits the conclusiveness of 
the data we received. Because of this, we caution against 
drawing broad conclusions from the results of our reviews.
    We divided our work into four parts: an audit of official 
time use, two surveys, and an evaluation of Partnership 
activities. Today, I would like to discuss three of these. I 
will not be discussing the second survey because it has not yet 
been released.
    We conducted the audit to verify that the official time at 
SSA for union activities complied with relevant laws, 
regulations, and collective bargaining agreements. SSA defines 
official time as ``time during which an employee otherwise 
would be performing Agency-assigned work, but the employee is 
otherwise authorized by law, regulation, or negotiated 
agreement to spend time representing union and/or bargaining 
unit employees.'' SSA reported that, in FY 1996, 481,945 hours 
were spent on official time activities. The cost of these 
activities, including salaries and expenses, totaled $14.7 
million. We could not verify these data because SSA did not 
have adequate records and controls at that time to ensure that 
official time was being used in compliance with applicable 
criteria. Further, the data used to determine the cost of 
official time were unreliable. We also found indications that 
SSA's internal controls needed to be strengthened so that
    <bullet> official time was limited to union 
representatives,
    <bullet> the number of authorized union representatives was 
in compliance with collective bargaining agreement criteria,
    <bullet> official time was used for appropriate activities 
and for appropriate amounts of time, and
    <bullet> all allegations of misuse of official time were 
resolved.
    SSA had recognized many of these issues before our review. 
As a result, SSA issued new guidance and developed a new 
automated management information system that will hopefully 
correct these problems.
    We conducted a nation-wide survey of union representatives 
and managers to collect their observations concerning the use 
and management of official time for the AFGE's union Council 
220 activities. Council 220 represents employees in SSA's field 
offices and teleservice centers. The responses to our 
questionnaires indicated the following.
    <bullet> Although most of the managers and union 
representatives stated that they recorded official time as 
required, some union representatives did not always complete an 
official time form before using official time.
    <bullet> Almost half of the managers were not informed in 
writing who represents the union in their office.
    <bullet> A number of the managers and union representatives 
we interviewed did not know how many bank hours (the amount of 
hours authorized for use) were available, which created the 
potential for exceeding bank time.
    <bullet> Twenty-five percent of the managers who responded 
had suspicions or qualms about the abuse of official time.
    <bullet> Ninety-five percent of the managers responded that 
they understood where to call with official time issues and 
that those offices were helpful.
    Our evaluation was conducted in response to this 
Subcommittee's request that we verify SSA's assertions that 
SSA's Partnership activities had reduced grievance and unfair 
labor practice filings. We also examined the extent of 
Partnership activities, how Partnership results are measured, 
and how time devoted to Partnership activities is tracked. When 
we began our evaluation, SSA had neither conducted its own 
evaluation of Partnership nor developed an inventory of its 
Partnership activities. In July 1997, SSA established the 
Partnership Evaluation Team to design and conduct an evaluation 
of SSA's Partnership activities. Because of this, we revised 
our approach so that we did not duplicate SSA's efforts. Our 
review found the following.
    <bullet> The definition of Partnership and related 
activities was unclear.
    <bullet> The inventory of Partnership activities was 
questionable.
    <bullet> SSA's systems did not provide sufficient data to 
support a quantitative interpretation of the results or 
accomplishments from Partnership.
    Both SSA and AFGE took exception to the conclusions from 
our review of Partnership.
    In conclusion, based on our recommendations and its earlier 
actions, SSA has strengthened its procedures and controls to 
ensure that official time is used appropriately, that 
allegations of suspected abuse are resolved, and that official 
time data are complete and accurate. We also recommended that 
SSA develop a formal system for identifying Partnership 
accomplishments and resultant cost savings. Neither SSA nor 
AFGE agree with this recommendation.
      

                                <F-dash>


    Chairman Bunning. Thank you, Mr. Huse. Let me start out by 
starting the questioning, and we're going to limit it to 5 
minutes, and we go around as many times as necessary.
    You indicated that the American Federation of Government 
Employees initially advised SSA employees not to cooperate. How 
long did this problem go on, and how was it resolved?
    Ms. Gardiner. I'll answer that question.
    Chairman Bunning. All right.
    Ms. Gardiner. It caused about a 4-month delay. We sent out 
our surveys in June of 1997, and shortly thereafter the AFGE 
Council 220 president sent out an e-mail message to all council 
members requesting that they not complete the survey. And 
thereafter, union representatives refused to be interviewed, 
and refused to complete the survey form.
    So, on June 26th we asked the then Acting Commissioner, 
Callahan, for his assistance in obtaining cooperation; and his 
senior managers did get involved and helped us. And after 
extensive negotiations, the union did advise its members to 
cooperate, and to complete the survey, except for four 
questions that they found objectionable. And that message went 
out in September.
    Chairman Bunning. In other words, when did the second 
mailing without the four questions go out?
    Ms. Gardiner. Well, actually we never removed the four 
questions----
    Chairman Bunning. They just didn't answer them?
    Ms. Gardiner. That's correct. We agreed that we would 
consider that to be adequate cooperation, if they would 
complete all but the four questions. And the second survey went 
out in October.
    Chairman Bunning. What was their reason? Just the fact that 
they found them objectionable?
    Ms. Gardiner. Yes, that's what they shared with us.
    Chairman Bunning. In your testimony, you stated that you 
made some minor modifications to one of the surveys. Was there 
anything other than the four questions that was objected to? 
Was there anything else?
    Ms. Gardiner. No, that's correct. We actually did not 
modify it; we just simply informed them that we had agreed with 
the union that they would not have to answer the four 
questions, and we listed those questions for them.
    Chairman Bunning. Now, I'm going to read what I thought 
were the four questions, and I want a verification.
    ``How long have you been a union representative?'' Was that 
one of them?
    Ms. Gardiner. Yes.
    Chairman Bunning. ``Do you hold any executive officer 
position in your union?'' Is that another one?
    Mr. Huse. Yes.
    Chairman Bunning. ``What are typical union activities for 
you, and what portion of your official time do you spend on 
each?''
    ``What administrative support does the union pay for, and 
how much does it cost?''
    Are those the four questions?
    Ms. Gardiner. Yes, they are.
    Chairman Bunning. SSA reported that union representatives 
used 481,945 hours of official time, at a cost of $14.7 million 
for fiscal year 1996.
    Now, I know 1997 has been brought up, and some of those 
times and costs are down. How does SSA compute the cost of 
official time?
    Ms. Gardiner. They take the total number of hours that have 
been reported as being used for official time, and then they 
multiply that by an average salary for all SSA employees, which 
is about $19 an hour. And then they add in benefits and 
overhead rate, and they come up with a total figure for that.
    In addition to that, they also include union-related office 
space expenses, telephone, travel, as a minor administrative 
cost.
    Chairman Bunning. You said that you couldn't verify the 
481,945 hours reported by SSA. How big of an error did you 
detect in this?
    Ms. Gardiner. We weren't able to draw any conclusion on the 
total error rate for all of the hours, because the controls in 
place were insufficient to provide us with complete information 
for the nationwide figure. But what we did do, was we looked at 
two components, and we looked at all of the hours they charged 
for the fiscal year 1996. And for one of them we found a 
discrepancy of 7,535 hours that were over-reported; that was in 
headquarters; and in the Office of Hearings and Appeals in 
Falls Church, we found that they had a discrepancy of 6,981 
hours where they over-reported.
    Chairman Bunning. What were the causes of the 
discrepancies, and were they able to be reconciled?
    Ms. Gardiner. Most of the problems were that there weren't 
time reports.
    Chairman Bunning. No time reports?
    Ms. Gardiner. Right. Missing time reports. And they were 
able to resolve most of the hours for headquarters, but for the 
Office of Hearings and Appeals, they were not.
    Chairman Bunning. What are examples of appropriate time 
charges for official time?
    Ms. Gardiner. It's generally meetings, and discussions, 
negotiations on labor-management relations issues, or contract 
issues, working on grievances, arbitration, things like that.
    Chairman Bunning. Mrs. Kennelly will inquire.
    Mrs. Kennelly. Thank you, Mr. Chairman.
    Mr. Huse, if you were right now the Commissioner of Social 
Security, and had SSA's limited resources, what would you do to 
respond to this report that we have in front of us today?
    Mr. Huse. Well, I would take the system that SSA already 
has, the OUTTS system, and ensure, first of all, that it works, 
and that it works well.
    The OUTTS system is new, but it is an automated system, and 
basically the best way for SSA to manage this type of time is 
through an automated information system. So, compliance with 
that, ensuring that it's used universally across SSA, that's 
what I would do.
    Mrs. Kennelly. So you would automate?
    Mr. Huse. Well, they have a new automated system that 
they're deploying now, but I'd ensure that it works, and works 
well.
    Mrs. Kennelly. No other changes? Well, we've got a big book 
here.
    Mr. Huse. You're talking about monitoring official time?
    Mrs. Kennelly. What I'm saying is that we have these 
suggestions, and it's one thing to give suggestions. Now, I'm 
putting you in the position of carrying them out, and I'm 
trying to find out if in fact it would be expensive to do these 
things. The bottom line is, I want to know if it would cost 
money, or would we save money, if we carried out this report. I 
mean, that's why we do these reports.
    Ms. Gardiner. Yes. If I may add a little bit more.
    The OUTTS system currently only covers field offices and 
Teleservice Center employees, so expanding that system also 
would be useful.
    First, generally improving the tracking--they also should 
probably do a better job of when suspected abuse is reported, 
of getting back to the managers, and providing some feedback on 
what the resolution of that was.
    And probably the other piece would be to just better define 
partnership, so that people know how to charge time 
appropriately as well.
    Mrs. Kennelly. If I read what you're saying, you're saying 
that you're already doing what the report suggests--you just 
have to do it more quickly, or more efficiently?
    Mr. Huse. They have to do--they already--as I said in my 
testimony, the SSA has come to some of these conclusions 
itself, and had developed, and is deploying the OUTTS system. 
But they need to make that universally used across SSA. It 
isn't right now.
    Mrs. Kennelly. So, it's implementation that we're talking 
about?
    Mr. Huse. It's implementation. Secondly, and the other key 
point, is where there are instances of suspected abuse, they 
need to get the information back to the original complainer. We 
found that some of the managers were confused as to the 
resolution of some of these activities.
    Mrs. Kennelly. Well, let me just ask one more question, now 
that you've brought this up.
    You state in your testimony that some managers were 
suspicious about the abuse of official time. Does the OUTTS 
system provide a procedure for dealing with this kind of 
suspicion?
    Mr. Huse. No, no. The OUTTS system is merely an accounting 
system. There is a free-standing system, where managers who 
suspect abuses of official time, report those to the 
appropriate office in SSA, which is the Office of Labor--OLMER 
is the acronym, for the Office of Labor, Management, and 
Employee Relations. And they act as the entity inside SSA to 
resolve these issues.
    Mrs. Kennelly. Well, have you found any patterns of abuse 
that you could follow to get this done quicker, or are we 
really talking about something that really isn't there to any 
great extent? That is, things are moving along rather well, 
we've seen improvement, and this is much to do about not too 
much?
    Mr. Huse. Our survey and reports are limited to the samples 
that we used in coming up with these findings. We can't 
extrapolate from that to say that it's anything more than what 
we've reported in these audits.
    Mrs. Kennelly. Thank you, sir.
    Chairman Bunning. Let me just interject. Maybe tomorrow, 
Mrs. Kennelly, you can ask the managers who will be here that 
exact question, and maybe they'll be able to enlighten us a 
little more, because the managers will be here tomorrow.
    Mrs. Kennelly. I'm trying to find out if we really have a 
real problem here. I read my statement, and it seems we've seen 
a good deal of improvement over the last decade. Then I look at 
the report, and I see that things have improved. It seems to me 
that things are in motion, and if we let them go forward, and 
everybody tries to move a little more quickly and with a little 
more efficiency, we would resolve this problem.
    Do you think I'm right?
    Mr. Huse. Well, we don't disagree with you. We think that 
managing the issue with the tools that are in place would be 
very good; but we have to ensure that the communications end of 
it works also, and that's where we found perhaps some room for 
improvement.
    Mrs. Kennelly. Thank you, Inspector.
    Chairman Bunning. Mr. Collins would inquire.
    Mr. Collins. Thank you, Mr. Chairman.
    As a followup to Mrs. Kennelly's question about resources, 
is there an established amount of resource available for union 
activities within the Social Security Administration?
    Ms. Gardiner. There are hours called bank hours that are 
defined in the collective bargaining agreement.
    Mr. Collins. Is there an established appropriated figure 
for union activities in the Social Security Administration? I 
believe the answer to that is no.
    Mr. Huse. OK.
    Mr. Collins. Under Public Law 15078, ``provided for the 
reimbursement of the cost, with interest, from the general fund 
for union activities, but no cap on the cost.''
    In one sense of the word, there's really no limited 
resource for union activities; just a report to verify the cost 
of union activities.
    Mr. Huse. Correct.
    Mr. Collins. In your summary report, you mention the 
response rate from the survey, consisting of 52 percent of 
union representatives and 85 percent of the managers, which 
limits your conclusions.
    Because of this, you cautioned against broad conclusion 
from the results of your review. What would be the narrow 
conclusion of your review?
    Mr. Huse. The narrow conclusion would be limited to the 
findings we bring to the Subcommittee from our review work.
    Mr. Collins. And those are?
    Mr. Huse. Those are that we found----
    Mr. Collins. On page 3 of your summary?
    Mr. Huse. Yes, sir.
    Mr. Collins. That the definition of partnership related to 
activities is unclear.
    Mr. Huse. Correct.
    Mr. Collins. The inventory of partnership activities was 
questionable.
    Mr. Huse. Correct.
    Mr. Collins. And that the Social Security Administration's 
system did not provide sufficient data to support the 
quantitative interpretation of the results or accomplishments 
from partnerships.
    Mr. Huse. That's correct, sir.
    Mr. Collins. You did not go through your last paragraph in 
your summary; which you said, ``In conclusion, based on our 
recommendations and its earlier actions . . .''
    It seems as though, since you began your work, Social 
Security has taken some positive actions toward their problems.
    Mr. Huse. They have.
    Mr. Collins. That Social Security has strengthened its 
procedures and control; that the allegations of suspected abuse 
are resolved; and official time data are complete and accurate.
    You also recommend to the Social Security Administration 
the development of a formal system for identifying partnership 
accomplishments, and resultant cost savings. That was a 
recommendation.
    Mr. Huse. Yes, sir.
    Mr. Collins. But neither Social Security nor the union 
agreed with this recommendation.
    Mr. Huse. That's correct. They do not.
    Mr. Collins. What was their purpose for not agreeing?
    Mr. Huse. In their view, they have adequate definitions of 
partnership that they work with, and that they believe----
    Mr. Collins. We can't hear you. Wait a minute. It seems as 
though we have union employees in the Longworth Building. 
[Laughter.]
    That was their objection, I reckon. Go ahead with your 
reasoning.
    Mr. Huse. In their view, they believe they have a good 
inventory of activities that come under partnership; however, 
they don't agree that partnership can be defined; that the 
definition has to be broad by the very nature of labor and 
management relations. We believe that it needs to be defined in 
order to quantify it, and that's what divides us on this issue.
    Mr. Collins. But were you asking them to define 
partnership, or were you asking them to come up with a way to 
list their accomplishments and the result of cost savings? 
Which were you asking them to do?
    Mr. Huse. We're asking them both, because the definition 
needs to come before we can quantify what it is they do. And 
this is an area where we came right out to the margins of our 
role as fact-finders. We didn't attempt here to impose any kind 
of a definition on labor-management relations, nor did we take 
a view of what is right or wrong in that regard. That would 
have been outside the scope of our responsibilities.
    Mr. Collins. I've got about 30 seconds left.
    Chairman Bunning. Go right ahead.
    Mr. Collins. You will be going back. Do you expect to find 
positive results, a defining of a partnership, and the 
accomplishments in the cost savings?
    Mr. Huse. Not in terms of partnership, unless there is some 
attempt made to define what partnership is. For us, as a 
mechanism to look at partnership, we need to have something to 
measure, sir, and that's what we didn't have. We don't have a 
definition with which to start this analysis.
    Mr. Collins. Was not the partnership directive of an 
Executive order? Should not that Executive order have defined 
the partnership between the union and the administration?
    Mr. Huse. It did give a broad definition, yes, in the 
President's Executive order.
    Mr. Collins. Well, evidently, they're not even accepting 
the broad definition of the Executive order, if they will not 
come up with a definition of partnership.
    Ms. Gardiner. Part of where we ran into difficulties was 
that we initially used that as our definition, what was in the 
Executive order. And when the Social Security Administration 
did its inventory and its evaluation, that it didn't really 
define to the employees who were submitting their ideas, 
partnership. And so they got a wide variety of activities.
    But then, what made it more difficult was, when the agency 
defined what partnership was for purposes of time reporting, 
they came up with a different definition. And that's when it 
became----
    Chairman Bunning. The gentleman's time has expired.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman. And I think we are all 
in agreement that, as you said in the end of your statement, we 
need to protect the integrity of Social Security and respect 
union rights, while rooting out abuse in the workplace. Abuses 
should clearly be rooted out. So, let me ask you a bit about 
the workplace.
    Is the partnership concept one that is embraced in private 
industry?
    Mr. Huse. I believe that it is, but I can't speak to it 
with any authority, sir.
    Mr. Levin. Have you ever looked at what's happening in 
private industry?
    Mr. Huse. Just as a citizen. I mean, I understand the 
concept. I understand it.
    Mr. Levin. I suggest someday you come with me to a Big 
Three plant, not GM at the moment.
    The concept of union representation, do you know whether 
that concept of allowing employees in private industry to spend 
time in union representation--this could be in a nonunion 
plant, in group representation--does that also exist in private 
industry?
    Mr. Huse. Yes, it does, sir.
    Mr. Levin. Do you have any idea what was the pattern before 
1993, or 1994, or 1995, in terms of the level of union 
representation? Do you have any comparative data at all?
    Mr. Huse. We only can compare the data that we've acquired 
since the partnership has been put in place, since the 1993----
    Mr. Levin. But there was union representation before the 
Executive order, right?
    Mr. Huse. That's correct.
    Mr. Levin. And, have you looked at the data for periods 
before that?
    Mr. Huse. Yes.
    Mr. Levin. You have. What does it show?
    Ms. Gardiner. In terms of the numbers of union reps, or in 
terms of----
    Mr. Levin. Well, in terms of hours, numbers?
    Ms. Gardiner. I don't have it in front of me, but I believe 
that the hours and the numbers of union reps actually increased 
a little bit after partnership, and I believe that was in the 
GAO report.
    Mr. Levin. A small amount?
    Ms. Gardiner. I don't recall.
    Mr. Levin. Did you make any effort to compare now and then?
    Ms. Gardiner. No, we did not.
    Mr. Huse. No.
    Mr. Levin. Isn't that relevant?
    Ms. Gardiner. Well, the main thing that we were looking at 
was the accounting of the time versus the appropriateness of 
the time, or the appropriateness of the number. We didn't enter 
into that sort of value----
    Chairman Bunning. Could the gentleman yield?
    Mr. Levin. Yes.
    Chairman Bunning. There is a measure of union activity, 
starting in 1993, prior to right when it started, until the 
current date.
    Mr. Levin. I'm talking about before 1993.
    Chairman Bunning. Oh, OK.
    Mr. Huse. That was outside the scope of our review, sir.
    Mr. Levin. You don't think it's relevant to compare now 
with 8 or 9 years ago?
    Mr. Huse. Well, that wasn't our charge from the 
Subcommittee, and we didn't look at that.
    Mr. Levin. Let me read you a statement from the opening 
statement. This is Mr. Bunning's statement.
    After he says, ``People who are paid by the taxpayers, 
should work with the taxpayers.'' ``Instead, what we have here 
is a bunch of no-shows, go-slows, and who-the-hell-knows.''
    Do you think that characterizes the work of most of the 
people who are within the definition of representatives who are 
dealing with labor-management issues?
    Mr. Huse. We didn't look at the issue to--we only bring to 
the Subcommittee our findings, sir. We don't make--nowhere in 
our reports does it say anything that affirms what you just 
said.
    Mr. Levin. There's nothing in your report that affirms what 
I just read?
    Mr. Huse. When you're talking about making a universal 
judgment on labor-management issues at Social Security, no, 
they do not. Our reviews are limited to the facts that I spoke 
to in my summary.
    Mr. Levin. So, your report you don't think would 
substantiate that conclusion?
    Mr. Huse. We didn't do any work to look at the 
philosophical aspects of labor and management relations at 
Social Security, nor to get into that area of policy at all.
    Mr. Levin. OK
    Chairman Bunning. I'd like to enter into the record for Mr. 
Levin's statement, Expenditures for SSA Union Activity from 
1990 to 1995. This is prior to the Partnership Act.
    Starting in 1990, there was $6.2 million; 1991, $6.3; 1992, 
$6.2; 1993, $6 million. Then the Partnership Act was instituted 
by Executive order. In 1994 it went to $9.1; in 1995 it went to 
$11.0; in 1996, you have that number, it went to $14.7; and 
1997, for the first time after we got a hold of a little bit of 
it, it went down to $12.4 in 1997.
    So, for the record.
    The next gentleman is Mr. Johnson.
    Mr. Johnson of Texas. Thank you, Mr. Chairman.
    Is it true that under U.S. Code, Title V, that, ``Any 
employee representing an exclusive representative in 
negotiation of the collective bargaining agreement under this 
chapter shall be authorized official time for such purposes, 
including . . .''?
    In other words, ``The number of employees,'' it says, ``for 
whom official time is authorized shall not exceed the number of 
individuals designated as representing the agency.''
    Is that a true statement? Is that the law?
    Mr. Huse. That's pretty accurate, yes, sir.
    Mr. Johnson of Texas. Did you look at the agency with 
regard to that, and determine how many employees then that 
would affect; and what is the number that you concluded that 
they should have representing the union that work directly for 
the Social Security Administration?
    Ms. Gardiner. We didn't look at it in total to make a 
determination of exactly how many they should have nationwide, 
but we did do it in selected offices, and headquarters, and 
others. And we did find one instance in headquarters where they 
were authorized to have 11 assistant chief stewards, but in 
fact the bargaining agreement showed that they should have only 
had 7.
    I believe that's your question; that in that particular 
instance they had more union representatives than they should 
have.
    Mr. Johnson of Texas. Did they take them off of the free 
time when you all told them that?
    Ms. Gardiner. I'm not sure.
    Mr. Johnson of Texas. Did you ask them to? Is that part of 
your report?
    Ms. Gardiner. Well, we put it in the report, but 
truthfully, I'm not sure.
    Mr. Johnson of Texas. You don't know if they've acted on it 
yet or not, is that the answer?
    Ms. Gardiner. Actually, we just told them that they need to 
monitor that more closely, and abide by the----
    Mr. Johnson of Texas. How do you account for the fact that 
the Social Security Administration has allowed, according to 
you, employees who used official time to go from 1,800 to 2,144 
from 1996 to 1997? Why would they do that if there's a specific 
limit on who can do union activity on official time?
    Mr. Huse. In the course of these reviews, we made 
recommendations that they comport with the law, and that they 
have the appropriate number of representatives.
    We stop short of going beyond that into looking at the 
reasons why, or why not, that these unofficial 
representatives----
    Mr. Johnson of Texas. You stated in your report that the 
agency officials, the management per se, didn't understand the 
law or didn't pay any attention to it? Which is it that you 
discovered?
    Mr. Huse. Well, I think that particular issue of 
understanding was a statement we make in our reports pertaining 
to Social Security's managers themselves, who really don't 
understand the law, and don't know how to apply the rules. 
They're first-line managers, and that's where some of the 
confusion in official time reporting----
    Mr. Johnson of Texas. But as the Chairman indicated 
earlier, they stonewalled you for a while. Do you attribute 
that to ignorance, or do you attribute it to the fact that 
these union activities were being overlooked?
    Ms. Gardiner. There are certain agreements where the 
language is a little bit unclear as to how many union 
representatives they should have. So some of it could be that 
it was unclear, and other incidents were that they simply 
weren't monitoring it that closely to identify it when it 
occurred.
    Mr. Johnson of Texas. OK. On a different subject, I 
understand you're familiar with a case regarding the continuing 
practice of granting various amount of time of excused absences 
to bargaining unit employees at the end of the year holiday 
season, for purposes of Christmas shopping. And that you also 
got involved in investigating fraud in the workplace involving 
a travel voucher.
    Can you explain those two things to me?
    Mr. Huse. I can, sir. It is true. We did investigate an 
instance where an employee, who was a union representative, 
presented a voucher to the agency for reimbursement for his 
mileage for some activities that he claimed he was conducting 
appropriately, and we found that it was a fraud. I have to add 
that this union official was disciplined by the agency for 
that.
    Mr. Johnson of Texas. But he's still working for the 
agency, isn't that true, and still working on union activities?
    Mr. Huse. That is correct, he still is.
    Mr. Johnson of Texas. Thank you.
    Chairman Bunning. The gentleman's time has expired.
    Mr. Neal will inquire.
    Mr. Neal. Thank you, Mr. Chairman.
    Mr. Huse----
    Mr. Huse. Yes, sir?
    Mr. Neal [continuing]. Let met try to provide some context, 
based on my experience as a former mayor, who had to bargain 
directly with 36 different bargaining units, and ask if any of 
the following practices would be deemed unusual:
    Oftentimes, particularly at the critical stages of 
negotiations, when the unions requested a direct opportunity to 
speak to me, rather than the bargaining team that had been 
assembled, and we knew were down the home stretch of 
negotiations, it would not be unusual for me to be sitting 
across the table from a patrolman with a uniform on, and a 
helmet beside him.
    It would not be unusual for a fireman--a fire person 
today--for a fireman, fire person, to be sitting across the 
table from me in full uniform. A sanitation worker would sit 
there with a uniform on. And any of us whoever campaigned at a 
plant, it would not be unusual for the steward to stand outside 
the plant with us, introduce us to the employees, and then go 
inside, once the clock had been punched, and accept the 
grievances that had been offered by the employees or others.
    Do you find any of those patterns to be unusual?
    Mr. Huse. Not at all.
    Mr. Neal. That's fairly common in municipalities across the 
country, and even in the private sector; the steward is given 
time off; because of what? The steward is given time off 
because they have successfully bargained that as part of the 
agreement----
    Mr. Huse. That's correct.
    Mr. Neal [continuing]. That management has accepted as an 
inducement to improve morale in the workplace.
    Now, do you find anything that I've offered here to be 
unusual?
    Mr. Huse. Not at all, sir.
    Mr. Neal. Is it common practice?
    Mr. Huse. That's correct.
    Mr. Neal. Fairly common practice.
    Now, with the complaint that was raised by Mr. Johnson 
here, about employees that might have been given time off to do 
Christmas shopping. Now, that was bargained, I assume.
    Mr. Huse. It was bargained, that's correct.
    Mr. Neal. OK. So, it's the job of management in that 
instance if they think that there's been a pattern of abuse 
that has been developed in a previous contract, to go back and 
what?
    Ms. Gardiner. Rebargain.
    Mr. Huse. Rebargain----
    Mr. Neal. Rebargain it, to negotiate it.
    I mean, many of the best companies that I know of are those 
companies where management and the work force not only trust, 
but like each other. The best managers that I had when I was 
mayor, the best department heads that I had were often those 
who could accept the testimony that the employees trusted their 
judgment to interpret the final package.
    Now, is that unusual?
    Mr. Huse. It's not, sir. We were very careful in the 
conduct of these reviews and surveys not to get into any kind 
of value judgment on the efficacy of labor and management 
relations. That was not our intention, nor did we ever cross 
that boundary.
    This is strictly about accounting for time, and 
methodologies for doing that. And then establishing specific 
internal controls so that time can be accounted for. That's all 
this is about. We did not look at labor and management issues 
at all. That would have been way outside our charge.
    Mr. Neal. The simple point that I try to drive home here, 
is that somehow it's being suggested in this setting that there 
has been an unusual practice; when the truth is, the best way 
to air grievances in the workplace is to have a work force that 
through organized activities, if that's what they choose, or 
unorganized activities, if that's what they choose, that is 
able to voice those grievances to management in a forum that 
management has bargained and accepted.
    Would you----
    Mr. Huse. I think that's a good thing.
    Mr. Neal. You think that's a good thing. OK.
    Ms. Gardiner, would you care to say anything?
    Ms. Gardiner. No.
    Mr. Neal. No?
    Ms. Gardiner. I would agree.
    Mr. Neal. OK. Thank you very much.
    Mr. Huse. You're welcome.
    Chairman Bunning. Let me just suggest to the gentleman from 
Massachusetts, we had something in the private sector that we 
all seemed to vote for on the floor of the House called the 
Team Act, and kind of set that up in the private sector, 
exactly the same situation that you're talking about, and they 
agree with you on. And unfortunately, it didn't get anywhere. 
It passed the House, but never got past the Senate.
    What I'm saying is, it's not a usual practice. I have never 
had a team steward, or whoever, go outside--for instance, 
General Electric Appliance Park in Louisville, Kentucky, and 
introduce me to anyone. Or I never had that same----
    Mr. Neal. You keep supporting the Team Act; you can be sure 
you won't be doing that----
    Chairman Bunning. You can bet your life--good legislation. 
I continue to support it. I never had that same union steward 
go into the plant and introduce me down the line. To the 
contrary, it would be very unusual if that occurred.
    Mr. Neal. I think that what I meant was that the fellow 
would stand outside and introduce you to the employees, punch 
the clock, go in, and then handle legitimate grievances. I 
didn't suggest for one second that at that point that you were 
inside the plant, and the steward was taking you around to some 
unusual duty.
    Typically, when you visit a plant, my experience has been 
that management and the union take you around. And you can 
always tell a good company, and a happy company, where the two 
sides are not pulling you aside to say, let me tell you about 
those other SOBs on the other side.
    Chairman Bunning. I can get you a plant in northern 
Kentucky, by one of the Fortune 500 companies, that had a union 
representative and a management representative, and they were 
working under the team concept that we tried to get passed in 
the Congress.
    The gentleman from Illinois, Mr. Weller.
    Mr. Weller. Thank you, Mr. Chairman. I think I'd like to 
direct my question to Mr. Huse, and of course trying to bring 
things into perspective.
    But I'm a supporter of collective bargaining, as I think 
most of us are, and at the same time I think our first priority 
is protecting the tax dollar, and the interest of taxpayers. 
And I'm concerned when I see that over 2,100 employees, at an 
expense of over $12 million was spent by taxpayers. And 
particularly, as we think about the impact on the Social 
Security Trust Fund of this type of action, was spent solely on 
union activities. And that's pretty high priced--over 2,100 
employees at over $12 million.
    And we've been talking a little bit about official time, 
which is taxpayer time. I think it shouldn't be called official 
time; it should be called taxpayer time, where someone is 
performing certain activities at the expense of the taxpayer, 
and in this case not related to the responsibilities of the 
Social Security Administration.
    In looking at your report, Mr. Huse, and we were talking 
about at what level of abuse of taxpayer time is acceptable, 
and whether or not that abuse of taxpayer time is part of a 
collective bargaining agreement. I think it's stated somewhere 
in your report that somewhere around 1 out of 4 managers, or 25 
percent of managers suspected that there was abuse of taxpayer 
time.
    Is that true? Is that the case, according to your report?
    Mr. Huse. That's correct.
    Mr. Weller. And is that of the people we contacted?
    Mr. Huse. Correct.
    Mr. Weller. And is that comparing the private sector to the 
taxpayer finance sector? Is 25 percent, that level of abuse, is 
that acceptable, or is that an area we should be concerned 
about?
    Mr. Huse. I don't disagree with your concern, but I can't 
speak to what the public acceptance of that might be at all.
    Mr. Weller. And there are some who think that the public 
might accept a level of 25 percent of managers feeling that 
taxpayer time is being abused. Some would feel that's 
acceptable? Do you believe there's anyone out there who feels 
that's acceptable?
    Mr. Huse. No, these were managers that had suspicions or 
qualms about these abuses of official time from their 
perspective. We did nothing in our survey to go beyond their 
suspicions or qualms to confirm or deny these allegations.
    Mr. Weller. And, of course, Mr. Johnson I think first 
brought up a situation where on taxpayer time employees in 
Boston would go Christmas shopping, on taxpayer time. And the 
argument for saying this is a good practice, is something that 
we should do, is because it accommodates those employees who 
would rather shop on less busy days, while everyone is working?
    Mr. Huse. Again, sir, we heard of that incidence, however, 
we did not determine the value of any of these collective 
bargaining----
    Mr. Weller. Sure. And I'm not asking you to make a 
judgment, but obviously you identified an area of abuse of the 
taxpayer, where they were shopping for Christmas on taxpayer 
time during the work day.
    How many employees in Boston participated in this--my 
understanding is it went on for 20 years, and the union felt 
that they should continue. In fact, according to your report, I 
believe it's a practice that's continuing through 1998, which 
is this year.
    How many employees have the privilege of going shopping on 
taxpayer time?
    Mr. Huse. We're not exactly sure of the number, but it 
would be the number of employees that are covered by that 
bargaining agreement in Region 1, which is the Boston region.
    Mr. Weller. And then were these employees expected to come 
in and make up the time somewhere else, or they were just given 
a half day off at taxpayer expense to go Christmas shopping?
    Mr. Huse. We only know of the practice and the agreement. 
We did not look into the details of that particular----
    Mr. Weller. You don't know how widespread this abuse is, 
whether or not it goes on in Chicago or anywhere else?
    Mr. Huse. Well, again, sir, I'm careful not to call it 
abuse, because this is part of an agreement. I have to be very 
careful in my role as the Inspector General, not to make these 
value judgments on what is or what is not appropriate.
    Mr. Weller. If I'm down at the VFW in Morris, Illinois on 
Union Street, and I would explain to them, do you realize that 
employees of the Social Security Administration at taxpayer 
expense are going shopping for Christmas while you're working. 
Now, they would say, gee, that's wrong. And, I mean, that's 
just common sense.
    Let me ask this here: There were some employees--union 
officials--who were on taxpayer payroll. Tell me if these are 
true abuses that you identified in your report; that a union 
representative frequently used official time, would be gone for 
most the day. The representative simply returned to the office 
at the end of the day, and then work overtime, claiming 
overtime.
    Is that true that that abuse occurred, according to your 
records?
    Mr. Huse. These are instances that were reported to us by 
managers during our survey. We did not conduct any 
investigation of any of these instances whatsoever.
    Mr. Weller. Another one here. Union official spends most of 
his day playing on the Internet. He plays games, chats with 
other people in general, and does things not related to union, 
or Social Security Administration business.
    Is that another item that you identified in your report?
    Mr. Huse. That's what was reported to us by the managers.
    Chairman Bunning. The gentleman's time has expired.
    Mr. Weller. Thank you, Mr. Chairman. Clearly there's abuse 
here.
    Chairman Bunning. The gentleman from Missouri.
    Mr. Hulshof. Thank you, Mr. Chairman. You mentioned that 
the information as is practiced is through surveys through the 
mail, and it's difficult to verify the information. But 
clearly, I would suppose you see this as valuable information?
    Mr. Huse. In the context of what we were trying to do, yes, 
it's of value. Because it indicates and affirms this issue of 
suspicions or qualms about official time, and the confusion 
about it.
    Mr. Hulshof. As you know, this is the first in a couple of 
days of hearings on this particular issue, and anticipating 
what may come in future days, it's my expectation the Social 
Security Administration will talk about their inability to 
monitor the union's use of official time, because they're 
hampered by a series of arbitrator and Federal labor relations 
authority decisions.
    Can you help clarify that for me, explain those 
circumstances?
    Mr. Huse. Yes, sir. It is a definite problem for them. 
There are a number of FLRA decisions and collective bargaining 
agreements that prohibit them from actually peeling back some 
of these activities; and it forms an impediment to managers to 
actually ask questions about what is this for.
    For example, if someone invokes one of these agreements, 
that stops the inquiry at that point.
    Mr. Hulshof. But are you saying that, for instance, these 
arbitrators' decisions are actually binding on the Social 
Security Administration?
    Mr. Huse. That's correct. They're binding on them in terms 
of implementing these agreements.
    Mr. Hulshof. I see someone behind you shaking your head, 
no.
    Ms. Gardiner. I believe that they can renegotiate though 
the collective bargaining agreements, and then that would take 
precedence over the previous arbitrator decisions.
    Mr. Hulshof. So there is the ability of the Social Security 
Administration to renegotiate?
    Mr. Huse. Right.
    Mr. Hulshof. Is that right?
    Mr. Huse. But while the agreement is intact, then they have 
to comply with it. That was my----
    Mr. Hulshof. OK. As a last question, we understand that the 
list of union representatives provided by the Social Security 
Administration was incomplete, perhaps outdated.
    Can you tell us what effect that had on your surveys?
    Mr. Huse. I think Ms. Gardiner will be glad to tell you 
that.
    Mr. Hulshof. Ms. Gardiner.
    Ms. Gardiner. Well, actually it affected the survey that 
we're not really talking about today, because it hasn't been 
issued. The problem was that, for the survey that we did 
conduct on Council 220, the agency had a list, and we were able 
to send those surveys out. For the other councils that were not 
Council 220, like ROPIR or OHA, we needed them to provide us a 
list, and they were unable to do. So it was several months 
delay as a result.
    Mr. Hulshof. I appreciate your time. Mr. Chairman, I yield 
back.
    Chairman Bunning. Mr. Becerra.
    Mr. Becerra. Thank you, Mr. Chairman.
    Actually, before I begin the question on this, the Team Act 
was mentioned. I'd like to just make a point on the Team Act. A 
number of us, we're very concerned about the Team Act. Even 
though we'd like to say labor organizations and management work 
more as a team, our concern was that the Team Act went way 
beyond saying that the two entities should work together as a 
team.
    The Team Act, as I think it still reads, even though it has 
not yet passed and become law, still allows the company to 
actually recognize a new employer organization as the actual 
union for these employees, and therefore engage with that 
organization on such issues as wages, overtime pay, and dates 
of work. Those are issues of collective bargaining, which I 
know that under the National Labor Relations Act are limited to 
only those organizations that have been voted in by their 
employees to the unions that serve them.
    So, the concern that many of us have is that the Team Act 
goes way beyond talking about working together as a team. It 
actually redefines what a labor organization is, and who will 
represent it. And that's the biggest concern we have, is that 
you will have sham organizations set up by companies, as we saw 
in the past before the NLRA, to try to at least ostensibly 
represent these employees.
    Mr. Huse, if I could ask a question. With regard to the 25 
percent of supervisors who apparently reported some suspicions 
or qualms about abuse of official time, did you document any 
case of abuse of official time?
    Mr. Huse. Yes, we would, if it were reported to us as such, 
sir.
    Mr. Becerra. Did you--in other words, in the process of 
hearing back from individuals that there was suspicion of abuse 
of official time, did you undertake any efforts to investigate 
any of those allegations?
    Mr. Huse. No, we did not, not in these that we're reporting 
here.
    Mr. Becerra. So, as far as we know from your report, at 
least at this stage, there are suspicions out there, but 
there's no documentation of any actual abuse by any employee?
    Mr. Huse. That's correct.
    Mr. Becerra. Did any of these supervisors--the 25 percent 
or so who said that they had suspicions or qualms about abuse 
of official time--indicate to you that they took official 
action to try and document the alleged abuse of official time?
    Mr. Huse. Yes, they did.
    Mr. Becerra. And in those cases where they reported having 
taking action, was action taken?
    Mr. Huse. As far as we know it was, or a decision was made. 
Yes, a decision was made as to whether or not it constituted 
official time.
    But the problem was that the first-line manager that made 
the report--and that was what I mentioned in my statement--they 
were not informed of the agency's decision. So that's one of 
the areas we've asked them to improve, is to get that feedback 
back to the first-line manager.
    Mr. Becerra. And employees have no way themselves to try to 
improve that communication between the managers at the local 
level, and the agency heads who actually conduct the 
investigation, do they? Do the employees have any way to effect 
that?
    Mr. Huse. No, the employees don't know.
    Mr. Becerra. So, no one here can blame an employee for a 
process that management has set up that may not work that well, 
I would imagine.
    Mr. Huse. That's correct.
    Mr. Becerra. My understanding is that the number of unfair 
labor practice charges have dropped in the recent years within 
the Social Security Administration. Is that accurate?
    Ms. Gardiner. That's correct.
    Mr. Becerra. And I read some information where the average 
cost of a charge of unfair labor practices filed by an employee 
could cost on average about $28,000 to the agency, which means 
to the taxpayer. If the numbers I have are correct, that in 
1993 the number of unfair labor practice charges filed by 
employees was 382, and in 1996 there had been a drop of over 50 
percent to 168 unfair labor practice charges, my quick math 
showed me that we saved about $6 million by having reduced the 
number of unfair labor practice charges filed by employees.
    Do you have any reason to disagree with that?
    Mr. Huse. Well, that's not any work that we looked at, but 
I have to accept your figures. On their face it seems 
reasonable.
    Mr. Becerra. Or generally--not to bind you to my math, 
because my math could be wrong--every time we reduce the number 
of complaints by an employee that he or she is being treated 
unfairly by management, we save money because we don't have to 
go through the process of investigating the charge, correct?
    Mr. Huse. That's true.
    Mr. Becerra. And so, if we reduce the number of charges 
filed by employees who feel aggrieved, by 214 or so over the 
last 3 years; and it cost somewhere around $28,000 to process 
those charges, we've saved about $6 million by having more 
partnership between management and employees.
    Mr. Huse. Again, we didn't do any work to verify that, or 
look into it, but I accept your analysis.
    Mr. Becerra. Thank you very much. Thank you, Mr. Chairman.
    Chairman Bunning. The gentleman from Arizona, please.
    Mr. Hayworth. I thank the Chairman. Mr. Huse, Ms. Gardiner, 
thank you for coming down today.
    Mr. Huse, would you agree that there is a distinction 
between the public and private sectors?
    Mr. Huse. Well, there certainly is a distinction, yes.
    Mr. Hayworth. In other words, there's a distinction that we 
could probably define as public or Federal Government employees 
those people who work for the taxpayers, while individuals in 
private industry don't work for the taxpayers, they work for 
private industry; the stockholders, the shareholders, the 
people who own the companies, correct?
    Mr. Huse. Correct.
    Mr. Hayworth. OK. So, we can establish then that in the 
public sector taxpayer dollars are being utilized for a variety 
of agreements. And it is in that context where the outrage 
comes, to know that people willfully by design are ripping off 
the taxpayers for their own personal conveniences, as 
documented in this report by the response of managers who 
suspected abuse, who offered you specific samples of abuse. 
That is where the outrage comes from.
    I understand, Mr. Huse, that you may be reticent to make a 
judgment, to render a value judgment, but speaking as the duly 
elected constitutional officer for the people of the 6th 
District of Arizona, knowing the people I represent as I do, 
they would consider it an abuse for taxpayer dollars to be 
whittled away by those who would subvert the true meaning of 
collective bargaining, and even government service.
    Indeed, I want to return to something you said here. 
Twenty-five percent of the managers suspect abuse, but those 
were just 25 percent of the managers who were willing to speak 
to you, correct?
    Mr. Huse. Correct.
    Mr. Hayworth. How many managers avoided you, and for what 
reasons did they say they would not respond to your inquiries?
    Ms. Gardiner. Actually, the 25 percent represents the 
responses to the surveys, and so, we think we got pretty candid 
information on that. Then, we did go and interview managers, 
and I believe all of the managers did talk to us.
    Mr. Hayworth. Let me rephrase that. I want to understand 
this clearly, because I understand there was a reticence on the 
part of many to even respond to your survey.
    Ms. Gardiner. For union representatives that's correct.
    Mr. Hayworth. Union representatives did not want to 
respond. Well, this seems very interesting, because it would 
seem to me if people are proud of collective bargaining, if 
people would like to champion this, then they should step 
forward and answer questions.
    It brings us back to the outrage in Boston. If there were 
people for 20 years Christmas shopping on the taxpayer's dime, 
going out on government time, I guess we ought to ask the 
question, where were the union leaders there? Where was the 
AFGE, and all the folks so interested in collective bargaining, 
to stand up and defend this? Did they defend that right?
    Mr. Huse. Are you asking me?
    Mr. Hayworth. Yes, I am, Mr. Huse.
    Mr. Huse. I can't answer your question, because we didn't 
really look into that particular instance, to know who did or 
who did not--what their motivations were.
    Again, we're limited by the work we actually did in this 
context here.
    Mr. Hayworth. But we pointed out what can fairly be called 
an abuse, and for whatever reasons, already documented the fact 
that many of these proud union leaders were reticent to speak 
about their involvement in the collective bargaining process, 
or even give the American people an accounting of the way in 
which time is used. This seems to me to suggest that they're 
hiding something; that we've captured just the tip of the 
iceberg through these accounts of 25 percent of the managers 
who were willing to respond. And if people are truly proud of 
this process, they would step forward into the sunlight and 
explain to us why it's such a good idea for Mr. and Mrs. 
America to pay people to skate away from their jobs, to go 
Christmas shopping in Boston, or anywhere in this country, on 
the taxpayer's dime.
    That is an abuse any way you slice it. That is what is 
wrong. And that is what we have to change. It is an abuse. And 
I am just absolutely astonished that people would not answer 
your questions.
    What reasons do they give for not wanting to step up and 
answer the questions?
    Ms. Gardiner. Most of the time they didn't say. They just 
said that the AFGE National did encourage them to answer, but 
that they chose not to. And that's all they said.
    Mr. Hayworth. They chose not to give an accounting to the 
American people. You are agents of the American people, and 
they chose not to give an accounting. That's very revealing. I 
thank you for your time.
    Chairman Bunning. Thank you.
    The gentleman from Arizona.
    Let me just continue on just for a few minutes.
    All of this seems to stem from a problem with an Executive 
order signed by President Clinton in 1993, articulating a new 
vision, supposedly, of management relations called partnership, 
that required agencies to involve employees as full partners 
with management, to identify problems and craft solutions to 
better fulfill the agency's mission, and service customers.
    Under that Partnership Act, does that allow collective 
bargaining units around this country in SSA to bargain for 
waste, fraud, and abuse in a labor contract with the Social 
Security Administration?
    In other words, is it able in Boston to negotiate the 
ability to go out and go Christmas shopping? Is that part of an 
agreement they have with the Social Security Administration in 
Zone 1, or whatever you want to call it?
    Mr. Huse. Region 1.
    Chairman Bunning. Region 1.
    Mr. Huse. It was.
    Chairman Bunning. It was. So, the Partnership Act allows 
collective bargaining units of the SSA to collective bargain 
waste, fraud, and abuse in an agreement with the Social 
Security Administration. And that's called good government, and 
that's helping, better relationships between management and 
their union representatives? Is that my understanding?
    Mr. Huse. That's not our understanding.
    Chairman Bunning. That's not your understanding?
    Mr. Huse. No----
    Chairman Bunning. Do you think to allow a collective 
bargaining unit to go and do Christmas shopping on government 
time is not waste, fraud, and abuse in some manner? Personally? 
Personally, do you think that that's a normal thing to 
negotiate?
    Mr. Huse. It's impossible for me to make a personal 
judgment here because of the office I hold. I have to be a 
fact-finder, and we just looked at the facts. This is a part of 
a collective bargaining agreement.
    Chairman Bunning. Then that is a fact what I just stated.
    Mr. Huse. The fact that they had the right to Christmas 
shop, yes. The value part of it, the worth of it, I'm 
constrained to answer that, sir. I can't get into that, that's 
policy. We didn't look at that.
    Chairman Bunning. It's amazing to me that the American 
people would be asked to OK any kind of collective bargaining 
unit and privileges granted thereof through negotiations, that 
would use taxpayer's money for anything but working to better 
the Social Security Administration, and service to the senior 
citizens, the widows and children that the SSA trust funds were 
created for.
    And if partnership allows that, the Executive order called 
partnership in 1993, allows that, then it's seriously flawed, 
and the Congress of the United States should do something about 
that Executive order, otherwise we're spinning our wheels.
    Mr. Hayworth. Mr. Chairman, I think you're absolutely 
right. We are accountable to the taxpayers. And whether it was 
part of a collective bargaining agreement or not, for those who 
earn their living from the taxpayers to confuse Uncle Sam with 
Santa Claus, and abuse their mission with the Social Security 
Administration, and in essence abuse the funds within that 
administration that seniors in this country count on, I concur 
with the Chairman that we must seek legislative remedies to 
Executive orders that would usurp and abuse the taxpayers hard-
earned dollars and the Social Security Trust Fund. I thank you, 
and yield back.
    Chairman Bunning. We want to thank you for your--Mac, go 
ahead.
    Mr. Collins. Just briefly to go back through some things.
    Your mission there was to investigate whether or not union 
activities complied with relevant laws. Your summation of that 
was they did not, is that true?
    Mr. Huse. Our mission as we worked it through, based on 
our----
    Mr. Collins. I'm reading from your testimony, that ``the 
union activities complied with relevant laws.''
    Mr. Huse. That's correct.
    Mr. Collins. Were your findings that they did not comply 
with relevant law?
    Mr. Huse. Our findings were that the accounting for 
official time was not as accurate as we'd like to see it.
    Mr. Collins. Does that mean it was in noncompliance because 
the lack of accuracy would affect the reimbursement to the 
trust funds?
    Mr. Huse. We found that there were inaccuracies.
    Mr. Collins. So, it was actually not complying with the 
relevant law which requires accuracy in order to have an 
appropriate, correct assessment.
    Mr. Huse. We made some recommendations, and the SSA has 
accepted our recommendations.
    Mr. Collins. But it's truthful to say that they were not 
complying, based on your findings.
    And also, were they in compliance with the regulations? 
Yes, for the record that you did nod yes.
    Mr. Huse. I did nod yes.
    Mr. Collins. As to the regulations, did you find that they 
were in full compliance with the regulations?
    Ms. Gardiner. I can't think of any regulations right off 
the top of my head that they didn't comply with. It was mostly 
the bargaining agreements that they did not comply with.
    Mr. Collins. They did not comply with the Executive order, 
even though it might have provided a broad-based definition of 
partnership, according to your earlier testimony.
    Ms. Gardiner. That they could have done a better job, but 
not necessarily that they didn't comply with the law.
    Mr. Collins. Well, Mr. Huse said that they did not want to 
accept the recommendation to define partnership still, even 
though the Executive order required a broad-based definition of 
partnership, in order to accomplish the means of partnership. 
Is that not true?
    Mr. Huse. That's true. Because there is no way for us to 
quantify what partnership is under the present system.
    Mr. Collins. So they were not in full compliance there. 
Right? No nod. Yes or no?
    Mr. Huse. Well----
    Mr. Collins. No ``wells.''
    Mr. Huse. In their view, they are in compliance.
    Mr. Collins. Yes or no.
    Ms. Gardiner. I do think that they believe they have it 
defined, so it is a matter of disagreement of opinion. We don't 
believe it is well defined, they believe it is well defined. 
So, I think they think they are complying, and we think they 
could do a better job of complying.
    Mr. Collins. OK. We'll let you off on that one. They were 
not complying with the regulations.
    Collective bargaining agreement. You did find that they 
were not complying with collective bargaining, right?
    Mr. Huse. Correct.
    Mr. Collins. In what manners? More union representatives 
and supervisors than allowed?
    Mr. Huse. Correct.
    Mr. Collins. How about in compliance of answering 
complaints?
    Mr. Huse. We recommended some improvements----
    Mr. Collins. Were they in compliance with answering--the 
recommending of the complaints?
    Mr. Huse. They were.
    Mr. Collins. They were in compliance?
    Mr. Huse. They were.
    Mr. Collins. Does compliance include telling supervisors to 
overlook complaints?
    Mr. Huse. Well, that's an improvement to a system that's in 
place.
    Mr. Collins. But, is that in compliance? That was in your 
report; that a supervisor was told to overlook complaints. Is 
that in compliance, to overlook complaints?
    Mr. Huse. No.
    Ms. Gardiner. That part's not, but----
    Mr. Collins. That's not in compliance.
    Ms. Gardiner. The only part that they were required to do 
though was to bring it to the supervisor's attention, and then 
it's silent on what becomes of it after that.
    Mr. Collins. But the supervisors were told to overlook 
them.
    Ms. Gardiner. That's true.
    Mr. Collins. That's true. Thank you, Mr. Chair.
    Chairman Bunning. Mr. Portman, welcome to the meeting, and 
you can inquire.
    Mr. Portman. Thank you, Mr. Chairman. I was here at the 
outset, and got to hear all the testimony and beginning of the 
questions. I'm sorry, I had to----
    Chairman Bunning. Busy with IRS, I understand.
    Mr. Portman [continuing]. Had to leave, but I'm back. I 
appreciate your testimony today, and your report, and the 
Chairman's holding the hearing. Because this is very important. 
It's a continuation of our efforts to try to figure out what's 
really going on. And to try to be fair about it, but to 
understand what's going on with regard to activities within the 
SSA.
    I heard you talk earlier about the partnership, and I'm 
sorry, again, I missed the questions. I don't think this 
question has been asked yet though.
    These partnership councils, how many partnership councils 
are there in the agency?
    Ms. Gardiner. I believe there's 42. They have a national 
partnership council, and regional, and local councils.
    Mr. Portman. And of those 42, how many people does that 
involve?
    Ms. Gardiner. I don't know.
    Mr. Portman. Is it a different number of people, depending 
on the level? In other words, is there a larger union here, 
than at--facilities, the smaller one.
    Ms. Gardiner. It varies from council to council.
    Mr. Portman. So, every council might be different, in terms 
of the number of people and how it's structured.
    What's a typical council? How many people?
    Ms. Gardiner. About 5 to 10 normally.
    Mr. Portman. Five to ten people? Did you find that 
information as to how many hours were devoted to the 
partnership during the last fiscal year?
    Ms. Gardiner. The agency didn't track that consistently. 
Some people reported partnership time, and some did not. Some 
believed it was official time, and some did not, so there was 
no overall accounting of that.
    Mr. Portman. And did you get into much detail as to what 
went on in these partnership council meetings, what they're 
about? We've heard evidence talking about where shelving units 
should be placed, and that sort of thing.
    Ms. Gardiner. We did look at some of the minutes of the 
council meetings, but originally our approach was going to be a 
little bit different on how we evaluate partnership, and so we 
started out looking at some of the minutes. But then once the 
agency decided to do its own inventory, we kind of changed 
gears. So, we didn't really go that route to look at the 
partnership minutes, and what they were and were not achieving.
    Mr. Portman. Mr. Huse.
    Mr. Huse. No, that answer is responsive.
    Mr. Portman. Were you satisfied when you looked at the 
minutes that what was going on in there was productive, was the 
kind of thing that you would expect these councils to discuss 
and address?
    Ms. Gardiner. We never really completed it, because what we 
had wanted to do--what we originally thought we would do is 
look at what the goal of a particular project was, and whether 
it had been achieved. And we decided not to do that. So, I 
really can't comment on a conclusion.
    Mr. Portman. Is there accountability in the system right 
now as to what takes place. These meetings are--I assume this 
is taking away from work, is that correct?
    Mr. Huse. That's correct.
    Mr. Portman. So, these are during work hours? These are 
meetings, 5 to 10 people, councils, 42 of them around the 
country.
    Is there a way that the IG's office can look at what's 
going on in these minutes, and see whether they are indeed 
meeting their purposes and being. Is there some accountability 
measure?
    Mr. Huse. Well, that's our conclusion from our review, that 
this is something that really needs to be better defined and 
better accountable.
    Mr. Portman. As to the purpose of the meetings, or the 
council structure itself?
    Mr. Huse. The purpose of the meetings--we didn't get into 
the actual purposes of the meetings.
    Mr. Portman. But you think there should be more 
accountability as to what goes on, establish a clearer mission, 
or goals. Is that the idea? When you say more accountability, 
what do you mean?
    Ms. Gardiner. More accountability in that the agency has--
well, they issued their report, indicating the results of 
partnership.
    In that it identifies benefits, but it doesn't identify 
cost. So, what we were recommending is that they have 
accounting of the hours associated with partnerships, so that 
when they discuss the benefits, they can also offset those 
against the cost.
    Mr. Portman. OK. So, a lot of the accountability you'd like 
to see is simply a recordkeeping of how many hours were spent 
on partnership activities.
    Mr. Huse. So we can make a quantifiable judgment as to the 
efficacy of this.
    Mr. Portman. Right. The other thing, I guess, in terms of 
quantifiable judgment--my time is running out--is if you could 
give us more information as to the data that would be necessary 
to prove the link between partnership in general, and reduced 
grievances. That would be helpful. Because I'm not sure from 
your report whether we have that kind of data.
    Ms. Gardiner. What we had hoped was that we were going to 
look at unfair labor practices and grievances that were filed 
prior to partnership, and then after partnership. And the only 
thing the agency had was just sheer numbers, just the volume.
    Mr. Portman. And you have also a different appraisal 
system. Going to the pass/fail valuation system would alter 
that data also, correct?
    Ms. Gardiner. Well, we thought we might be able to draw 
that conclusion, but since they didn't have the number of 
grievances that were associated with ratings prior to 
partnership, and those that were associated with ratings after 
partnership, we couldn't draw that link either, although that 
it may be likely.
    Mr. Portman. So, again, you need more quantifiable 
information.
    Mr. Huse. Again, that's the big--that's the core of our 
recommendations around the accuracy of these data.
    Mr. Portman. OK. Thank you. Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Becerra, go ahead.
    Mr. Becerra. Let me see if I can understand this. I'm 
looking at your written testimony, and I'm looking at the final 
paragraph.
    You state in your conclusion, ``Based on our 
recommendations and its earlier actions, SSA, the Social 
Security Administration, has strengthened its procedures and 
controls to ensure that official time is used appropriately, 
that allegations of suspected abuse are resolved, and that 
official time data are complete and accurate. We also 
recommended that SSA develop a formal system for identifying 
partnership accomplishment, and resultant cost savings. Neither 
SSA or AFGE agree with this final recommendation.''
    Insofar as that first recommendation, and your statement 
SSA has strengthened its procedures and controls, and that 
allegations of suspected abuse are resolved, are you making any 
recommendation today that we institute additional activities 
beyond the partnership activities, and the automated management 
information system that the Social Security Administration has 
undertaken?
    Mr. Huse. No, that they accepted our recommendations and 
came--as I said in my testimony, they came to some of these 
conclusions themselves. This is just with respect to official 
time.
    Mr. Becerra. So, let me make sure I understand this. As the 
Inspector General, having audited the Social Security 
Administration on these issues of official time, the efficacy 
of the partnership that was formed as a result of the Executive 
order by the President, are you telling me today that you 
believe, based on your examination, that the activities being 
undertaken by the Social Security Administration should be able 
to resolve any problems that you think needed correcting?
    Mr. Huse. No. My response is narrower than that.
    Mr. Becerra. OK.
    Mr. Huse. Our focus on official time is where we say that 
the agency has agreed with us and taken corrective actions.
    Mr. Becerra. And are you satisfied with that?
    Mr. Huse. We're satisfied with it if it works. We don't 
know whether it works or not. OUTTS, this automated information 
system is new, and we didn't audit that.
    Mr. Becerra. But, are you satisfied at least that the 
automated management system that they're trying to put in place 
has the chance to work?
    Mr. Huse. Yes, we are.
    Mr. Becerra. OK. Do you believe it would be worthwhile to 
allow the system to be implemented to see if it works?
    Mr. Huse. Agreed.
    Mr. Becerra. OK. Continue.
    Mr. Huse. Now, that's on the use of official time. The 
broader question of partnership is different. This is where the 
agency and the IG part. We believe that there has to be a 
definition of partnership if it's to be measured, and it has to 
be a tighter definition than the agency has extant now.
    We also believe that the inventory of partnership 
activities that they claim are partnership activities needs to 
be tightened. I think it's somewhere in the thousands now--
1,400--1,500 or so different activities that they claim are 
under the umbrella of partnership. We believe a much tighter 
accounting needs to be present for those partnership 
activities.
    And then finally, with those two in place, a definition, 
and then an inventory, we could get to the data to answer the 
Subcommittee's questions, because we can't now. So, that's what 
we found.
    Mr. Becerra. So then, let me ask you with regard to the 
issue of partnership and collecting the data, what would you 
recommend that this Committee review in terms of the types of 
data, and the form of the partnership, which you believe would 
then allow everyone to have the information available to assess 
the success of the SSA's new program to make sure that 
management and the workers are working well and efficiently for 
the people?
    Mr. Huse. Well, if they followed our recommendations, and 
had a tight definition of what partnership is, and then add a 
limited list of activities that actually fall under 
partnership; put that with an automated accounting system like 
OUTTS--
    Mr. Becerra. Did you provide any definitions of partnership 
that you thought would be appropriate?
    Mr. Huse. Again, for the very reasons, we thought that that 
would be crossing a boundary that the law doesn't give us.
    Mr. Becerra. So, you would like the SSA to come up with the 
definition and then you would like to evaluate whether or not 
it's a good enough definition?
    Mr. Huse. Absolutely. We wouldn't see our role as 
appropriate to do that, sir.
    Mr. Becerra. I understand. Thank you, Mr. Chairman, and 
thank you very much to the two of you for testifying.
    Chairman Bunning. Just to make sure that there's no 
misunderstanding about your conclusions, the definition of 
partnership and related activities was unclear.
    The inventory as you spoke of partnership activity was 
questionable. In other words, that you couldn't get a hold of 
it, because there's too many things falling under the umbrella, 
and more defined.
    SSA systems did not provide sufficient data to support a 
quantitative interpretation of the results or accomplishments 
from partnership. Even though the OUTTS system is in place, 
there wasn't enough data that you could get a handle on.
    Mr. Huse. That's correct, sir.
    Chairman Bunning. That's your conclusions?
    Mr. Huse. That's our report.
    Mr. Becerra. Mr. Chairman, if I could just add one----
    Chairman Bunning. No, we're going to close----
    Mr. Becerra. Just one real quick question on the point that 
you've made. I just want to make sure that--there are problems 
with the SSA complying with what the----
    Chairman Bunning. Both the SSA and the union, both.
    Mr. Becerra. But in terms of what you've just mentioned, 
any of the things that you've just mentioned--that the Chairman 
has just mentioned--do the employees have control over the 
methods that are implemented by the administration at SSA in 
determining what falls under partnership?
    Mr. Huse. No, the employees themselves do not. The 
partnership activities I assume would be the result of 
collective bargaining agreements.
    Mr. Becerra. And in terms of how the official time is 
defined and permitted to be used, that's through collective 
bargaining, and ultimately the actual implementation is done by 
management, over request by the employees?
    Mr. Huse. That's right, you're right.
    Mr. Becerra. So, if there's an accusation or a suspicion of 
abuse by an employee, it has to be reported, and it has to be 
investigated by management. And unless it's investigated, and 
perhaps there's a finding one way or the other, and an employee 
won't know, if in fact, he or she's making a request that's out 
of the bounds of the collective bargaining agreement?
    Mr. Huse. You're right.
    Mr. Becerra. Thank you.
    Chairman Bunning. Just so there's no misunderstanding about 
what is in the record, I would like to by unanimous consent put 
the IG's report in the record. Without objections we'll do 
that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED]61080A.007
    
    [GRAPHIC] [TIFF OMITTED]61080A.008
    
    [GRAPHIC] [TIFF OMITTED]61080A.009
    
    [GRAPHIC] [TIFF OMITTED]61080A.010
    
    [GRAPHIC] [TIFF OMITTED]61080A.011
    
    [GRAPHIC] [TIFF OMITTED]61080A.012
    
    [GRAPHIC] [TIFF OMITTED]61080A.013
    
    [GRAPHIC] [TIFF OMITTED]61080A.014
    
    [GRAPHIC] [TIFF OMITTED]61080A.015
    
    [GRAPHIC] [TIFF OMITTED]61080A.016
    
    [GRAPHIC] [TIFF OMITTED]61080A.017
    
    [GRAPHIC] [TIFF OMITTED]61080A.018
    
    [GRAPHIC] [TIFF OMITTED]61080A.019
    
    [GRAPHIC] [TIFF OMITTED]61080A.020
    
    [GRAPHIC] [TIFF OMITTED]61080A.021
    
    [GRAPHIC] [TIFF OMITTED]61080A.022
    
    [GRAPHIC] [TIFF OMITTED]61080A.023
    
    [GRAPHIC] [TIFF OMITTED]61080A.024
    
    [GRAPHIC] [TIFF OMITTED]61080A.025
    
    [GRAPHIC] [TIFF OMITTED]61080A.026
    
    [GRAPHIC] [TIFF OMITTED]61080A.027
    
    [GRAPHIC] [TIFF OMITTED]61080A.028
    
    [GRAPHIC] [TIFF OMITTED]61080A.029
    
    [GRAPHIC] [TIFF OMITTED]61080A.030
    
    [GRAPHIC] [TIFF OMITTED]61080A.031
    
    [GRAPHIC] [TIFF OMITTED]61080A.032
    
    [GRAPHIC] [TIFF OMITTED]61080A.034
    
    [GRAPHIC] [TIFF OMITTED]61080A.035
    
    [GRAPHIC] [TIFF OMITTED]61080A.036
    
    [GRAPHIC] [TIFF OMITTED]61080A.037
    
    [GRAPHIC] [TIFF OMITTED]61080A.038
    
    [GRAPHIC] [TIFF OMITTED]61080A.039
    
    [GRAPHIC] [TIFF OMITTED]61080A.040
    
    [GRAPHIC] [TIFF OMITTED]61080A.041
    
    [GRAPHIC] [TIFF OMITTED]61080A.042
    
    [GRAPHIC] [TIFF OMITTED]61080A.043
    
    [GRAPHIC] [TIFF OMITTED]61080A.044
    
    [GRAPHIC] [TIFF OMITTED]61080A.046
    
    [GRAPHIC] [TIFF OMITTED]61080A.047
    
    [GRAPHIC] [TIFF OMITTED]61080A.048
    
    [GRAPHIC] [TIFF OMITTED]61080A.049
    
    [GRAPHIC] [TIFF OMITTED]61080A.050
    
    [GRAPHIC] [TIFF OMITTED]61080A.051
    
    [GRAPHIC] [TIFF OMITTED]61080A.052
    
    [GRAPHIC] [TIFF OMITTED]61080A.053
    
    [GRAPHIC] [TIFF OMITTED]61080A.054
    
    [GRAPHIC] [TIFF OMITTED]61080A.055
    
    [GRAPHIC] [TIFF OMITTED]61080A.056
    
    [GRAPHIC] [TIFF OMITTED]61080A.341
    
    [GRAPHIC] [TIFF OMITTED]61080A.057
    
    [GRAPHIC] [TIFF OMITTED]61080A.060
    
    [GRAPHIC] [TIFF OMITTED]61080A.062
    
    [GRAPHIC] [TIFF OMITTED]61080A.063
    
    [GRAPHIC] [TIFF OMITTED]61080A.064
    
    [GRAPHIC] [TIFF OMITTED]61080A.065
    
    [GRAPHIC] [TIFF OMITTED]61080A.066
    
    [GRAPHIC] [TIFF OMITTED]61080A.067
    
    [GRAPHIC] [TIFF OMITTED]61080A.068
    
    [GRAPHIC] [TIFF OMITTED]61080A.070
    
    [GRAPHIC] [TIFF OMITTED]61080A.071
    
    [GRAPHIC] [TIFF OMITTED]61080A.072
    
    [GRAPHIC] [TIFF OMITTED]61080A.073
    
    [GRAPHIC] [TIFF OMITTED]61080A.074
    
    [GRAPHIC] [TIFF OMITTED]61080A.075
    
    [GRAPHIC] [TIFF OMITTED]61080A.076
    
    [GRAPHIC] [TIFF OMITTED]61080A.077
    
    [GRAPHIC] [TIFF OMITTED]61080A.078
    
    [GRAPHIC] [TIFF OMITTED]61080A.079
    
    [GRAPHIC] [TIFF OMITTED]61080A.080
    
    [GRAPHIC] [TIFF OMITTED]61080A.081
    
    [GRAPHIC] [TIFF OMITTED]61080A.082
    
    [GRAPHIC] [TIFF OMITTED]61080A.083
    
    [GRAPHIC] [TIFF OMITTED]61080A.084
    
    [GRAPHIC] [TIFF OMITTED]61080A.085
    
    [GRAPHIC] [TIFF OMITTED]61080A.086
    
    [GRAPHIC] [TIFF OMITTED]61080A.087
    
    [GRAPHIC] [TIFF OMITTED]61080A.088
    
    [GRAPHIC] [TIFF OMITTED]61080A.089
    
    [GRAPHIC] [TIFF OMITTED]61080A.090
    
    [GRAPHIC] [TIFF OMITTED]61080A.091
    
    [GRAPHIC] [TIFF OMITTED]61080A.092
    
    [GRAPHIC] [TIFF OMITTED]61080A.093
    
    [GRAPHIC] [TIFF OMITTED]61080A.094
    
    [GRAPHIC] [TIFF OMITTED]61080A.095
    
    [GRAPHIC] [TIFF OMITTED]61080A.096
    
    [GRAPHIC] [TIFF OMITTED]61080A.097
    
    [GRAPHIC] [TIFF OMITTED]61080A.098
    
    [GRAPHIC] [TIFF OMITTED]61080A.099
    
    [GRAPHIC] [TIFF OMITTED]61080A.100
    
    [GRAPHIC] [TIFF OMITTED]61080A.101
    
    [GRAPHIC] [TIFF OMITTED]61080A.102
    
    [GRAPHIC] [TIFF OMITTED]61080A.103
    
    [GRAPHIC] [TIFF OMITTED]61080A.104
    
    [GRAPHIC] [TIFF OMITTED]61080A.105
    
    [GRAPHIC] [TIFF OMITTED]61080A.106
    
    [GRAPHIC] [TIFF OMITTED]61080A.107
    
    [GRAPHIC] [TIFF OMITTED]61080A.108
    
    [GRAPHIC] [TIFF OMITTED]61080A.109
    
    [GRAPHIC] [TIFF OMITTED]61080A.110
    
    [GRAPHIC] [TIFF OMITTED]61080A.112
    
    [GRAPHIC] [TIFF OMITTED]61080A.113
    
    [GRAPHIC] [TIFF OMITTED]61080A.114
    
    [GRAPHIC] [TIFF OMITTED]61080A.115
    
    [GRAPHIC] [TIFF OMITTED]61080A.117
    
    [GRAPHIC] [TIFF OMITTED]61080A.118
    
    [GRAPHIC] [TIFF OMITTED]61080A.119
    
    [GRAPHIC] [TIFF OMITTED]61080A.120
    
    [GRAPHIC] [TIFF OMITTED]61080A.122
    
    [GRAPHIC] [TIFF OMITTED]61080A.123
    
    [GRAPHIC] [TIFF OMITTED]61080A.124
    
    [GRAPHIC] [TIFF OMITTED]61080A.125
    
    [GRAPHIC] [TIFF OMITTED]61080A.126
    
    [GRAPHIC] [TIFF OMITTED]61080A.127
    
    [GRAPHIC] [TIFF OMITTED]61080A.128
    
    [GRAPHIC] [TIFF OMITTED]61080A.129
    
    [GRAPHIC] [TIFF OMITTED]61080A.130
    
    [GRAPHIC] [TIFF OMITTED]61080A.131
    
    [GRAPHIC] [TIFF OMITTED]61080A.132
    
    [GRAPHIC] [TIFF OMITTED]61080A.134
    
    [GRAPHIC] [TIFF OMITTED]61080A.135
    
    [GRAPHIC] [TIFF OMITTED]61080A.136
    
    [GRAPHIC] [TIFF OMITTED]61080A.137
    
    [GRAPHIC] [TIFF OMITTED]61080A.138
    
    [GRAPHIC] [TIFF OMITTED]61080A.139
    
    [GRAPHIC] [TIFF OMITTED]61080A.140
    
    [GRAPHIC] [TIFF OMITTED]61080A.141
    
    [GRAPHIC] [TIFF OMITTED]61080A.142
    
    [GRAPHIC] [TIFF OMITTED]61080A.143
    
    [GRAPHIC] [TIFF OMITTED]61080A.144
    
    [GRAPHIC] [TIFF OMITTED]61080A.145
    
    [GRAPHIC] [TIFF OMITTED]61080A.146
    
    [GRAPHIC] [TIFF OMITTED]61080A.147
    
    [GRAPHIC] [TIFF OMITTED]61080A.148
    
    [GRAPHIC] [TIFF OMITTED]61080A.149
    
    [GRAPHIC] [TIFF OMITTED]61080A.150
    
    [GRAPHIC] [TIFF OMITTED]61080A.151
    
    [GRAPHIC] [TIFF OMITTED]61080A.152
    
    [GRAPHIC] [TIFF OMITTED]61080A.153
    
    [GRAPHIC] [TIFF OMITTED]61080A.154
    
    [GRAPHIC] [TIFF OMITTED]61080A.155
    
    [GRAPHIC] [TIFF OMITTED]61080A.156
    
    [GRAPHIC] [TIFF OMITTED]61080A.157
    
    [GRAPHIC] [TIFF OMITTED]61080A.158
    
    [GRAPHIC] [TIFF OMITTED]61080A.159
    
    [GRAPHIC] [TIFF OMITTED]61080A.160
    
    [GRAPHIC] [TIFF OMITTED]61080A.161
    
    [GRAPHIC] [TIFF OMITTED]61080A.162
    
    [GRAPHIC] [TIFF OMITTED]61080A.163
    
    [GRAPHIC] [TIFF OMITTED]61080A.164
    
    [GRAPHIC] [TIFF OMITTED]61080A.165
    
    [GRAPHIC] [TIFF OMITTED]61080A.166
    
    [GRAPHIC] [TIFF OMITTED]61080A.168
    
    [GRAPHIC] [TIFF OMITTED]61080A.170
    
    [GRAPHIC] [TIFF OMITTED]61080A.172
    
    [GRAPHIC] [TIFF OMITTED]61080A.173
    
    [GRAPHIC] [TIFF OMITTED]61080A.174
    
    [GRAPHIC] [TIFF OMITTED]61080A.175
    
    [GRAPHIC] [TIFF OMITTED]61080A.176
    
    [GRAPHIC] [TIFF OMITTED]61080A.178
    
    [GRAPHIC] [TIFF OMITTED]61080A.179
    
    [GRAPHIC] [TIFF OMITTED]61080A.180
    
    [GRAPHIC] [TIFF OMITTED]61080A.181
    
    [GRAPHIC] [TIFF OMITTED]61080A.182
    
    [GRAPHIC] [TIFF OMITTED]61080A.183
    
    [GRAPHIC] [TIFF OMITTED]61080A.185
    
    [GRAPHIC] [TIFF OMITTED]61080A.186
    
    [GRAPHIC] [TIFF OMITTED]61080A.187
    
    Chairman Bunning. And to close, often it's impossible for 
this Subcommittee--I know you wouldn't agree with that--to 
cover every issue we are interested in during this hearing; 
therefore we may be submitting additional questions in writing 
for you to answer for the record.
    [The following was subsequently received:]

1a. Is the process of requesting and/or approving official time 
different for full-time union officials versus part-time union 
officials?

    No, the process of requesting and approving official time 
does not differ depending on full-time or part-time status. 
However, it may be different for union officers versus non-
officers.
    All union representatives should request and arrange in 
advance for their use of official time by preparing an official 
time form. However, the negotiated agreements allow the parties 
to make other arrangements for requesting official time when 
the union representative is unable to do so in advance. In 
addition, at Headquarters, union officials are required to make 
arrangements to sign in and out with a management official/
supervisor.

1b. What did the supervisors tell you about the requests they 
receive for official time? Were they accurate? Complete? Do 
they try to get more information from the union official when 
the requests are incomplete?

    We found that supervisors usually cannot determine whether 
the request for official time is for an authorized activity 
because information provided on the official time forms is 
incomplete or the official time forms do not require specific 
information.
    Based on our interviews with 12 supervisors at 
Headquarters, 10 stated that they did not know or attempt to 
judge whether the requests for official time were appropriate. 
We believe the principal reasons for this statement were that 
the official time forms do not require adequate data to make an 
informed decision or were completed with vague responses. 
Supervisors generally do not try to get more information when a 
request is incomplete.

2. Without getting into specific identifying details, we 
understand that your office was involved in an investigation 
involving travel voucher fraud and suspected abuse of official 
time. Can you tell us what happened in that investigation? What 
was the ultimate result? Is this individual still working at 
SSA, and if so, what job does this individual hold?

    Our office received an allegation concerning the suspected 
abuse of official time and travel voucher fraud of an SSA 
claims representative. We opened an investigation and 
determined that over a period of 3 years the claims 
representative applied for and accepted payment for travel and 
per diem for which he was not entitled. We concluded our 
investigation on April 11, 1996. Since the U.S. Attorney 
declined prosecution, we referred the matter to SSA for 
appropriate administrative action. SSA suspended the individual 
without pay for 60 days. He has since returned to his position 
of claims representative at an SSA field office. We could not 
substantiate the portion of the allegation concerning abuse of 
official time.

3a. How is the number of union representatives determined?

    The number of union representatives is determined by 
collective bargaining agreements.

3b. Does SSA keep current lists of those authorized to use 
official time?

    At the time of our audit, we found that SSA did not 
maintain a current, accurate listing of union representatives 
nationwide. Since that time SSA has taken steps to collect 
accurate listings of union representatives to further assist in 
its efforts to enforce contractual limits on the number of 
official representatives.

3c. Does SSA ensure that the limits on the number of 
representatives are adhered to?

    As indicated in the previous response, SSA has a process in 
place to ensure that the contractual agreements are followed.

3d. Did some offices have more than the allotted number of 
union representatives?

    During our audit of selected offices, we found one 
component had more than the allotted number of representatives. 
Local 1923 at Headquarters had 11 Assistant Chief Stewards 
authorized to use official time at a given point in time, 
whereas the collective bargaining agreement indicates there 
should have been only 7. This has been corrected by SSA.

4. An Executive Order signed by President Clinton in 1993 
articulated a new vision of management relations, called 
``Partnership'' that required agencies to involve employees as 
full partners with management to identify problems and craft 
solutions to better fulfill the agency's mission and serve its 
customers. Did SSA have any specific list or inventory of what 
are considered Partnership activities when you began your 
survey?

    No. SSA had neither conducted its own evaluation of 
Partnership nor developed its own inventory of Partnership 
activities. In July 1997, several months after we began our 
evaluation, SSA established its Partnership Evaluation Team to 
compile the first agency-wide inventory of Partnership 
initiatives and to evaluate SSA Partnership activities.

5. Did you review SSA's Partnership inventory? If so, what were 
your findings?

    When we reviewed the inventory of Partnership activities, 
we found it difficult to determine which activities met the 
intent of Partnership; that is, ``. . . to identify problems 
and craft solutions to better serve the agency's customers and 
mission'' (E.O. 12983). We also found that SSA had not defined 
``Partnership'' and related activities before it conducted its 
own evaluation of Partnership. Therefore, it was not unexpected 
to find that the inventory included a broad range of 
miscellaneous activities because employees across SSA had 
developed their own definitions. We questioned the usefulness 
of the diverse grouping of activities in assessing progress and 
measuring the improvements that result from Partnership. For 
example, some of the reported activities included:
    installation of shelving units,
    use of radios on overtime,
    break-room clean-up,
    debt modernization project,
    organizational planning team, and
    interest-based bargaining training.
    As you are aware, there is a significant difference of 
opinion between the OIG and SSA in this area.

6. SSA has informed this Subcommittee that Partnership has 
helped reduce the high costs associated with litigation of 
grievances. Do your findings support this statement?

    Our review did not find support for SSA's statement. We 
determined there was insufficient evidence to draw such a 
connection. The data were incomplete and did not provide the 
details necessary to determine whether Partnership had reduced 
the number of grievances. SSA management agreed that the data 
necessary ``to prove the link'' between Partnership and the 
reduction in grievance costs did not exist before 1996. SSA 
management intuitively believes that Partnership has had a 
positive effect on the Agency and has made addressing labor-
related issues easier.

7. You have stated that the data necessary to prove the link 
were not available. What information was available?

    Only summary records for grievances were available. To 
prove a link between partnership and a reduction in grievance 
costs, we would need to examine the issues that had previously 
been grieved and compare them to issues that are currently 
being grieved. It still might be difficult to prove the link. 
For example, it is alleged that many grievances related to 
performance appraisals. In 1995, SSA implemented a Pass/Fail 
performance rating system. The decline in grievances in 1996 
and 1997 could be attributed to Partnership, the new appraisal 
system, or factors not known to us.

8. An earlier General Accounting Office report indicated that 
Partnership would likely result in an increase in the amount of 
official time used. Do you believe this is true?

    No. The Commissioner of Social Security determined that 
time spent on Partnership activities will not be considered 
official time; therefore, such time will not be reflected in 
SSA's official time reports. That decision was based on the 
conclusion that Partnership activities do not constitute the 
type of representational activity defined in the Federal Labor-
Management Relations Statute. During our evaluation, we asked 
the Office of Personnel Management (OPM) whether other Federal 
agencies were reporting Partnership activities as official 
time. OPM informed us that the reporting of Partnership time as 
official time varies from agency to agency.

9a. How does SSA plan to capture Partnership time and will SSA 
report on the number of employees' hours and costs involved in 
Partnership?

    In January 1998, SSA established new guidance to record 
time expended on Partnership activities by managers, union 
officials, and employees. SSA has determined that Partnership 
activities include:
    facilitating Partnership Council meetings and training,
    attending Partnership Council meetings,
    Partnership training, and
    travel to/from Partnership meetings and training.
    SSA has developed a temporary, automated system for 
managers only. The Agency is exploring a more permanent process 
for reporting Partnership time for all employees (i.e., 
expanding the Official Union Time Tracking System [OUTTS]). 
OUTTS is an automated system that tracks the use of official 
time and enables monitoring of the hours expended on union 
activities by individual union representatives in the field 
(not at Headquarters). In the interim, SSA developed the 
following forms for all employees to capture and report 
partnering activities:
    Form SSA-298, Weekly Partnership Activities Time Accounting 
Form (submitted to the immediate supervisor each week)
    Form SSA-299, Management Partnership/Labor Management 
Relations Activities Time Accounting Form (submitted to the 
Office of Labor Management and Employee Relations on a 
quarterly basis)
    Form SSA-301, Partnership Activities Time Accounting Form 
for Union Designees (submitted to supervisors on a basis 
consistent with existing methods for releasing employees or 
union officials from the worksite)
    New time reporting guidance, systems, and forms may provide 
SSA with an ability to report on the number of employees hours 
and their estimated cost.

9b. How many of the activities in SSA's inventory of 
Partnership activities would meet SSA's definition of 
Partnership activities?

    We determined that approximately 192 of 1,537 activities in 
SSA's inventory of Partnership activities would meet SSA's 
definition of Partnership activities. The remaining 1,345 would 
be considered either Agency time or official time. Official 
time would be reported only in situations where union and 
management officials cannot agree on a participant for an 
activity (for example, a workgroup), and the union would 
appoint a representative. We were unable to determine which of 
the 1,345 would be Agency time or official time.

9c. When SSA does its next evaluation of Partnership, will it 
assess its achievements based only on those activities it will 
be formally tracking?

    SSA staff informed us that no decision has been made 
concerning this issue for the next evaluation.

10. What do you think your findings tell us about the use of 
official time at SSA?

    Although SSA has taken action to improve the accuracy of 
the official time reporting process, more needs to be done. 
Improvements are needed in existing procedures and controls 
pertaining to use of official time. Additionally, SSA needs to 
ensure that allegations of suspected abuse of official time are 
resolved in a timely manner and that the resolution is 
communicated to the appropriate manager.

11. What do you think your findings say about Partnership?

    SSA needs to develop a more uniform definition of 
Partnership that is consistent with other Partnership related 
guidance. It also needs to develop a formal system for 
identifying and maintaining Partnership initiatives and 
accomplishments. Finally, the agency needs to develop a 
consolidated guide of time-reporting policies and procedures 
for reporting time and costs devoted to Partnership and other 
union-related activities.
      

                                <F-dash>


    Chairman Bunning. First of all, I want to thank Ms. 
Gardiner and Mr. Huse for all your staff's hard work in 
finalizing this report. I look forward to your continued 
support in full investigation, all reports of abuse brought 
before this Subcommittee.
    The hearing stands adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned, 
subject to the call of the Chair.]


    LABOR-MANAGEMENT RELATIONS AT THE SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                        THURSDAY, JULY 23, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1100, Longworth House Office Building, Hon. Jim Bunning 
(Chairman of the Subcommittee) presiding.
    Chairman Bunning. The Subcommittee will come to order, 
please.
    Good morning. All our guests, please take seats--I would 
appreciate it--after they get their materials, please.
    Today is the second day of our investigation of abuse 
involving taxpayers' financing of union activity at the Social 
Security Administration. I am very pleased with the bipartisan 
cooperation we have received, and I'm grateful to SSA's 
Inspector General for his fine work fighting fraud and abuse. 
Let me repeat what I said yesterday: ``We have an obligation to 
protect the integrity of the Social Security, and we must 
respect the rights of organized labor. But we must do so while 
fighting abuse wherever we find it.''
    Today we'll hear from several SSA managers and employees 
who have displayed great courage and dedication to their--to 
the seniors they serve. These hard-working civil servants have 
traveled here to share their experiences with us. Our job is to 
help them so they can better serve our Nation's elderly, the 
disabled, and the widows and survivors who come under SSA's 
purview.
    Some of the testimony we will hear is unsettling. I commend 
each of you for the civil duty you are performing by sharing 
your information with us. It may not be easy, but our Nation 
will owe you its thanks for your effort today.
    I understand that in the past one witness with us today had 
his tires slashed. Another received a threat that he would end 
up missing. I want to be clear about this, and very clear, so 
there's no misunderstanding. No one on this Subcommittee--no 
Democrat, no Republican--will tolerate threats against civil 
servants who come forward to serve their Nation. It would be a 
violation, first of all, of Federal law for anyone at the 
agency to retaliate against our witnesses today because of 
their testimony before Congress. I want to put everyone at the 
agency on notice: Conduct of that kind will not be tolerated. 
And I intend to keep a very close eye on this matter after the 
hearing.
    In the interest of time, it is our practice to dispense 
with opening statements, except for the Ranking Democratic 
Member. All Members are welcome to submit statements for the 
record. I yield to Mrs. Kennelly any time that she would take 
to make a statement.
    Mrs. Kennelly. I appreciate that, Mr. Chairman.
    Mr. Chairman, as representatives of the people, our duty is 
to carefully consider every side of an issue, and examine a 
wide range of information, so that we can make the best 
decisions. We cannot do this if we can only hear half of the 
story.
    Our meeting today focuses on employee-management relations 
at the Social Security Administration. As is the case in many 
offices with managers and employees, there are managers at SSA 
who think their employees' time could be better used if they 
did not spend any time representing other employees. Today we 
will hear from two managers who seem to hold that view.
    In total, however, there are about 1,300 local office 
managers at SSA, and they hold a wide range of views on 
employee-management relations in their offices. It's important 
to recognize that any manager, regardless of whether he has a 
good relationship with employees or a bad one, would be 
reluctant to come before Congress to speak about employee 
relations. The two witnesses we have subpoenaed represent their 
own perspective. But many managers at SSA have a different 
view.
    The organization representing all 1,300 local office 
managers sent a letter presenting a broader view than the two 
witnesses we have before us today. And I would ask permission 
to read two paragraphs from the letter, Mr. Chairman.
    Chairman Bunning. Without objection.
    Mrs. Kennelly. Thank you, Mr. Chairman.

    The overwhelming majority of employees in field offices and 
teleservice centers are represented by unions. Managers and 
supervisors across the country must deal frequently with union 
representatives on issues that affect the working conditions of 
the staffs in each organized facility. The issues that are 
discussed by management and the union vary from office to 
office. The success of those discussions and the time devoted 
to those discussions depend, to some degree, on a number of 
factors. Those factors can include the labor relations history 
of the individual facility, the personalities, negotiating 
styles, and expertise of the individuals involved in the 
process.
    The relative importance of the issue being discussed and 
the levels of support that both management and labor receive 
from higher levels in their respective bureaucracies. I have 
heard reliably that in some facilities within SSA labor 
management relations continue to be strained, and more than the 
usual amount of time is spent on union activities by both 
managers and union representatives. However, in many, many 
other facilities, there are very good labor-management 
relations and little time spent on union activities.

    This letter was sent to me, and it's signed Ron Neising, 
President, CSSMA.
    Chairman Bunning. Well, do you mind if we put the whole 
thing in the record?
    Mrs. Kennelly. Good idea. Great idea.
    Chairman Bunning. We'll just enter the whole thing in the 
record.
    Mrs. Kennelly. Thank you, Jim.
    [No information had been received at the time of printing.]
    Mr. Chairman, we must be really upfront about the reasons 
we have these two carefully selected managers who want to be 
here to testify in person. Managers who have no complaints 
about the current system, who think it is an efficient use of 
resources, or who have no stories to tell about abuses and 
don't need any media attention, they just didn't feel the need 
to come at this point in time.
    And yet, as Members of Congress, we have a responsibility 
to consider the most numerous, less interesting examples as 
well. With all due respect to the valid experiences of 
witnesses and the testimony we are about hear, we will not be 
serving the American people if we end up governing by anecdote.
    And I would say that we must have some representation from 
the other side of the story.
    I thank you, Mr. Chairman.
    Chairman Bunning. Thank you, Congresswoman Kennelly.
    I'd like to call the panel and introduce the panel that is 
going to be testifying today. John Reusing, Claims Authorizer 
in the Division of International Operations and third vice 
president of the AFGE local 1923 at the Social Security 
Administration in Baltimore, Maryland. We seem to have a 
vacancy. Jim Beckstrom will introduce him if he shows up.
    Jim, come right up; we found you--a computer specialist for 
the Office of Systems and Cochair of the Office of Systems 
Partnership Council at the Social Security Administration in 
Baltimore, Maryland. Jim Schampers--that's correct?--district 
manager of the Waco, Texas, Social Security Administration 
District Office, and Edwin Hardesty, district manager of the 
Tulsa, Oklahoma, Social Security District Office.
    If the witnesses will stand, I will swear you in.
    [Witnesses sworn.]
    Before the witnesses begin their testimony, let me remind 
them that they should refrain from specifically identifying in 
this open hearing any individual allegation involved in 
unlawful or improper activities. I believe that the appropriate 
forum for that information would be at the SSA Office of the 
Inspector General.
    Therefore, I would ask that you provide that type of 
information if you have it and any supporting documents to the 
IG.
    Mr. Reusing, you may proceed.

   STATEMENT OF JOHN REUSING, CLAIMS AUTHORIZER, DIVISION OF 
   INTERNATIONAL OPERATIONS, SOCIAL SECURITY ADMINISTRATION, 
   BALTIMORE, MARYLAND; AND THIRD VICE PRESIDENT OF AMERICAN 
         FEDERATION OF GOVERNMENT EMPLOYEES, LOCAL 1923

    Mr. Reusing. My name is John Reusing, and I have been an 
employee at the Social Security Administration in Baltimore, 
Maryland for 25 years. I am currently a claims authorizer in 
the agency's Division of International Operations, and I have 
been active in unions for 30 years. I am currently the third 
vice president of AFGE local 1923, where I have served as a 
steward or an officer for 15 years.
    Mr. Hayworth. Mr. Chairman, Mr. Reusing, forgive me for 
interrupting, but if you could please pull the microphone 
directly in front of you, closer, that would be good.
    Mr. Becerra. Mr. Chairman, parliamentary inquiry. Mr. 
Chairman? Parliamentary inquiry. I understand that some of the 
witnesses were subpoenaed. Does that mean that they are 
testifying under oath at this stage?
    Chairman Bunning. They all are testifying under oath. We 
gave them the oath.
    Mr. Becerra. OK. Thank you very much.
    Mr. Reusing. Despite the demands of my union position, I 
have always felt an obligation to spend a portion of my time 
working for the taxpayers by performing the duties of my job. 
This practice has allowed me to be a more effective advocate of 
employee concerns and meet my dual obligation to the taxpayers 
and SSA employees. Unfortunately, many of my union colleagues 
do not share my views.
    The union rarely consults employees on major issues and 
often does not inform the employees of decisions it makes. 
Union activists in my local do not believe they are accountable 
to management or the employees. There is virtually no 
supervision of officers and stewards by management or union 
officials. This has led to rampant abuse of official time. 
Union officers usually conduct internal union business on 
official time. They attend union meetings, campaign for union 
office, and work on the union budget while on official time. 
Employees have observed union activists selling real estate, 
working at Camden Yards stadium, and doing home maintenance 
while on official time. On many occasions, I have seen my 
colleagues using official time to go shopping, conduct personal 
business, or pursue hobbies, such as fishing, golf, and record 
collecting.
    However, the most common complaint of employees and 
managers is that union officials are just not there. They are 
on official time, but they are not onsite. Official time has 
also been used for political activity. Training meetings have 
been used to rally stewards to support political candidates. 
Union dues have also been used for political contributions. 
When these abuses are discovered, no action is taken. 
Management has learned that it can get anything it wants from 
the union if it grants enough official time.
    Union representatives have learned how to use the EEO 
process to get unlimited official time. Complaints that could 
have been resolved under the less costly grievance process are 
filed under EEO, so the steward can get more official time. EEO 
time does not count against the agency's labor relations 
budget, and, therefore, probably did not show up in the OIG 
audit.
    The partnership agreement is probably the worst thing that 
has happened to SSA employees and taxpayers. With partnership 
came the implementation of the pass/fail rating and award 
panels. These changes have lowered morale and reduced 
productivity. The OIG report grossly underestimated the time on 
partnership. Most people involved in partnership committees are 
not union activists; some are not even members. They serve on 
award panels, work groups, and as facilitators.
    Award committees are the worst aspect of partnership. Each 
year about 10 percent of the employees in my office spend two 
or more weeks giving out awards. For the most part, they give 
these awards to themselves and their friends. When employees 
complain to the union, they are told that they don't have a 
case. If they file an EEO complaint, a high ranking official in 
the union interferes in the investigation. Partnership councils 
are also being used to advance the careers of corrupt union 
officials. Management gets what it wants, and the union sells 
out employees.
    Unions are supposed to be democratic organizations that 
represent the interests of its members. Unfortunately, this is 
not the case at the Social Security Administration headquarters 
in Baltimore, Maryland. The real business of the union is to 
protect the position of union officers and, if possible, 
advance them to a national union office. They use their offices 
to provide employment opportunities to their family members and 
their friends, to obtain promotions for themselves, and to 
obtain retirement opportunities that are not available to other 
employees. Union officers spend all day every day on official 
time. They hold office for most of their careers since 
reelection is practically guaranteed. Favored reps receive 
additional time for their allegiance to the executive board. 
They do not need to do additional representation to stay away 
from their jobs. Many dedicated representatives have been 
forced out because of union politics or have left in disgust. 
The representatives that remain do not have the training or the 
inclination to handle arbitration or complex issues.
    In the last year alone, four union officers or stewards, 
who have challenged these practices or investigated union 
corruption, have been removed from their positions and stripped 
of their duties. They have been harassed by other activists and 
their property vandalized. I have been relieved of my duties 
twice in my 15-year career as an officer and steward with AFGE. 
In December 1995, I was fired as a steward for speaking out 
against the pass/fail rating system. In 1996, I decided to run 
for union office. I was contacted by the same high-level union 
official, who only months before had fired me, and I was 
offered a deal. I would be given 100 percent official time for 
the rest of my career if I did not embarrass union officials. 
This same offer was made to another candidate. I declined the 
offer and was elected third vice president of the local. I was 
removed from this position in October 1997 for investigating 
financial irregularities in the union and uncovering election 
fraud in the local. Another factor that made me unpopular with 
the union bosses was that I continued to work at my regular job 
15 or 20 hours per week, and I still handled a heavier case 
load than other union officers. There is no reason why my 
colleagues could not do the same.
    In my opinion--or it is my opinion that partnership and a 
self-serving union have severely damaged the agency. Employees 
dislike pass/fail ratings. Award panels have caused friction 
among employees and are universally viewed as unfair and an 
invasion of privacy. Managers are powerless because they do not 
have the ability to reward or discipline employees. These 
misguided policies are affecting the agency's ability to serve 
the public and should not be allowed to continue.
    I would encourage your Subcommittee to take action to 
eliminate pass/fair ratings and award panels. I would encourage 
you to end partnership or severely limit its scope. I recommend 
that union activists spend at least 50 percent of their time at 
their government jobs. I would also recommend that managers 
verify that official time is spent only on union activities.
    In conclusion, I believe that the issues of partnership and 
union activity at SSA have a dramatic effect on employee 
morale, and, therefore, are as important as any issue facing 
the agency in coming years. For without the commitment and 
dedication of SSA employees, all the agency's initiatives are 
doomed to failure.
    Thank you for allowing me to express my concerns.
    [The prepared statement follows:]

Statement of John Reusing, Claims Authorizer, Division of International 
Operations, Social Security Administration, Baltimore, Maryland; and 
Third Vice President, American Federation of Government Employees Local 
1923

    My name is John Reusing and I have been an employee at the 
Social Security Administration in Baltimore, Md. for twenty-
five years. I am currently a claims authorizer in the Agency's 
Division of International Operations. I have been active in 
Unions for 30 years; and I am currently the third vice 
president of AFGE Local 1923, where I have served as a steward 
or an officer for 15 years. Despite the demands of my Union 
position, I have always felt an obligation to spend a portion 
of my time working for the taxpayers by performing the duties 
of my job. This practice has allowed me to be a more effective 
advocate of employee concerns and meet my dual obligation to 
the taxpayers and SSA employees. Unfortunately, many of my 
Union colleagues do not share my views.
    The Union rarely consults employees on major issues and 
often does not inform the employees of the decisions it makes. 
Union activists in my Local do not believe they are accountable 
to management or the employees. There is virtually no 
supervision of officers and stewards by management or Union 
officials. This has led to rampant abuse of official time. 
Union officers usually conduct internal Union business on 
official time. They attend Union meetings, campaign for Union 
office and work on the Union budget while on official time. 
Employees have observed Union activists selling real estate, 
working at Camden Yards stadium and doing home maintenance 
while on official time. On many occasions I have seen my 
colleagues using official time to go shopping, conduct personal 
business or pursue hobbies such as fishing, golf and record 
collecting. However, the most common complaint of employees and 
managers is that the Union officials are just not there. They 
are on official time but they are not on site. Official time 
has also been used for political activity. Training meetings 
have been used to rally stewards to support political 
candidates. Union dues have also been used for political 
contributions. When these abuses are discovered, no action is 
taken. Management has learned that it can get anything it wants 
from the Union if it grants enough official time.
    Union representatives have learned how to use the EEO 
process to get unlimited official time. Complaints that could 
have been resolved under the less costly grievance process are 
filed under EEO so the steward can get more time. EEO time does 
not count against the Agency's labor relations budget, and 
therefore, probably did not show up in the OIG audit.
    The partnership agreement is probably the worst thing that 
has happened to SSA employees and the taxpayers. With 
partnership came the implementation of pass/fail ratings and 
award panels. These changes have lowered morale and reduced 
productivity. The OIG report grossly underestimated the time 
spent on partnership. Most people involved in partnership 
committees are not Union activists; some are not even members. 
They serve on award panels, work groups, and as facilitators.
    Award committees are the worst aspect of partnership. Each 
year about 10% of the employees in my office spend two or more 
weeks giving out awards. For the most part they give awards to 
themselves and their friends. When employees complain to the 
Union, they are told that they don't have a case. If they file 
an EEO complaint, a high ranking official in the Union 
interferes in the investigation. Partnership councils are also 
being used to advance the careers of corrupt Union officials. 
Management gets what it wants, and the Union sells out the 
employees.
    Unions are supposed to be democratic organizations that 
represent the interests of their members. Unfortunately, this 
is not the case at the Social Security Administration 
headquarters in Baltimore, Md. The real business of the Union 
is to protect the position of Union officers and, if possible, 
advance them to a national Union office. They use their offices 
to provide employment opportunities to their family members and 
their friends, to obtain promotions for themselves, and to 
obtain special retirement opportunities that are not available 
to other employees. Union officers spend all day, every day on 
official time. They hold office for most of their careers since 
reelection is practically guaranteed. Favored reps receive 
additional official time for their allegiance to the executive 
board, therefore, they do not need to do additional 
representation to stay away from their jobs. Many dedicated 
representatives have been forced out because of Union politics 
or have left in disgust. The representatives that remain do not 
have the training or the inclination to handle an arbitration 
or complex issues.
    In the last year alone four Union officers and stewards, 
who have challenged these practices or investigated Union 
corruption, have been removed from their positions and stripped 
of their duties. They have been harassed by other activists and 
their property vandalized. I have been relieved of my duties 
twice in my fifteen year career as an officer and steward with 
AFGE. In December, 1995 I was fired as a steward for speaking 
out against the pass/fail rating system. In 1996 I decided to 
run for Union office. I was contacted by the same high ranking 
Union official, who only months before had fired me, and I was 
offered a deal. I would be given 100% official time for the 
rest of my career as long as I did not run for office and 
embarrass Union officials. This same offer was made to another 
candidate. I declined the offer and was elected third vice 
president of the Local. I was removed from this position in 
October,1997 for investigating financial irregularities in the 
Union and uncovering election fraud in the Local. Another 
factor that made me unpopular with the Union bosses was that I 
continued to work at my regular job for 15 or 20 hours per 
week, and I still handled a heavier case load than the other 
Union officers. There is no reason why my colleagues could not 
do the same.
    It is my opinion that partnership and a self serving Union 
have severely damaged the Agency. Employees dislike pass /fail 
ratings. Award panels have caused friction among employees and 
are universally viewed as unfair and an invasion of privacy. 
Managers are powerless because they do not have the ability to 
reward or discipline employees. These misguided policies are 
affecting the Agency's ability to serve the public and should 
not be allowed to continue.
    I would encourage your committee to take action to 
eliminate pass/fail ratings and award panels. I would encourage 
you to end partnership or severely limit its scope. I recommend 
that Union activists spend at least 50% of their time at their 
government jobs. I would also recommend that managers verify 
that official time is spent only on Union activities.
    In conclusion, I believe that the issues of partnership and 
Union activity at SSA have a dramatic effect on employee 
morale, and therefore, are as important as any issue facing the 
Agency in the coming years. For without the commitment and 
dedication of SSA employees all of the Agency's initiatives are 
doomed to failure. Thank you for allowing me to express my 
concerns on this issue.
      

                                <F-dash>


    Chairman Bunning. Mr. Beckstrom, please.

  STATEMENT OF JIM BECKSTROM, COMPUTER SPECIALIST, OFFICE OF 
  SYSTEMS, SOCIAL SECURITY ADMINISTRATION, BALTIMORE, MARYLAND

    Mr. Beckstrom. Mr. Chairman and Subcommittee Members, my 
name is Jim Beckstrom. I am computer specialist in the Office 
of Systems at the Social Security Administration headquarters 
in Baltimore. I've been a computer specialist since 1981. 
Before that, I was a Social Security claims authorizer for 10 
years beginning back in 1971. I am member of AFGE local 1923, 
and I am the bargaining unit cochair of the Office of Systems 
Partnership Council.
    The Office of Systems handles computer programs and 
operations for Social Security nationwide. My own job involves 
establishing and maintaining Social Security numbers and 
earnings records for millions of Americans. A few years ago, it 
could take as long as 2 years to correct someone's earnings 
record. Now, we can do it within a week. We in Systems are 
proud that we have anticipated and addressed potential year 
2000 computer problems early, and that today Social Security is 
a model agency in its readiness for the new millennium. I'm 
proud of the work that my office does, and I believe that our 
Systems Partnership is a powerful tool in addressing the issues 
before us.
    I would like to thank the Subcommittee for giving me this 
opportunity to speak about the value the union brings to Social 
Security through its partnership with management. As a long-
time employee of SSA, I have had the opportunity to experience 
both the workplace environment before we had our labor-
management partnership and the environment we are creating 
since our partnership began. Under partnership, we share a 
focus on informally resolving problems and facilitating the 
work of SSA, rather than fighting and obstructing each other's 
efforts.
    Partnership at the Office of Systems began in November 
1995, when we received training that laid the groundwork for 
our Partnership Council. The Systems Partnership Council has 
met regularly since February 1996. I believe the Partnership 
Council has been a contributor to the success of systems at 
SSA. We recognize that the nature of government work has 
changed. We must do more with less. While this creates many 
challenges, it also presents the opportunity to make work more 
meaningful and satisfying. Our partnership works to help SSA 
meet these challenges successfully, effectively, and humanely.
    Like all organizations today, our office has gone through 
several reorganizations to develop the most effective ways to 
carry out our mission. Even the best thought-out 
reorganizations are disruptive and can create a great deal of 
anxiety among employees. In the past, when the union and 
management saw each other as adversaries and had little trust 
for one another, reorganizations frequently were contentious 
and would become bogged down in traditional labor-management 
roles. Our partnership has worked hard to facilitate 
reorganizations to make them as smooth and efficient as 
possible.
    We do this by working to identify and address potential 
problems up front, before they become major stumbling blocks. 
The union helps bring the ideas and insights of frontline 
workers to the process, avoiding costly mistakes or conflicts 
down the line. We believe that office changes are better 
planned and better implemented because the union and management 
work together on them in partnership. It's just common sense: 
if you talk with each other before making changes, there will 
be less contention even when people disagree.
    Social Security, like other agencies, is trying to change 
the ratio of managers to employees to be more responsive and 
cost effective. Part of that process involves looking at team 
leaders in the workplace. Our partnership is monitoring a pilot 
program to better define the work of team leaders. We want to 
ensure that frontline workers are not penalized and that team 
leaders are focused on project accomplishment and less on 
administration--in other words, doing the work rather than 
writing about it.
    One of the important issues our partnership has taken on is 
communication within the workplace. We established a work group 
to identify bottlenecks in the flow of information and to find 
ways to keep employees informed about and engaged in the 
agency. Our goal is to help connect employees more closely to 
the mission and direction of the agency--to foster a sense of 
ownership in Social Security's goals and mission.
    In this era of frequent statutory change, technological 
innovation, shrinking budgets, and with more expected of each 
employee, it is vital that each worker understand how his or 
her performance contributes to the organization as a whole. I 
believe that facilitating communication to increase employees' 
sense of ownership of their work is a fundamental value of 
labor-management partnership.
    Our partnership works on a broad range of issues, from 
traditional working conditions to joint efforts to find better 
ways to deliver service to the American people. I believe that 
partnership has helped us avoid unnecessary conflicts and focus 
more on solutions and results. The union has helped bring the 
knowledge and experience of frontline workers like myself to 
the process. We have a lot to contribute. Under partnership the 
efforts of managers, employees, and the union are brought 
together to find better ways to do our jobs. Of course, as in 
any other joint effort, there is room for improvement in our 
partnership, but I believe the best interests of the public, of 
Social Security beneficiaries, and of all Social Security 
workers are well served by a continuation of our union-
management partnership.
    Thank you.
    [The prepared statement follows:]

Statement of Jim Beckstrom, Computer Specialist, Office of Systems, 
Social Security Administration, Baltimore, Maryland

                              INTRODUCTION

    Mr. Chairman and Subcommittee members, my name is Jim 
Beckstrom. I am a Computer Specialist in the Office of Systems 
at the Social Security Administration headquarters in 
Baltimore. I have been a Computer Specialist since 1981. Before 
that, I was a Social Security Claims Authorizer for ten years, 
starting in 1971. I am a member of AFGE Local 1923 and I co-
chair the Office of Systems Partnership Council.
    The Office of Systems handles computer programs and 
operations for Social Security nationwide. My own job involves 
establishing and maintaining Social Security numbers and 
earnings records for millions of Americans. A few years ago it 
could take as long as two years to correct someone's earnings 
record--now we can do it within one week. We in Systems are 
proud that we have anticipated and addressed potential Year 
2000 computer problems early, and that today Social Security is 
a model agency in its readiness for the new millennium. I'm 
proud of the work my office does, and I believe that our 
Systems Partnership is a powerful tool in addressing the issues 
before us.
    I would like to thank the Subcommittee for giving me this 
opportunity to speak about the value the Union brings to Social 
Security through its partnership with management. As a long-
time employee of SSA, I have had the opportunity to experience 
both the workplace environment before we had our labor-
management partnership and the environment we are creating 
since our partnership began. Under partnership, we share a 
focus on informally resolving problems and facilitating the 
work of SSA rather than fighting and obstructing each other's 
efforts.

                  PARTNERSHIP AT THE OFFICE OF SYSTEMS

    Partnership at the Office of Systems began in November, 
1995, when we received training that laid the groundwork for 
our Partnership Council. The Council has met regularly since 
February, 1996. I believe the Partnership Council has been a 
contributor to the success of systems at SSA. We recognize that 
the nature of government work has changed. We must do more with 
less. While this creates many challenges, it also presents the 
opportunity to make work more meaningful and satisfying. Our 
partnership works to help SSA meet these challenges 
successfully, effectively, and humanely.

                          PARTNERSHIP EFFORTS

Reorganizations

    Like all large organizations today, our office has gone 
through several reorganizations to develop the most effective 
ways to carry out our mission. Even the best thought-out 
reorganizations are disruptive and can create great anxiety 
among employees. In the past, when the union and management saw 
eachother as adversaries and had little trust for one another, 
reorganizations frequently were contentious and would become 
bogged down in traditional labor-management roles. Our 
partnership has worked hard to facilitate reorganizations to 
make them as smooth and efficient as possible.
    We do this by working to identify and address potential 
problems up front, before they become major stumbling blocks. 
The Union helps bring the ideas and insights of frontline 
workers to the process, avoiding costly mistakes or conflicts 
down the line. We believe that office changes are better 
planned and better implemented because the Union and management 
work together on them in partnership. It's just common sense: 
if you talk with each other before making changes, things will 
be less contentious even when people disagree.

Team Leaders

    Social Security, like other agencies, is trying to change 
the ratio of managers to employees to be more responsive and 
cost-effective. Part of that process involves looking at team 
leaders in the work place. Our partnership is monitoring a 
pilot program to better define the role of team leaders. We 
want to ensure that frontline workers are not penalized, and 
that team leaders are more focused on project accomplishment 
and less on administration--in other words, doing the work 
rather than writing about it.

Communication

    One of the important issues our partnership has taken on is 
communication within the workplace. We established a work group 
to identify bottlenecks in the flow of information and find 
ways to keep employees informed about and engaged in the 
agency. Our goal is to help connect employees more closely to 
the mission and direction of the agency--to foster a sense of 
ownership in Social Security's goals and mission.
    In this era of frequent statutory change, technological 
innovation, shrinking budgets, and with more expected of each 
employee, it is vital that each worker understand how his or 
her performance contributes to the organization as a whole. I 
believe that facilitating communication to increase employees' 
sense of ownership of their work is a fundamental value of 
labor-management partnership.

                               CONCLUSION

    Our partnership works on a broad range of issues from 
traditional working conditions to joint efforts to find better 
ways to deliver service to the American people. I believe that 
partnership has helped us avoid unnecessary conflicts and focus 
more on solutions and results. The Union has helped bring the 
knowledge and experience of frontline workers like myself to 
the process. We have a lot to contribute. Under partnership the 
efforts of managers, employees, and the Union are brought 
together to find better ways to do our jobs. Of course, as in 
any joint effort, there is room for improvement in our 
partnership, but I believe the best interests of the public, of 
Social Security beneficiaries, and of all Social Security 
workers are well-served by a continuation of our union-
management partnership.
      

                                <F-dash>


    Chairman Bunning. Thank you.
    Mr. Schampers.

 STATEMENT OF JIM SCHAMPERS, DISTRICT MANAGER, SOCIAL SECURITY 
                  ADMINISTRATION, WACO, TEXAS

    Mr. Schampers. Good morning, Mr. Chairman and Members of 
the Subcommittee.
    I am the district manager of the Waco, Texas, Social 
Security Office, and I have served in this capacity for 11 
years; and have been an employee of the Social Security 
Administration for over 25 years. During my tenure with SSA, I 
have served in many positions and in seven different districts.
    I am here today in response to a request from the 
Subcommittee to discuss the use of official time in Social 
Security.
    In 1996, GAO conducted a study on official time, and that 
study verified that SSA had 145 employees who had been taken 
out of production and were working full time for the union. 
These employees were doing absolutely no work under the job 
description under which they were hired and being paid. In 
addition, the study verified that there were 1,800 other 
employees working part time in union-only work.
    Yesterday, the head of OIG told you that the number of full 
timers had remained close to the same in fiscal year 1997, at 
141 employees. But the number of other employees who spend time 
in union activities had grown from 1,800 to 2,144. OIG also 
reported that the stated costs of these union activities 
totaled $14.7 million. And please let me point out to you that 
this cost does not include the cost of union time spent in 
partnership activities; this is only in representational 
activities.
    To put this in perspective, I come to here from--to this 
meeting from Texas, and, like other States in the Southwest 
we're going through record--a record heat wave with no rain. 
And if you drive the highways in Texas, you'll see brown and 
dried up fields, where many farmers are threatened with 
bankruptcy. Based on the $14.7 million costs that OIG 
identified, and by the way, which a lot of us consider 
conservative, it would take the FICA taxes of about 9,000 
farmers to support the union activities, and more when you 
factor in the time spent in partnership activities.
    At the beginning of this decade, we only had a few dozen or 
so employees spending their time on union work. Now, only 6 or 
7 years later, the number of employees spending time--their 
time in the union and union activities has grown to over 2,000. 
Now, contrary to what was said this morning, I am not against 
unions. I really do believe that we need a union in this 
organization, and there is definitely a role for the union in 
SSA. But I, like the many hundreds of managers I've talked to 
in the last 3 or 4 years, have problems with the way official 
time is used in that there are no controls. And all what we're 
asking for is just better and tighter controls in the process.
    SSA is slated to lose 4,500 employees in the 5-year period 
that ends in 1999. While we're downsizing to meet this goal, 
we're also losing production employees to the union. And during 
this same time, our workloads have skyrocketed, with an aging 
baby-boomer population, increased disability claims, welfare 
reform, increases in continuing disability reviews, SSI high 
risk cases and their attached redeterminations, prisoner 
workloads, and numerous other programs and requirements which 
have been added to our job in the last several years.
    Common sense would tell us that while we have a shrinking 
staff resource, we should have a corresponding decrease in the 
representational positions in SSA. But we're seeing just the 
opposite happen. During the time of our dwindling resources, we 
have seen an explosion in the number of employees working in 
union-only activities. We believe this happens mainly because 
our bank time system within this agency and the union's ability 
because of this to designate any employee at any place at any 
time to work as a full-time union rep or part-time union 
representative with no management control and with no regard to 
agency needs.
    The agency has implemented new procedures to track union 
time, and hopefully these will yield better information. But 
our bank time procedures, I believe, are the basis for many of 
our problems; and basically, what we're saying is that the 
official time used is a budgetary issue. And this agency needs 
to control its budget, its staff. Congress dictates staffing 
positions for all parts of this organization, and this is one 
area where no one but the union can control who becomes a 
member or an employee of the union.
    I'll be happy to answer questions later on.
    [The prepared statement follows:]

Statement of Jim Schampers, District Manager, Social Security 
Administration, Waco, Texas

    I am the District Manager for the Waco, Texas Social 
Security Field Office. I have served in this capacity for 11 
years and have been an employee of the Social Security 
Administration for over 25 years. During my tenure with SSA, I 
have served in many positions in seven different districts and 
have served in a management capacity for 22 years.
    Like thousands of front-line managers and employees across 
the country, I am extremely proud to be a part of SSA's unique 
tradition of public service. I love my job and this agency and 
I want to see SSA prosper so that we can continue to provide 
the quality of service we provided in past years.
    I am here today in response to a request from this 
subcommittee to discuss the use of Social Security trust funds 
to pay for employee union activities. Specifically, I will 
address the activities of Social Security employees who conduct 
union business on official time.
    In 1996 GAO, reported showed that SSA has approximately 160 
employees who perform no work for the agency, but instead spend 
100% of their time in union activities. In addition, GAO 
verified that over 1,800 other employees spend from 25% to 75% 
of their time in union activities. The GAO report also pointed 
out that SSA spends up to seven times more money per 
represented employee than any other agency. And, like the many, 
many other managers in SSA, I believe these numbers are not 
only conservative, but are growing. In fact, at the beginning 
of this decade we only had a few dozen full-time and part-time 
union employees. Now, only a few years later, literally 
thousands of employees work either full time or part time in 
union activities.
    Under mandated streamlining requirements, SSA is slated to 
lose 4,500 employees before the end of 1999. We have been 
downsizing in our efforts to meet this goal. However, while 
losing production staff during the last few years due to 
streamlining, we have lost even more production employees to 
the union. In the meantime, our workloads have skyrocketed with 
the aging of the baby boomer population, Welfare Reform, SSI 
High Risk Redeterminations, increased Continuing Disability 
Reviews, Prisoner workloads, and numerous other added programs 
and requirements. I believe that permitting union employee 
expansion at this critical juncture is ill-advised. In fact, 
the opposite should happen. As the agency loses employees, we 
should need a smaller representational staff and we should 
strive to keep our resources in production serving the American 
public.

                              PARTNERSHIP

    You asked me to present my understanding of the definition 
of Partnership and my experiences and perspective on the impact 
of Partnership.
    In 1993, President Clinton issued a directive to Federal 
agencies mandating the establishment of partnerships between 
the union and management. The concept of partnership, as I 
believe the President envisioned, was good in that it asked 
management and the union to work in close cooperation in 
streamlining processes, improving service and resolving 
problems. However, in reality, we have not fully achieved that 
spirit of partnership. At the national and regional levels, we 
have achieved some success through our partnership councils, 
reaching agreement in some areas in which we had before been 
unable to reach agreement. But, in general, I believe that 
local field offices have not fully realized the benefits of 
Partnership.
    In my opinion, Partnership is not yet fully successful for 
several reasons:
    1. Early in the process, agreements were reached between 
the agency and the union establishing partnership councils only 
at the national and regional levels. Local field offices have 
historically enjoyed close working relationships, (informal 
partnerships), in which the local union steward, employees and 
management worked together as a cohesive team in resolving 
problems, improving processes and finding better ways to serve 
the public. We did not call it ``Partnership,'' but that is 
exactly what existed in every successful field office 
operation.
    When the Partnership Councils were established at only the 
national and regional level, both local management and 
employees were excluded from the Partnership process. The 
unstated message was clear that Partnership was something that 
existed only between top agency officials and the union.
    Adding to that perception was the clear message given out 
by the union that there were to be no partnership activities at 
the local level. In fact, the union filed a grievance against 
SSA's use of teams in field offices and many of our long 
existing local workgroups which had served us well in the past 
were now labeled by the union as ``teams'' and we were told to 
cease and desist with those activities. When that happened, 
local cooperation was stymied.
    2. The second and probably most important impediment to 
full partnership is the fact that the union and the agency have 
different goals. While the agency's goal is clearly service to 
the taxpayers, the union's goal, as stated by the past 
President of AFGE, is union building. With such divergent 
goals, Partnership at the national and regional levels does not 
always work smoothly and it may be years before we consistently 
reap benefits at those levels.
    On the other hand, it has been my experience that local 
field office union stewards tend to share the same aims as 
local management. They are actually performing the job and want 
to cooperate in improving our service and worklife. Truly 
successful Partnership must begin at the local level.
    3. Another reason partnership has not been fully achieved, 
I believe, is that union employees do not seem to be bound by 
the same Standards of Conduct all other employees must follow. 
It is not uncommon for union officials to resort to name 
calling and abusive language (while on Official Time), then 
hide behind the phrase ``robust discussion.'' I had a situation 
in my own office in which a visiting union employee called me a 
``goddamned monkey'' and threatened me with the statement, 
``Don't you know who you are dealing with? Boys like you end up 
missing and even your family will never find you. You know what 
I mean, boy?'' This statement was made while he was poking his 
finger in my chest. When I filed a grievance on this issue, the 
union responded by saying it was acceptable language because it 
was robust discussion. Both the contract and our Standards of 
Conduct require employees to behave in a courteous and non-
threatening manner. Appointment to a union position should not 
exempt the representative from this basic requirement.
    While union employees are permitted to talk to management 
or any other employee in this manner at one moment, it is 
difficult to consider them full partners in the next moment.

                             OFFICIAL TIME

    You asked me to describe how official time is granted and 
monitored.
    Several years ago, the agency and the union reached an 
agreement which established a national bank of hours to be used 
by union employees in representational activities. The bank of 
hours was set at 100,000 hours per year and it was envisioned 
that this bank of time would be sufficient to cover all union 
representational activities. Time actually spent in bargaining 
was not to be counted in the bank. However, from a Field 
Manager's perspective, we see at least three major problems 
with the bank procedure:
    1. The bank was set up to be cumulative in that any unused 
hours in the bank would be carried over and added to the next 
year's new allocation. For example, if there were 50,000 hours 
left in the bank at the end of the fiscal year, then the union 
would have 150,000 hours at it's disposal next year. The 
agency, on the other hand, must use all of it's money in the 
fiscal year or lose it. Because bank hours can only be used for 
employee time, they are funded directly out of our staffing 
(FTE) budget. The union's ability to carry over bank hours 
actually commits the agency to future staffing levels for the 
union, long before Congress even approves a budget or staffing 
levels for the agency.
    Because of the cumulative provision in bank hours, there is 
no incentive on the part of the union to accurately report bank 
time usage. In fact, the incentive is to under report bank time 
so that their stock of bank hours continues to grow. The bank 
balance has grown now to the point that it far exceeds the 
annual 100,000 hour allocation.
    2. Dispute situations frequently arise in which the union 
reports time in one of the bargaining categories and management 
believes the official time usage should be deducted from the 
bank. In cases such as this, current procedures require SSA to 
voice the complaint with the union, then the union decides 
whether it has reported incorrectly. If the union fails to 
reverse their decision, the agency's only recourse is file an 
Unfair Labor Practice (ULP) complaint. The agency has a history 
of never filing a ULP against the union, hence, the union 
rarely reverses their decision.
    This situation happens frequently. For example, in one 
office a union representative left his office for five days and 
visited other offices. In those offices, he stayed in the 
breakrooms until employees came in, then he visited with the 
employees, but had no contact with the office managers. Upon 
return to his own office, the union representative presented 
the manager with a SSA-75 stating his had spent 40 hours in 
mid-term bargaining. The agency disagreed with the SSA-75 
stating the activities fell into the bank category and the 
entire 40 hours should have been deducted from the bank. When 
the case was referred back to the union, they changed the form 
to charge only 8 hours to the bank and 32 hours to mid-term 
bargaining. This issue was dropped at this point, even though 
32 hours were incorrectly charged to non-bank time.
    In another case a full-time union representative in a 
Teleservice Center routinely charges almost all of her time to 
``Mid-term Bargaining'' rather than to the bank. The manager 
has protested this flagrant mis-reporting many times and in 
each instance the case was referred back to the union to review 
their own decision and each time the union upheld its original 
decision. The union representative continues to report her 
hours inappropriately to non-bank time and management has 
basically given up on the issue. There is a standing joke in 
the office that the union representative is bargaining with 
herself again.
    3. The SSA-75 is a poorly designed form and does not 
solicit enough information for management to make a meaningful 
decision in approving official time. They usually present the 
SSA-75 with minimal or no information. If questioned, they 
frequently state we are interfering with union business.
    This procedure definitely needs correction. However, it 
will take legislative action to correct the problem as I 
believe the agency will never be able to negotiate a change 
with the union in this area.
    The following changes need to be made:
    1. Do away with the cumulative provision in the bank 
procedure. Unused bank hours should expire at the end of the 
fiscal year in the same manner that the agency's unused staff 
hours expired at the close of the year. There should be 
absolutely no carry over in the bank procedure.
    2. Establish a new bank allocation and increase or decrease 
it in subsequent years in direct proportion to the increase/
decrease in bargaining unit staff. 100,000 hours is far too 
excessive as the union has only used a portion of this 
allocation each year. The new beginning annual allocation 
should be based on the average bank time used over the last 
five years. This would factor in the years before SSA began its 
latest round of staff reductions.
    After the new bank allocation is established, it should be 
assumed that all full time and part time employees' tour of 
duty hours will be deducted as bank time unless the union 
establishes to management's satisfaction that their work hours 
should be charged to non-bank time. Currently, we have many 
full timers and part timers who report the majority of their 
time as non-bank categories such as ``mid-term bargaining'' 
when managers are not told what the issue was or who they were 
bargaining with.
    3. In dispute situations, the final decision should made by 
the agency and not the union. Should the union disagree, they 
can use the grievance procedures for appeal. Currently, 
disputes are ``resolved'' by the union. This is completely 
unacceptable. When the manager states he disagrees with the 
union and cannot approve the official time, the union then 
makes the final decision and they approve their own official 
time! The union has no authority to approve leave, overtime, 
payroll or any personnel issue, yet responsibility for final 
decisions on official time disputes rest with the union. This 
authority should be moved back into the hands of management 
with the burden of proof shifted to the union in dispute cases.
    4. The form SSA-75 should be redesigned and should solicit 
sufficient information for management to make an informed 
decision in approving official time.
    Congress has mandated that SSA track time spent in union 
activities. In response to this mandate, SSA developed the 
Official Union Time Tracking System (OUTTS). Unfortunately, the 
OUTTS system only automates the existing poorly designed 
system. OUTTS did not correct the problem we have with 
unreported or incorrectly reported official time. Nor does it 
address any of the other problems mentioned above.

                     EMPLOYEE MORALE AND REDUCTION

    You asked me for my viewpoints on the effect of official 
time on employee morale and production.
    We usually have very little problem with official time used 
by the local stewards as they represent employees at the local 
level and participate with management in the bargaining 
process. We have done this for years, even before official time 
became a problem. However, official time used by full time and 
part time employees constitutes and different problem.
    During this time of staff reductions, most employees are 
working so hard that many of them go home in tears at the end 
of the day. They are frustrated by the work they cannot get to 
and they despair in knowing that each folder left on the desk 
at the end of the day represents a claimant who is not yet 
receiving a check. As we lose people, we are not replacing them 
and the work is divided yet again among the remaining 
employees.
    With this in mind, think of how our employees feel when 
they look across the aisle and see a full time union employee 
reading a newspaper or a novel or playing a video game. Or when 
they see a part-time union employee with a workload reduced by 
50% or 75% while their work is divided among the other 
employees in the office. Employees know when one of their peers 
is not performing successfully and requires too much support. A 
poor performing employee makes everyone's job around him 
harder. And how do these employees feel when they witness the 
union designate him as a full-time union representative, 
preventing further personnel actions.
    This happens quite often as, under the bank procedure with 
unlimited carry over of unused hours, the union can designate 
anyone at anytime as a full time union employee. In one office, 
an employee was performing poorly. The office had provided 
extra training, mentoring, reviews and reduced workloads over a 
long period of time. In addition, the employee was sent back 
through the basic training class for a second time. After 
months of working with this her, it was decided the employee 
must be removed from the job. She was called in and the manager 
explained that they had reached the point where she was to be 
removed from the job and he handed her the official notice with 
appeals rights. The employee snickered, tore up the notice and 
threw it back into the manager's lap. She then went on to 
explain that the notice could not apply to her because she had 
been designated as a full time union employee. Coworkers now 
complain because their peer sits around all day reading novels 
while they do her work.
    I must say that we do derive many benefits from the union 
and in no way want to indicate that we should eliminate their 
role in SSA. My point is simply that we must control the growth 
in the use of official time just as we control all areas of our 
budget.
    I hope that I have addressed the concerns which you asked 
me to address.
      

                                <F-dash>


    Chairman Bunning. Thank you.
    Mr. Hardesty.

   STATEMENT OF EDWIN M. HARDESTY, DISTRICT MANAGER, SOCIAL 
            SECURITY ADMINISTRATION, TULSA, OKLAHOMA

    Mr. Hardesty. My name's Ed Hardesty. I'm the Social 
Security district manager in Tulsa, Oklahoma. I've worked for 
the Social Security Administration for over 25 years, and I've 
provided a statement for the record which specifically speaks 
to the concerns that you asked me to address.
    The information that I have provided is from the 
perspective of a district manager who works in an office that 
has three full-time representatives. Again, I'd like to clarify 
that I am not against unions. I have enjoyed throughout my 
career friendly, cooperative relationships with my union 
partners. I was asked to address specifically how official 
time, as we now have it, impacts our day-to-day working.
    In advance of the use of official time, each properly 
designated union official is to submit a request to the 
appropriate management official. Official time is to be 
approved if it's for an appropriate purpose, and the amount of 
the time requested is reasonable. Official time is not to be 
approved if it's not appropriate, or if it interferes with 
critical operational needs. This procedure has worked well with 
local stewards whose primary function is to provide public 
service, and who only request official time for a specific 
purpose. Full-time union officials are not subjected to the 
same scrutiny. They do not request approval for official time 
in advance. They submit the approval form after the time has 
been used. They do not report the nature of their activities.
    We recently implemented a system to report official time 
called OUTTS. It does not change the approval process. It 
simply involves us inputting the data directly into our 
mainframe system. It should allow quicker and more accurate 
summary information, and yet the process remains unchanged. The 
union officials in my office are presently refusing to provide 
information concerning the number of bank hours assigned to 
authorized users. I cannot provide the information that you 
requested concerning the degree to which official time for 
union activities is being abused, since I am not privy to the 
activities of our full-time union representatives.
    You asked me for my suggestions as to how our system for 
dealing with abuse of official time could be improved. For all 
practical purposes, we have no system in effect to deal with 
abuses of official time by full-time union representatives. I 
was told by one of our full-time union reps that it was the 
intent of Congress that we have a strong, independent, taxpayer 
supported union that was free from management control and 
scrutiny and that I, therefore, had no right to be privy to any 
of their activities. I told him that I would welcome a clear 
mandate from Congress which would include a formal job 
description entitled union representative, with outlined 
appropriate duties.
    Today, our full-time representatives occupy positions such 
as Claims Representative, but perform none of the duties called 
for by their job description. If it is the intent of Congress 
to have independent, full-time union representatives supported 
by tax dollars, I would welcome a clear mandate, then 
acknowledge that working full time for the union is, indeed, 
appropriate. And we could eliminate the tremendous stress that 
we now feel from the present system that presupposes that the 
primary duties for the staff that we hire and train will be to 
provide direct public service.
    The use of agency time by full-time officials has had a 
devastating effect on the morale of our staff. Most of our 
staff members cannot accept the fact that union officials do 
not work alongside them in providing direct public service. A 
day never passes when we have a waiting room full of people and 
backlogged cases awaiting action that someone on our staff does 
not come to me and ask why our full timers cannot be required 
to help out.
    I enjoy a friendly personal relationship with our full-time 
union representatives. The problems that we face in dealing 
with the use of official time are largely systemic. If we want 
to improve in this area, we must deal with the problem upstream 
with systemic improvements, rather than addressing individual 
occurrences.
    I hope that I've addressed the concerns that you have asked 
me to discuss. And I'll be happy to answer questions.
    [The prepared statement follows:]

Statement of Edwin M. Hardesty, District Manager, Social Security 
Administration, Tulsa, Oklahoma

    Mr. Chairman and Members of the Subcommittee:
    My name is Edwin M. Hardesty. I work in the Tulsa, Oklahoma 
District Office of the Social Security Administration. I am the 
District Manager. I have worked for the Social Security 
Administration for over 25 years. I am here today, not as an 
official spokesperson for the agency, but in response to the 
subpoena that I received. In order to address the issues to 
which you have required me to respond it is necessary that I 
provide a brief explanation of our agency's official time 
policies.
    Use of official time is authorized by Article 30 of our 
bargaining agreement. It outlines specific procedures for the 
approval and use of official time. Official time is to be used 
by union officials designated in writing to appropriate 
management officials. Management officials are also to be 
notified in writing of bank time allocations for each union 
official. Non-bank time is only to be used for specific 
activities, which include term bargaining, mid-term bargaining 
or consultation on management initiated changes, FLRA and Merit 
Systems Protection Board proceedings, representing employees 
with formal Equal Employment Opportunity complaints, and 
working on management initiated grievances. Agency time is not 
to be used for internal union business. In advance of the use 
of official time each properly designated union official is to 
submit a request to the appropriate management official. 
Official time is to be approved if it is for an appropriate 
purpose and in an amount that is objectively reasonable, 
provided that it is to be used at an appropriate time and 
place. Official time cannot be approved if it is not 
appropriate, or if it interferes with an operational exigency.
    This procedure has worked very well with local stewards 
whose primary function is to provide public service, and who 
only request official time for a specific purpose that is 
properly documented for the approving management official. 
Although higher union officials may not provide the required 
notice of bank time allocations, local stewards have generally 
worked in close cooperation with management to ensure that 
public service is not compromised by the use of official time.
    Full-time union officials are not subjected to the same 
scrutiny. These are individuals who are hired and trained by 
the agency to do agency work, but who abandon their agency 
responsibilities to work full time for the union. Although they 
do no agency work, they retain their agency job title, salary, 
and benefits. The agency also provides all support in terms of 
supplies, postage, equipment, space, telephone service, fax 
service, photocopy machines, and other typical office support. 
There are no agency restrictions on the number or location of 
full time union officials. A union official can simply 
designate a person to be a full-time union official, and the 
person can abandon their workload the following day. They are 
not required to give the agency any explanation as to why the 
person will no longer be doing agency work, nor are they 
required to explain in detail what the person will be doing. 
There are three full time union officials in my office in Tulsa 
and another one in the Muskogee, Oklahoma office, which is 
about 45 miles away. These persons do not request approval for 
official time in advance. They spend all of their time engaging 
in union business and submit the approval form, the SSA-75, 
after the time has been used. They do not report the nature of 
their activities. They simply self-report after the fact the 
breakdown of agency and bank time. In the 3\1/2\ years that I 
have worked in the Tulsa office, I have never been given a bank 
time allocation by name by a union official. I, therefore, have 
no way of knowing the balance of bank hours for any union 
official.
    We recently implemented a new system to report official 
time called OUTTS, or Official Union Time Tracking System. In 
order to support this new system for reporting official time it 
was necessary for the designated union officials to provide 
information as to the allocations of bank time assigned to each 
union official. The appropriate official refused to provide the 
information, and I had no recourse to require that it be 
provided. For full-time union officials I have no controls 
available to me to ensure that their time is being used 
appropriately, or that the number of hours authorized users use 
complies with the criteria in the contract. I have no knowledge 
of their activities, other than those during which I am 
directly interfacing with them. These instances are rare. I 
have no controls over the use of agency time by full time union 
officials. I cannot provide the information that you requested 
concerning the degree to which official time for union 
activities is being used in compliance with agency regulations, 
since I am not privy to the activities of our full-time union 
representatives.
    The use of agency time by full-time union officials has had 
a devastating effect on the morale of our staff. Our workloads 
are building and our resources are dwindling. It is 
disheartening for staff members to be faced with backlogs of 
pending items, overflowing waiting rooms, and telephone calls 
that need to be answered or returned while they see employees 
that cannot be required to assist in processing the workloads.
    Allegations of abuse of official time are to be brought to 
the attention of the local management official. The management 
official is to then discuss the matter with the local or 
council president as appropriate. Allegations can then be 
referred to higher management officials. This process is 
ineffective, since full time officials are not required to 
discuss the substance of their activity and there is virtually 
no way do verify their allegations. Pursuance of abuse of 
official time allegations by full-time union representatives is 
virtually non-existent in my experience.
    You asked me for my suggestions as to how our system for 
dealing with abuse of official time could be improved. In our 
present structure with our full-time union representatives we, 
for all practical purposes, have no system in effect to deal 
with abuses of official time. Through past practices they have 
been exempted from the policies and scrutiny that is applied to 
our stewards whose primary function is to do agency work. I was 
told by one of our full-time union representatives that it was 
the intent of Congress that we have a strong, independent, 
taxpayer supported union that was free from management control 
and scrutiny, and that I, therefore, had no right to be privy 
to any of their activities. I told him that I would welcome 
such a clear mandate from Congress, which would include a 
formal job description entitled, union representative, that 
outlined appropriate duties. Today our full-time union 
representatives occupy positions such as claims representative, 
but perform none of the duties called for by their job 
description. If it is the clear intent of Congress to have 
independent full-time union representatives supported by tax 
dollars, I would welcome a clear mandate. We could then 
acknowledge that working full-time for the union was indeed 
appropriate and we could eliminate the stress that we now feel 
from present system that presupposes that the primary duties 
for the staff that we hire and train will be to provide direct 
service to the public.
    You requested that I share with you my understanding of the 
definition of Partnership, how Partnership time is measured, 
and its impact on service to the public and employee morale. 
Partnership refers to the mandate that agencies form 
Partnership Councils to work in collaboration with their unions 
to improve service to the public and to reduce the expense to 
taxpayers that result from adversarial relationships. 
Partnership Councils have been formed at various levels of our 
agency and have worked on several issues. Throughout the over 
18 years that I have been a manager in the Social Security 
Administration I have enjoyed wonderful, productive, 
collaborative relationships with local union stewards. Prior to 
coming to Tulsa in 1995 I had never had a formal grievance, 
unfair labor practice charge, or EEO complaint filed against me 
or any subordinate supervisor. Without any formal rules or 
charters we simply worked together in partnership to solve 
problems, reduce waste, streamline processes, improve working 
conditions, and address employee concerns. These informal 
partnerships were successful because we embraced the same aim. 
The aim we embraced was to improve service to our external 
customers, to improve working conditions for our staff, and to 
be good stewards of the taxpayer's dollars.
    In order for the formal Partnerships that we now have in 
place to be successful, both union and management must embrace 
the same aim. The aim is not negotiable. Our mutual aim must be 
to improve service to the public. This is a sacred trust that 
we share, since the public has already paid in advance for our 
services through their tax dollars. Partnerships break down and 
become ineffective and even more expensive when a mutual aim is 
not shared. I was told by a full-time union representative that 
the primary aim of the union was to see that institutional 
union rights were maintained and that the union was 
strengthened. Without a common aim a truly effective 
Partnership is jeopardized. I cannot say that our formal 
Partnerships have significantly improved service to the public 
or employee morale. We have recently implemented a Partnership/
Labor Management Relations Activities Time Accounting Form to 
track formal Partnership time. I have not yet seen any summary 
data from this new accounting procedure.
    I enjoy a friendly personal relationship with our full-time 
union representatives. The problems that we face in dealing 
with the use of official time are largely systemic. If we want 
to improve in this area, we must deal with the problem upstream 
with systemic improvements rather than in addressing individual 
occurrences. I hope that I have addressed the concerns that you 
asked me to discuss.
      

                                <F-dash>


    Chairman Bunning. Thank you, Mr. Hardesty.
    I'll start the questioning by asking anybody on the panel 
to respond in whatever order they want to take.
    Yesterday, we heard about a number of Social Security 
offices in New England who for 20 years, and through this 
Christmas, will be given up to four hours on the taxpayer to go 
Christmas shopping. Do you think that's right, wrong, or do 
your offices do that or is it in part of your collective 
bargaining agreements around the country? Yes, sir, Mr. 
Reusing.
    Mr. Reusing. It's not part of the----
    Chairman Bunning. Please, please put the mikes up to your 
mouths, because you almost have to eat them.
    Mr. Reusing. It's not part of the collective bargaining 
agreement. It is a common practice. I don't believe it was 
originally intended for people to go Christmas shopping. In 
central office, there's such a large amount of employees and 
because of the holiday, I believe that the original intent was 
to clear people out of that area for traffic concerns and 
safety concerns, because of the heavy traffic. And I don't have 
a real in-depth knowledge of that reason why it was originally 
started, but it does exist; and it's not part of the agreement.
    Chairman Bunning. Anybody else?
    Mr. Hardesty. That's not a practice in our office.
    Mr. Schampers. It's not a practice in my office, and I 
don't think it's a practice in my region. I can't speak for 
other regions. In terms of do I believe it's correct, I would 
not do that in my office.
    Chairman Bunning. Mr. Beckstrom.
    Mr. Beckstrom. No, it's not a process--part of.
    Chairman Bunning. What do you think union officials are 
doing on official time? How could a union official work part 
time at another job, like at Camden Yards ballpark? How could 
this happen? Do you know of union officials working part-time 
jobs on official times--official jobs elsewhere other than at 
the agency?
    Mr. Beckstrom. I have no knowledge of that. I never 
encountered it.
    Chairman Bunning. Anybody else?
    Mr. Reusing. Yes, I've had union officials over the years 
tell me that they worked other places. I've been made aware 
that union officials have been caught doing this, though I 
didn't catch them myself. It was just the general knowledge 
around the union office.
    As to how it could happen? If I went on official time 
today, and remember I was offered 100 percent official time, I 
could be out on my boat. I could be working another job, 
because my manager wouldn't dream of asking me where I'm going. 
My only requirement is to sign-in in the morning, tell them I'm 
going on official time, and that's as a steward, not as an 
officer. As an officer, I'm only required to sign in and sign 
out for my shift. What I do in between is kind of up to me.
    Chairman Bunning. Mr. Reusing, Mr. Schampers, you have both 
been threatened. Can you tell us about your experience? From 
what I know of it, it sounds like a blatant intimidation. There 
is no place for that kind of behavior and particularly in our 
government system and in the workplace. So if you would like to 
share with us.
    Mr. Schampers. My personal experience happened about 3 
years ago. We had a visiting full-time union officer come to 
our office and with that person came a full-time AFGE employee, 
who's not a Social Security employee, but at that time worked 
with Social Security offices and Social Security officers, but 
was an AFGE employee.
    And when they came into my office, they took over the break 
room in the lunch room, and they had before agreed with me that 
they would not set up there but would set up in an adjoining 
room, which was right next door, which is our training room. 
And I'd had several employees who had complained about them 
blocking their use of the lunch room in times past. And so, we 
had agreed before this meeting when these people came to visit 
that they would set up next door instead of taking the break 
room. And so one of the employees came to my office and said, 
you told me I could eat lunch there today, but they're there 
again. You told me they wouldn't be there. And I said let me go 
talk to them.
    So I went up to the lunch room and asked them to move next 
door. They had already set up in the room next door, but then 
they were in the process of moving it into the lunch--their 
decorations and equipment and displays into the lunch room. So 
I asked them if they would move back, based on our agreement. 
And I was referred to as a monkey. Vulgarity was used. And 
basically, when I insisted that they move, the union employee 
used his finger to poke me in the chest and said you better be 
careful. People like you end up missing, and you're talking to 
the organization that can make it happen. Do you understand 
what I'm talking about, boy? And I put my hand in front of my 
chest and pushed his finger back and said, is this a threat? 
And his response was basically, a threat? It may not be a 
threat, but you damned well better listen to it.
    And I later filed a grievance against this, for it broke 
every rule that we have in our contract and also in Federal 
guidelines in treatment of Federal employees. The union 
responded to the grievance, saying it was robust discussion. 
Our agency chose not to take it any further than that. The next 
step would have been to go to arbitration, and our agency chose 
not to go to arbitration on that issue.
    Chairman Bunning. Mr. Reusing, go ahead.
    Mr. Reusing. Last year, I tried to start a union reform 
committee. And we proposed changes to our constitution. That 
led to a rather bitter campaign. Then immediately following 
that, we had our general election for president and other key 
officers, and things intensified at that.
    During that period of time, my tires were slashed in a 
manner so when it reached on the inside of the sidewall and 
scored the tires. So they didn't go flat immediately, but I had 
a blow out on the road. Both tires were damaged.
    Two days after that, a member of the reform committee 
received a rather serious operation, and because he has a heart 
condition he was in intensive care. A union activist called him 
while he was in intensive care because he may have had a heart 
attack, and threatened him; said that they were going to get 
even. He better stop being involved in union reform. I would 
consider that a form of assault. I have received numerous phone 
calls in the middle of the night--sometimes 30 or 40 a night. 
Other people who have run for office on the union reform 
platform have had their cars damaged--about four others--they 
also received threatening phone calls--actually, annoying phone 
calls in the middle of the night.
    That's been about the extent of it. OIG officials and 
officials from the Federal Protective Service had met with us 
to discuss our security. So I think the agency is taking it 
serious.
    Chairman Bunning. Thank you. Mrs. Kennelly may inquire.
    Mrs. Kennelly. I thank the witnesses for their testimony.
    Mr. Schampers, after that robust conversation incident, did 
anything else ever happen?
    Mr. Schampers. No, ma'am. I, at that point, was ready to 
eject this person from our office, but I thought before I do 
this with the union, I'd better call my regional office for 
guidance. And the response I got was let it go. And we did.
    Mrs. Kennelly. I've listened very carefully to the 
testimony, and obviously some of the things were very 
upsetting. But there also is a little bit about the dog bites 
man in stories about employee and management relationships. 
There are good managers. There are bad managers. There are good 
employees. There are bad employees. And, I don't know, I've had 
a long work experience, and I would be surprised, and I think 
the public would be surprised, if there were no manager-
employee problems in the workplace, especially a large Federal 
agency. Many, many workplaces have situations that escalate and 
cause real stress.
    But I thank you for telling us about the ones that you have 
experienced.
    Mr. Schampers, again. You indicate that some success has 
been achieved through partnership councils at the national and 
regional levels, but you claim that truly successful 
partnerships must begin at the local level. Now, I have two 
questions for you, do you think that the local officers should 
have the freedom to design their own partnership relationships? 
And would you say that partnership efforts are likely to vary 
depending on the needs of local offices?
    Mr. Schampers. I think that would be yes to both questions. 
We have achieved some success through partnership at the 
national and regional levels. But, as our instructions are 
basically, that we're not to have partnerships at the local 
level at this point.
    Before partnership was ever coined as a phrase, we had 
partnerships at the local level. I could work with my 
employees, my union representative, the management members, and 
we would get together in work groups or staff meetings or 
committees to resolve problems and to come to solutions that 
would benefit everybody, including the taxpayer. This has been 
going on for a long time. We called it team work. Well, the 
agency has been restricted from using teams and team work 
because there's been a grievance filed on that, and we tried to 
negotiate team work and teams with the agency, but the 
negotiations broke down. And so until such time that we can 
successfully negotiate the use of teams in field offices, we 
are basically restricted from using teams, team work, work 
groups for that matter.
    And my contention, and what I said in my written testimony 
was that I can't envision a partnership without team work. 
That's the basis of partnership in my opinion when people work 
together towards a common goal, and they work cooperatively 
with one another, respectfully with one another. Until such 
time that restriction on teams and team work is lifted, then 
there's going to be a restriction on partnerships in the field 
offices. There are, as I understand, some field offices that 
have gone forward with partnership councils. Those are--that's 
not a practice across the country, by and large. But I think 
that's more isolated. Why they can do it and others can't, I 
don't know. Perhaps, in some of the situations, no one's 
recognized the fact that it's taking place. But in those 
offices where they do have partnership councils, I understand 
that people are working together closely, as we did in times 
past. And so, my response is yes, we do need to bring this down 
below the national and regional level and involve employees and 
the managers at the front line.
    Mrs. Kennelly. Well, your answer contradicts the IG's 
suggestions that partnerships should be unified throughout the 
country, with every, local, regional office doing the exact 
same thing. And I hear----
    Mr. Schampers. Would you repeat that, please?
    Mrs. Kennelly. This was testimony that we had yesterday.
    But what bothers me is that what I hear you saying this 
morning, except for Mr. Beckstrom, is that you don't know 
what's expected. You don't have answers. You just know people 
are there, and, in your testimony you say, you can't ask them 
anything. And you don't know what they're doing. And 
everybody's all upset about it. And I would think that if we 
carried out the report and people knew exactly what was 
expected, and what they were there to do, that it would make a 
much better situation than the one you've come here today to 
describe. And I think that's the whole reason we had the 
partnership study.
    Mr. Chairman, I'd just like to mention to everybody in the 
audience that tomorrow, July 24, we're going to have the 
union's representation here. And there have been allegations 
made here this morning that have to be responded to, and 
certainly responded to on the record.
    But I have a feeling they'll be an even a smaller group 
here to hear that. But I do hope that we can disseminate the 
records so we get answers to these allegations.
    Chairman Bunning. We do have two union--or one union 
official, not a member of a union. And also, another member of 
the union.
    Mrs. Kennelly. Mr. Reusing.
    Chairman Bunning. Yes, he is a member of the union.
    Mrs. Kennelly. I don't think he----
    Chairman Bunning. He is a member of the union.
    Mrs. Kennelly. You bet he is, and he's a survivor.
    Mr. Beckstrom. Am I a union official, is that?
    Mrs. Kennelly. No, I am talking about the testimony that 
we're going to have tomorrow that I think----
    Chairman Bunning. We're going to have----
    Mrs. Kennelly. What?
    Chairman Bunning. Go ahead. We're going to have the AFGE 
official.
    Mrs. Kennelly. And I do think that they should have the 
opportunity to respond. And there were allegations made today 
that have to be responded to. But, Mr. Reusing, I really 
commend you for your survivorship, and your real strength in 
standing up to everybody. And we should congratulate you.
    Mr. Reusing. Thank you.
    Chairman Bunning. Kenny.
    Mr. Hulshof. Thanks, Mr. Chairman. Before I begin 
questions, I just have to respond briefly to some of the 
statements that have been made and part of the questions that 
already have been asked. I'm concerned and a bit disappointed 
that some on the Subcommittee are approaching these hearings 
with a shrug of the shoulders.
    Mrs. Kennelly. Would the gentleman, just for a minute, let 
me interrupt him? I just wanted to make sure that Mr. Reusing 
knew I had a little cynicism in that statement. I thank the 
gentleman.
    Mr. Hulshof. I'm disappointed that Members of this 
Subcommittee would come here with the attitude that well, 
there's a shrug of the shoulders and that the majority of those 
participating in partnership agreements are hard-working, don't 
abuse official time.
    And I'm certainly glad, Mr. Chairman, that the Ways and 
Means Committee did not take that attitude regarding the 
Internal Revenue Service. And I recognize that there are 
Members here who gladly went to the White House yesterday for 
the signing ceremony of a radical reform and restructuring of 
the IRS. And I think all of us would agree that the vast 
majority, the 110,000 employees of the IRS were hard-working 
too, and yet when we had hearings here on Capitol Hill where 
people came to testify, we had to disguise their voices and put 
them behind partitions because they were fearful of 
retribution.
    And so I'm a bit concerned that Members of this 
Subcommittee would say, well, the vast majority of these 
offices don't abuse official time. Therefore, we should treat 
these stories as ``Man Bites Dog'' stories. And for those of 
you who weren't privy to the testimony yesterday from the 
Inspector General, this is not the tip of the iceberg. These 
are not isolated cases. The Inspector General suggests 25 
percent abuse. Now that to me is not just isolated incidences. 
We're talking about widespread abuse.
    Mr. Reusing, is it Reusing or Reusing?
    Mr. Reusing. Reusing.
    Mr. Hulshof. Mr. Reusing, after reviewing your testimony, 
is it safe to assume that you're of the opinion that the 
union's status at SSA and partnership are not achieving service 
to our Nation's seniors?
    Mr. Reusing. That's correct.
    Mr. Hulshof. Mr. Hardesty, is it safe to assume, given your 
written testimony, that the activities of full-time union 
employees have had a detrimental impact on service to our 
Nation's seniors?
    Mr. Hardesty. It has certainly had a detrimental impact on 
the morale of my office and it has taken resources from 
frontline service.
    Mr. Hulshof. Mr. Beckstrom, you work at the SSA's Baltimore 
headquarters, do you think it's inappropriate for union 
employees, whose salaries are paid by the hard-working 
taxpayers of this country, to work at Camden Yards on the 
taxpayers' dime, is that appropriate?
    Mr. Beckstrom. Of course not.
    Mr. Hulshof. How about shopping or playing golf, collecting 
records, fishing, or engaging in political activity, as we 
heard documented by the Inspector General, are those 
appropriate uses of official time?
    Mr. Beckstrom. Absolutely not.
    Mr. Hulshof. During yesterday's hearing, it was revealed 
that the AFGE objected to four questions that appeared on 
initial drafts of surveys sent to SSA employees. One of the 
questions was as follows: ``What are typical union activities 
for you and what portion of your official time do you spend on 
each?'' Do any of you care to offer an opinion or speculate on 
why AFGE would object to this question? Mr. Beckstrom?
    Mr. Beckstrom. I missed the first part of your question. 
You're saying the survey was--could you repeat the----
    Mr. Hulshof. Sure. The AFGE objected to four questions that 
appeared on initial drafts of surveys. The surveys were sent 
out by the Inspector General----
    Mr. Beckstrom. OK.
    Mr. Hulshof [continuing]. In an attempt to find 
information. And one of those questions was ``What are typical 
activities for you and what portion of official time do you 
spend on each?'' And the AFGE objected to that question on the 
survey. Why do you think that is?
    Mr. Beckstrom. That would be speculation. I don't really 
know.
    Mr. Hulshof. Mr. Reusing.
    Mr. Reusing. I would think that their major reason they 
wouldn't comment is because they really don't know either. I, 
as an officer, had about 10 or 12 stewards under me, two or 
three I could find. The others may be on official time, they 
may not be official time. But I didn't see them sometimes from 
one week to the next. Some of my fellow officers were 
frequently missing in action.
    But I would caution you about putting too much faith in the 
OIG report. The reason for that is I read that they said there 
was 145 full-time union activists. Well, that's obviously the 
officers that are full time. I was a full-time officer, but I 
did not use that time. That's probably unique. There are many 
other stewards, not officers, who should receive eight hours 
per week official time and then they can get additional 
official time for bargaining, arbitrations, things like that. 
They also get thousands of hours of official time for EEO 
activity. In other words, if an employee comes in with a 
complaint, I could decide that it was an EEO matter; and I 
could pursue it under the EEO statutes and not count it toward 
the union budget of official time. And there's no one doing 
anything about that.
    Another abuse of the EEO process, when the award panel 
started and your fellow employees got to decide whether or not 
you received an award, some of the employees who felt they 
weren't properly treated filed EEO complaints because the 
unions, well, we can't grieve this because we're part of the 
process. Some grievances were filed but they really weren't 
successful. I and some others tried to get people their day in 
court by filing EEO complaints. He had to file under EEO, a 
more expensive process to the taxpayer, just to get people 
their day in court.
    Chairman Bunning. The gentleman's time has expired.
    Mr. Hulshof. Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Neal.
    Mr. Neal. Thank you, Mr. Chairman. Are any of the panelists 
aware of any collective bargaining agreement in your respective 
regions that grants time off for Christmas shopping?
    Mr. Schampers. No, I'm not, no.
    Mr. Neal. No. So it was never part of any patterned 
bargaining?
    Mr. Schampers. No.
    Mr. Hardesty. I was not aware of that practice until this 
morning.
    Mr. Schampers. Right. I've heard about it but I'm not----
    Mr. Neal. So if it were to take place, it was taking place 
outside of the collective bargaining agreement, would that be 
your hunch?
    Mr. Hardesty. Yes, sir.
    Mr. Schampers. I would guess that it's not part of our 
contract and done during term for bargaining, but if there's an 
agreement between the union and management, it could have been 
done through a Memorandum of Understanding, which is bargaining 
but not part of the contract. I don't know the details. I don't 
know how that occurred.
    Mr. Neal. So would you generally grant that it would be up 
to management to correct, to rectify that sort of a procedure, 
if, in fact, it were taking place? The management would already 
have the tools to do something about that?
    Mr. Schampers. If they could correct it. Now, sometimes 
action is taken to correct it and were reversed later in 
arbitration based on past practice.
    Mr. Neal. Right. The point I'm trying to raise is--if it 
took place, and there obviously are some pieces of evidence 
that it occurred, it took place outside of the collective 
bargaining agreement?
    Mr. Schampers. Sir, I don't have the details on that 
situation. I don't know how it took place.
    Mr. Neal. My point again, let me go back to this if I can 
for a second. If this were taking place outside of the 
bargaining agreement, then it would be up to management to 
correct it. Would you agree with that?
    Mr. Schampers. Yes, I would agree with that to an extent. 
Management sometimes cannot correct problems because of third 
party intervention.
    Mr. Neal. Right. We have gone through a kind of a new 
experience here with a bag over the head routine where people 
sit here with a bag over their head. Some Members of the House, 
by the way, put bags over their head as a moment of respect for 
the institution to which they serve to draw attention to 
themselves. Would you just hunch that in a major corporation, 
perhaps the size of IBM, that you could bring in a lot of mid-
level employees that would be disgruntled or dissatisfied about 
the manner in which they were being treated by that company? 
Would you guess that that might be a possibility?
    Mr. Schampers. I guess so.
    Mr. Neal. See, we bring the bag-on-the-head people in for 
the purpose of trying to make a point. My point is that that 
could be done across corporate America as well but we don't 
undertake that procedure here. But do you think that there 
might be some disgruntled employees in major corporations 
across the country?
    Let me ask you something, Mr. Reusing. How much vacation 
time do you get?
    Mr. Reusing. Twenty-six days per year.
    Mr. Neal. Twenty-six days. Was that bargained?
    Mr. Reusing. I really don't know. I wasn't involved in the 
unions when that came down. I don't know if that's an OPM rule, 
or if it was bargained or not.
    Mr. Neal. OK. How much sick time do you get?
    Mr. Reusing. I get 13 days per year.
    Mr. Neal. Was that bargained?
    Mr. Reusing. Again, I don't have any knowledge one way or 
the other.
    Mr. Neal. What about bereavement time?
    Mr. Reusing. Again, I would have no knowledge. There are 
OPM rules that apply to all Government employees, and I don't--
--
    Mr. Neal. OK. Without getting into your specific salary, 
your wages, were those bargained?
    Mr. Reusing. I don't believe Government employees are 
allowed to bargain their wages. Although I do think that unions 
do mount campaigns when that comes before Congress, as they 
should.
    Mr. Neal. Right. And grievance procedure, was that 
bargained?
    Mr. Reusing. That was bargained.
    Mr. Neal. That was bargained. Do you think that these 
things would have been granted by a happy management team 
without some suggestion of collective bargaining along the way?
    Mr. Reusing. Of course not. However, I also think that 
abuses in the unions, if they exist, should be dealt with.
    Mr. Neal. There is no suggestion in this quarter that we 
ought to tolerate somebody working at Camden Yards while 
simultaneously holding a job as a union representative. There 
is no suggestion about that. The suggestion instead is that 
many of the procedures that I have outlined here, some of which 
you have said were bargained, others you're not sure about, by 
and large have given a decent standard of living to the 
employees.
    Mr. Reusing. That's correct.
    Mr. Neal. So we've acknowledged that management would not 
have unilaterally granted these things as just a good wish and 
an act of goodwill, so collective bargaining is put in place, 
people negotiated these agreements, and the expectation is in 
the end that both sides live by those agreements. Is that kind 
of a general understanding?
    Mr. Reusing. Yes, and I would also add that the union has a 
responsibility to consider the views of its members and bring 
them forward, whatever those views might be. With the pass/fail 
rating system, this was not done. The union maintains that they 
sent out a survey. I can tell you for sure that it was not sent 
out in central office because I would have given it out. And 
when I was fired as a steward, I was saying at a public 
meeting, the president of the union had told the employees that 
they had received a survey. And I said, ``No, they didn't. We 
never gave one out.'' And I was dismissed immediately. The 
employees' issues and concerns are not always being brought 
forward by the union or through partnership. And that needs to 
be resolved.
    Mr. Neal. No, that's reasonable that you outlined that 
problem and challenge. Let me ask you this if I can: How does 
the union president become the union president?
    Mr. Reusing. The union president has to be elected.
    Mr. Neal. Elected? Management doesn't appoint them?
    Mr. Reusing. No.
    Mr. Neal. So it would suggest that in some manner there are 
employees that are satisfied with the person at the head of the 
union?
    Mr. Reusing. Well, I'm glad we got to that.
    Mr. Neal. So am I. [Laughter.]
    Mr. Reusing. Right now we have put before the Department of 
Labor a protest over our last election. One of the reasons I 
was dismissed as an officer is because I had 126 blank union 
ballots that I refused to give over to a high level union 
official during the election. And this person was a candidate. 
So I would submit that union officials that are partners with 
management should be fairly elected because they may, that's to 
say management may be dealing with people who stole an 
election. And I'm willing to wait until the Department of Labor 
makes a decision on that but there is some evidence of that.
    Chairman Bunning. The gentleman's time has expired.
    Mr. Neal. Thank you, Mr. Chairman.
    Chairman Bunning. You're welcome. Let me just--the reason 
for the hearing is that there is a difference between private 
and public sector employees to the point of the use of 
taxpayers' dollars, and that is the only reason we're having 
the hearing. So disgruntled employees at IBM don't spend 
taxpayers' dollars in an irrational way. The reason we're 
having the hearings is that we have found evidence, at least we 
think we have, of taxpayers' dollars being used in a frivolous 
way.
    The gentleman from Arizona, Mr. Hayworth.
    Mr. Hayworth. I thank the Chairman, and I would concur that 
the important distinction is not the fact that--to borrow Mr. 
Jefferson's phrase, ``in the course of human events,'' there 
may be dissatisfaction and dispute within the workplace. The 
central feature we are concerning ourselves with today is 
alleged abuse--and to use the term of the Inspector General, 
``abuse,'' of the taxpayer dollars in personnel decisions. And 
that is the key distinction.
    And I would also note for the record that none of the 
witnesses today have bags over their heads. No one is trying to 
run and hide from what appeared real and disturbing problems.
    Mr. Schampers, it was suggested earlier with an unfortunate 
term that the ``robust discussion'' that you found yourself a 
part of was akin to a ``man bites dog'' occurrence in that it 
was extremely rare but disputes can happen. Do you feel your 
personal experience is rare? Do you believe it has been 
replicated? Have you heard of other situations involving 
intimidation?
    Mr. Schampers. I've heard of several other instances of 
abusive or loud language, whether it's life threatening 
remarks, I can't attest to that.
    I would so though--I'd like to respond in your question a 
little bit to Congressman Neal's question in that I don't come 
here as a disgruntled employee. I can tell you I'm a very happy 
Federal employee. I've been very successful in this agency. I'm 
very happy in the town I live in. You're not seeing my name on 
promotion lists because I don't intend to leave Waco. I love 
this job. I love this organization. And it has been good to me, 
very good to me.
    My reasons for coming here today are because I see some 
problems, not problems with the union, none of us are here 
today saying we shouldn't have a union. We're saying that there 
should be some controls in the process. There is a role for 
unions, but that role is not without restrictions and that 
includes robust discussion and language and standards of 
conduct. I think anyone who works for this Government is bound 
by the standards of conduct and the standards of decency, and 
we should acknowledge those and be required to follow them.
    Mr. Hayworth. Just for the record, what was characterized 
as a ``robust discussion'' by union officials, where someone 
took their finger pointing it and putting it into your chest 
and said that people like you could end up missing--did you 
consider that robust discussion or a threat?
    Mr. Schampers. I consider that a life threat from an 
organization that's very powerful.
    Mr. Hayworth. You also offered, I think, very eloquent 
testimony giving your dedication to your job. You talked about 
the farmers in the Waco area and the drought conditions and 
your ability to put into everyday terms what was going on here. 
I'd like you to go back to the testimony. I think it was 
something about the FICA taxes of 9,000 farmers over a certain 
period of time essentially go to pay for union activities. Is 
that correct? Was that your statement?
    Mr. Schampers. That's correct.
    Mr. Hayworth. And I just want to thank you for pointing 
that up because that is the other key portion of the equation 
here, the very human equation of American taxpayers and 
American citizens, who come to rely on Social Security, seeing 
that money that is supposed to be in a trust fund ends up sadly 
in what appears to be a slush fund. And I just want to thank 
you for your comment because I think in that testimony, it's 
very compelling because you bring into human terms what exactly 
is at stake.
    Mr. Reusing, I want to congratulate you not for being a 
survivor, but for being one who is willing to say, as you have 
this morning, you believe in the collective bargaining process 
but you're for the rights of the individual as well as the 
right to collectively bargain. Tell more about the offer of 100 
percent official time? Could you tell me more about that 
experience?
    Mr. Reusing. Well, I and another steward were going to run 
for an office on a reform ticket. A high-ranking union official 
felt that this would be a threat to his career because he was 
up for election the following year. And he didn't want that 
kind of embarrassment. He asked to see me, though we hadn't 
been talking for a while. And I went down and I was made the 
offer just as I said. I would be given 100 percent of official 
time for the rest of my career. I would not have to go back to 
my desk. All I had to do was not run. Now, I want to point out 
that there were no additional duties required of this. I just 
had to not run. I could have been self-employed but still paid 
by the taxpayer. And that's clearly an abuse and I found it 
insulting.
    I would like to say that there are literally hundreds of 
union representatives who do not abuse their time. And Federal 
employees do have restrictions put upon them that you don't 
have in the private sector. And that was the reason for the 
taxpayers' granting us official time in the first place. It's a 
generous benefit for Federal employees. And Congress and the 
President felt it was reasonable, it was signed into law. My 
problem is if it's abused that it could be taken away and I 
think that's a detriment to Social Security employees, Federal 
employees in general, and because when you have positive 
relationships between management and union, as this gentleman 
said, prior to partnership, I think they provide benefits for 
the taxpayers too. I would not like to see misconduct by my 
colleagues resulting in the loss of official time.
    Chairman Bunning. The gentleman's time has expired. Mr. 
Becerra. Not here.
    Mr. Levin.
    Mr. Levin. Mr. Chairman, let me ask a few questions that 
relate to facts. I don't think there is any difference in the 
level of concern about abuse on this Subcommittee. And I don't 
think anybody should mischaracterize it. Since I hadn't said 
anything today, I know you weren't characterizing my concerns.
    So let me ask a few questions about facts. It is a little 
difficult to get them since we don't have all the parties here. 
We're doing this not just panel by panel, but day by day. But 
that's the way this has been structured. So let me just ask--
because I'm concerned about any abuse and I want to get the 
facts.
    Mr. Hardesty, you talk a lot about full-time union 
officials. I'd like to understand what the system is. You're a 
district manager, right?
    Mr. Hardesty. Correct.
    Mr. Levin. You say in your testimony, ``there are no agency 
restrictions on the number or location of full-time union 
officials?''
    Mr. Hardesty. Right.
    Mr. Levin. So that means in your region there could be 150 
full-time union officials?
    Mr. Hardesty. I guess that potentially could happen. I'm 
not sure how many full-time officials we have in our region. We 
have three in my office. That's highly unusual. I've worked in, 
gosh, eight or so Social Security offices and this is the only 
office I've ever worked in that had any full-time union 
officials.
    Mr. Levin. So you're sure there's no regulation, no 
structure determining how many there will be. So the union 
could name 200 people. Mr. Schampers, let Mr. Hardesty answer, 
would you please?
    Mr. Hardesty. Yes, there is no--to my knowledge--there's no 
number that is allowed in terms of full-time union officials. 
There are some restrictions in terms of bank hours. Bank hours 
are representational hours that can be used for specific 
purposes. There are allocations for bank time that can be 
delegated to union officials to use. So in theory there would 
be a possibility if the officials were using solely bank time, 
that that time would run out and, therefore, there could be no 
other officials. The problem is that the decision as to whether 
the time is charged to bank time or to agency time, under our 
present system is the purview of the person using the time. 
They just report it.
    Mr. Levin. So you're saying the number of full timers, as 
some of you called it, would be governed by the hours that 
could be banked for time relating to union or organizational 
functions?
    Mr. Hardesty. Well, union or organizational functions, 
internal union business is not approved official time. It's 
neither bank nor agency time.
    Mr. Levin. So you're sure that a union could name 25 people 
full time and there would be no restriction on that?
    Mr. Hardesty. Well, I'm not sure of specifically what the 
union can do.
    Mr. Levin. But you say there are no agency restrictions, I 
think we better ask the panel that comes here tomorrow. I find 
that if there are no restrictions that a union could name 500 
people, there's a problem.
    Let me ask you also, you say, ``For full-time union 
officials, I have no controls available to me to ensure their 
time is being used appropriately.'' Under the old or new 
system, is there any requirement that full timers, as some of 
you have labeled them, must enter some information about what 
they're doing?
    Mr. Hardesty. They're to report to us the number of hours 
that they spend and whether those hours are agency time or bank 
time. And they do give us that report. But in terms of the 
specifics of what they're doing during that time, I have no way 
of knowing nor do I have any way to verify when they report it.
    Mr. Levin. They're not required to specify anything?
    Mr. Hardesty. They're not required to--our policy says that 
in order for me to approve official time, they're to tell me 
enough about their activity to enable me to make a decision as 
to whether it's appropriate. And that's the way it historically 
has worked. And the way it works today with the stewards that I 
work with. The full timers don't request advanced approval of 
official time. They just work it and after the fact.
    Mr. Levin. They report?
    Mr. Hardesty. They report, ``I worked x number of hours 
bank time. I worked x number of hours of agency time.''
    Mr. Levin. They don't have to say what they did?
    Mr. Hardesty. No, that's our practice.
    Chairman Bunning. The gentleman's time has expired. The 
gentleman from Ohio, Mr. Portman.
    Mr. Portman. Thank you, Mr. Chairman. Another very 
troubling piece of information there that I didn't see in the 
IG's findings that there doesn't have to be any kind of 
specificity as to what happens on official time.
    Let me just say that one of the union senior officials was 
quoted perhaps inaccurately, but I doubt it, as saying that 
these hearings are ``political theater.'' Having sat through 
yesterday and sat through today and heard your testimony and 
the questions, it's not political theater. We're responding to 
very serious and a very troubling report from the IG's office 
before the GAO of massive lack of accountability really as to 
how taxpayer dollars are being spent. I want to thank all four 
of you gentleman for being here today. Let us pursue it.
    Let's just review it quickly though. The IG said that 25 
percent of the managers at SSA do believe that there is abuse 
of time used on union activities. And 20 percent of them said 
they did nothing about it. And why? Because they felt no one 
was interested.
    That alone, Mr. Bunning, is a reason to have this hearing, 
and I thank you for it because we want everyone at SSA to know 
we do care. We care about what happens at SSA and we care about 
the good workers. And, as was noted earlier today, we've just 
come through this IRS practice, most of the people at SSA are 
trying hard to do a good job, they're working hard, they're 
doing the right thing. And they're being tarred with the abuses 
from the other workers. We want them to know, the good workers, 
we're with them and that's why we're going after this. And I 
think it's very appropriate and not political theater at all, 
but rather it's our responsibility.
    We also found out from this report that there are obviously 
very inadequate controls on all sorts of things including 
ensuring that the authorized number of union reps are not 
exceeded, the amount of time and so on. I'm very troubled that 
the union challenged the legality of the review, and basically 
advised union officials not to cooperate. So that's kind of 
where we are.
    In 1993 GAO did a report, and found there was about $6 
million spent on union activity. In 1996, 3 years later, with 
only a 1 percent increase in the work force, we have 145 
percent increase in the amount of dollars spent on union 
activity. And, as was said earlier, that does not even include 
some of the cost of union time because it doesn't include the 
cost of union time in partnership activities. So the $14.7 
million that 9,000 farmers paid in payroll taxes is actually a 
conservative figure. It's actually more than 9,000 farmers 
whose payroll taxes went to support union activity. And my 
point, again, is that we need to look at this 145 percent 
increase in 3 years with basically a flat work force. Eighty-
one percent increase in the number of full-time union 
representatives in 3 years. These kind of figures are very 
disturbing. A 53 percent increase in the hours of Government 
time used for union activities.
    The most disturbing thing I heard today really, Mr. 
Hardesty, came from you and that is the fact that, as you said 
in response to a question, and in your testimony you get into 
this, that resources are being taken away from front lines. You 
talked about the fact that people were waiting in line. I 
assume these are senior citizens who are coming forward to try 
to figure out something about their benefit check, trying to 
get information, who are ending up waiting in line while full-
time SSA employees are doing full-time union work, and not, 
therefore, able to deal with those waiting lines. Can you get 
into that a little more and tell us what's going on in your 
office?
    Mr. Hardesty. Well, we have backlogs in many areas. We 
have, as you well know, we provide service in a full range of 
Social Security business, everything from issuing Social 
Security numbers to the Supplement Security Income program, and 
now we're doing more re-determinations on that program, 
continuing disability reviews, retirement survivors disability 
claims. And those resources are pinched.
    Mr. Portman. So you've got backlogs. Do you have waiting 
rooms that are full? Do you have phones that aren't being 
answered? Do you have that kind of a problem?
    Mr. Hardesty. Well, we have--yes, we do have those things, 
but what we've chosen to do is to take our claims 
representatives, who normally would spend a good portion of 
their day in adjudicating benefits, and we've moved them up to 
the front line. When the waiting room gets full, we don't let 
people wait. We'll pull someone off their desk, and we'll go up 
there and we'll take care of the people that are there waiting 
for us.
    Mr. Portman. But at the same time----
    Mr. Hardesty. As a result, if something builds up, they 
don't----
    Mr. Portman. Three full-time union folks in your office and 
you don't know what they're doing and you, frankly, don't have 
the ability to approve or disapprove what they are doing at the 
time when you're having to pull people off other jobs to go 
onto the line to respond to questions from seniors?
    Mr. Hardesty. That's correct.
    Mr. Portman. And to answer phones and to help people with 
their concerns.
    Let me just ask one more question, if I could, of Mr. 
Reusing. And I appreciate the courage of all of you coming 
forward. Mr. Reusing, as a union officer, I particularly want 
to cite you. You mentioned that you have some evidence of 
people not doing SSA business or union business while on 
official time, but instead working at the baseball park or 
selling real estate and so on. Do you or any other panelists 
have any evidence of any union activity, union officials who 
would be engaged in political activities while on official 
time?
    Mr. Reusing. As a steward, I attended training meetings 
that we would organize. And stewards from all the locals would 
attend. And there would be talk of upcoming elections and 
initiatives to support as well as candidates, union dues are 
spent on political contributions even though a high-ranking 
official came before this committee in June of 1996 and stated 
that that wasn't the case, that we had a special PAC fund. My 
local doesn't have a special PAC fund. The check that he was 
talking about came right from our general bank account. So I've 
seen political activity in the union office, yes. And those 
political views might not be the views of our members. We 
shouldn't be involved.
    Chairman Bunning. The gentleman's time has expired.
    Mr. Johnson.
    Mr. Johnson of Texas. Thank you, Mr. Chairman. Earlier, 
Congressman Levin stated that you had limits on the number of 
people who could work in the union. I think there's a public 
law to the effect that a limitation does exist, but I'm told by 
the IG that nobody in the agency knows what that limit is, nor 
do they try to enforce one. Is that true?
    Mr. Schampers. May I answer?
    Mr. Johnson of Texas. Sure.
    Mr. Schampers. When GAO came to my office when they were 
doing their investigation in 1996, the GAO investigator voiced 
frustration to me saying that they were having trouble finding 
out how many people worked in full-time or part-time jobs for 
the union because no one controlled it, the union or 
management, no one had these numbers. And he further told me 
that no one seems to want to gather those numbers.
    Mr. Johnson of Texas. Yes, that's essentially what they 
told us as well. And really that reflects poorly on both the 
union and management.
    Mr. Beckstrom, we have reports that some union members are 
working a second job or doing things they probably shouldn't be 
doing under the existing rules. Do you think it's possible that 
some union members in the Baltimore office are working a second 
job or outside the purview of the agency on agency time?
    Mr. Beckstrom. Well, you're asking me to speculate. I know 
a couple of union stewards pretty closely. I work with one very 
closely on the partnership council we have. The guys I know are 
working very hard and I think they are making a contribution to 
the agency.
    Mr. Johnson of Texas. Do you think the taxpayers are 
getting their money's worth out of the union employees that 
we're paying full time or part time?
    Mr. Beckstrom. The people that I know I think are giving 
good service to the workers and the agency.
    Mr. Johnson of Texas. In your opinion, what's the benefit 
to the taxpayer for the taxpayer dollars given to these union 
employees who work full-time union activity and/or part time?
    Mr. Beckstrom. Well, they protect workers. I mean workers 
are abused now and then. You know, they're part of a process 
that protects them. Also, I think they provide a reality check 
to the administration. For instance, in our partnership council 
we did this study of communication within systems. The Deputy 
Commissioner for Systems mandated that there be face-to-face 
meetings every couple of weeks with staff people, and the 
Deputy Commissioner for Systems has no way in the world of 
knowing that that actually happens. We serve to kind of give 
them the feedback, with half of the managers that's probably 
not happening. This is a source of information he's not going 
to get from any other area.
    Mr. Johnson of Texas. According to the IG, 25 percent of 
these union employees do something outside the agency. Would 
you like to speculate what kind of outside work they do? Is it 
fishing?
    Mr. Beckstrom. I don't know anybody who's doing that.
    Mr. Johnson of Texas. You don't?
    Mr. Beckstrom. No, I do not.
    Mr. Johnson of Texas. OK.
    You know, helping the seniors is the primary job of the 
Social Security Administration. There are other duties as well. 
But, if these union employees can't be controlled, and the 
managers can't get them to help them when they need help, and 
are overburdened, do you think that's the right result?
    Mr. Beckstrom. It's disturbing to me that that may be 
happening. I don't think the union ends up looking good in 
workers' eyes, if they--I mean, the coworker of these people in 
these district offices can only resent the union. That's not a 
win for the union to have people get away with that.
    Mr. Johnson of Texas. Yes. Do you see that in Baltimore at 
all?
    Mr. Beckstrom. Well, in Systems there's not a strong 
presence of stewards there. You're asking me to speculate to 
some degree. I haven't seen it. And the people I know are 
really competent, very competent people, and responsible.
    Mr. Johnson of Texas. Mr. Reusing, you want to address 
that? You always get caught right at the end of the light.
    Mr. Reusing. Are you asking, do they respect the union 
employees?
    Mr. Johnson of Texas. Yes.
    Mr. Reusing. Last year at a townhall meeting, a Division 
Director and a union vice president stood before the group, and 
an employee said to the Division Director, ``You're here to 
represent management. She's here to represent the union. Who is 
here to represent us?'' And I think that says it all.
    Mr. Johnson of Texas. Thank you very much.
    Chairman Bunning. Last but not least, the gentleman from 
Georgia, Mr. Collins.
    Mr. Collins. Thank you, gentlemen. I regret that I missed 
your testimony, but I do have a couple of questions.
    Mr. Reusing--did I pronounce that right?
    Mr. Reusing. Yes.
    Mr. Collins. OK. You mention that in your testimony, on 
more than one occasion, management gets what it wants, and the 
union sells out the employees. What is management getting, and 
what are the union officials receiving?
    Mr. Reusing. Well, let me recite an example that happened 
last year, and that might put it in perspective for you.
    Last year in ODIO, the Office of Disability and 
International Operations, management wanted to increase the 
education requirements on several job postings. These were for 
low-grade positions, GS-5, GS-6, GS-7. The incumbents for this 
job are typically women and minorities. Many of them haven't 
had the benefit of a college education. Management wanted to 
not only increase the number of points, but the criteria for a 
course, counting for a point.
    The previous job postings for these positions had no 
education requirements. Management was concerned, because under 
a pass/fail rating system they couldn't rank employees. It's 
sort of like picking people for a draft pick on a baseball 
team, and not having their stats. So, they wanted a way to 
screen out some applicants. They decided that education would 
be a good way to do it.
    This was negotiated originally through the partnership in 
ODIO, and then an officer and a steward were selected to 
negotiate the final MOU. In that MOU the points were increased, 
and you needed I think 3 or 5 points for education, just to 
make the best qualified list. Hundreds of employees who 
normally would have qualified for this job and had been on the 
best qualified list, were left off.
    The union officer who signed that MOU made that BQ list, 
and was selected. The son of a union officer who was on that 
partnership council was selected. Meanwhile, hundreds of our 
members couldn't even be considered.
    I filed an EEO complaint for three of those women, and the 
taxpayers are going to spend a lot of money to resolve that 
issue. I think that's a prime example of how partnership can 
work if it's not controlled properly.
    Mr. Johnson of Texas. Do you think that management has 
given in to some of these so-called jobs, like maybe allowing 
jobs in Camden Yards? And I'd really be curious as to what you 
think someone at Social Security, is doing at Camden Yards? 
What kind of activities are they engaged in there? Do you know?
    Mr. Reusing. It was reported to me, and it was general 
knowledge around the local that a person was engaged in 
employment there, I believe selling concessions. And like I 
said, I don't have any first hand knowledge of that. I want to 
stress that that was general knowledge around the local. I did 
not observe it myself.
    Mr. Collins. Do you think those are some of the gratuities 
that management has been handing out in order to get 
concessions from the union?
    Mr. Reusing. No.
    Mr. Collins. Those union officials?
    Mr. Reusing. No, I think that was the case where someone 
was just taking advantage of official time, and management 
wasn't aware of it.
    Mr. Collins. OK. Mr. Beckstrom, you talk very favorably of 
the partnership concept, and how it's working. And I have a 
company, one of the major automakers--it's right at the edge of 
my district--called Ford Motor Company, and they have this team 
aspect to their union and supervisor. And it's worked very well 
there, so, I know it can work.
    And I appreciate your stating that you think everything is 
doing very well. You say that you think the IG has overstated 
their numbers in their review of the activities.
    Mr. Beckstrom. I didn't say that. I don't know if--I 
haven't seen the report. I don't really know--you know, I don't 
have enough knowledge to rebut it.
    Mr. Collins. I got that out of your testimony.
    Is your opinion before IG or after IG, that the partnership 
is working better?
    Mr. Beckstrom. I guess when--reading my opening statement, 
I was saying I think that Systems works more effectively now 
that we have a partnership, yes.
    Mr. Collins. And this is after the IG report, really?
    Mr. Beckstrom. Irrelevant in the IG report.
    Mr. Collins. It--the report. Mr. Schampers says that it was 
understated. Were all of these people sworn in? You still stand 
by each of your testimonies. One says one thing, and one says--
of course, that really what happens in everything we do anyway.
    Chairman Bunning. Yes, they were all sworn in.
    Mr. Collins. They were all sworn in. Either one of you want 
to change that position?
    Mr. Beckstrom. You know, I don't know what the numbers in 
OIG, if they're accurate or not. I mean, I don't have any 
opinion.
    Mr. Collins. No opinion.
    Mr. Beckstrom. I don't have anything to base it on, no, 
sir.
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Neal. Mr. Chairman, could I seek a point of 
clarification?
    Chairman Bunning. Go right ahead.
    Mr. Neal. Mr. Collins, in your questioning of Mr. Reusing, 
you asked him whether or not that employee at Camden Yards was 
an established fact, and what did he say? That's hearsay? Is 
that what he said? That it was a rumor?
    Mr. Collins. Yes. He said it was based on things that had 
been told to him.
    Mr. Neal. Told to him. OK. For some reason, I thought that 
that was an established fact, and that we had repeated enough 
so that we all assumed it to be true. And now Mr. Reusing is 
saying--did you hear that?
    Mr. Collins. Well, I also asked him what he was doing, and 
he said he'd heard he'd been working in a concession stand.
    My point, Richard, was to see if whether or not----
    Mr. Neal. But, that doesn't make it more authentic.
    Mr. Collins [continuing]. This had been some type of a 
gratuity, some type of favor that was offered or given by 
management to a union official for some agreement.
    Mr. Neal. We should try to establish that better--that's my 
only point--before we pass that off as being----
    Mr. Collins. Well, when you have your 5 minutes, you 
establish it how you want to.
    Mr. Neal. Yes. Well, I thank the gentleman for clarifying 
that. I mean, it's important.
    Chairman Bunning. The gentleman from Illinois, Mr. Weller.
    Mr. Weller. Thank you, Mr. Chairman, and I apologize in my 
delay in getting here, and that I missed the testimony of your 
four witnesses. But, just in working to keep things in 
perspective here, last night after the hearing we had 
yesterday, I was talking with some folks back home, kind of 
what I call the coffee shop crowd, the retirees that you see at 
10:00 at White's Cafe, having coffee, who tend to assimilate 
all the information, and of course make recommendations, and 
pass judgment on what we're doing here in Washington.
    And I come here today, of course, as a supporter of 
collective bargaining, and when I think of some of the things 
I've learned, and looking at the Inspector General's report, 
and of course the information that came out yesterday, I 
recognize we're looking at management decisions by the 
administration, as well as the actions of public employees, and 
the Social Security Administration.
    You think about it, employees of the Social Security 
Administration are charged with safeguarding the Social 
Security Trust Fund, something that's pretty important to folks 
like mom and dad, seniors that are on Social Security. And if 
you relate that to my friends that are prison guards at 
Stateville in Joliet in my district, they're charged with 
keeping criminals off the street.
    And yesterday, of course, we learned in the hearing about 
what officially is known as official time, and what I call 
taxpayer time, where individuals are using time at taxpayer 
expense for other purposes. And I shared it with these guys at 
the coffee table back home, the story about the Social Security 
Administration employee in Boston--the story that the Inspector 
General discovered regarding the Social Security employees 
going Christmas shopping on taxpayer time. We'd all love to 
have that privilege. Wasn't that wonderful. And the fact that 
it's still continuing outraged these folks back home.
    Today of course, we have been talking about an employee who 
has allegedly been--or at least one employee who has been 
working on taxpayer time, who allegedly was working at Camden 
Yards. Of course, I'm a Cubs and Sox fan in Chicago. I know 
Camden Yards is the home to the Baltimore Orioles.
    But, let me ask Mr. Reusing, you've indicated you felt this 
individual was working in a concession stand. Is he a hot dog 
vendor, or is he the bat boy, is he selling hats, or pennants?
    Mr. Reusing. My understanding was that it was in concession 
stands. But again, I don't have a real detailed knowledge on 
that. And as this gentleman said, it may be considered hearsay, 
but it's clearly stated in my statement that it's what I heard.
    Mr. Weller. It's your belief then that this individual was 
selling hot dogs or something on taxpayer time, essentially 
two-timing the taxpayers at taxpayer expense?
    Mr. Reusing. That's essentially correct.
    Mr. Weller. Let me ask Mr. Beckstrom, with the statement 
that Mr. Reusing, who's, from what I recognize here, a union 
official looking out for the interest of the employees at 
Camden Yards, do you confirm that it's possible that this 
individual could have been selling hot dogs on taxpayer time at 
Camden Yards, while he should have been over at the Social 
Security Administration Office, protecting the Social Security 
Trust Fund dollars for people like my mom and dad, seniors and 
citizens?
    Mr. Beckstrom. Well, I know my mom doesn't want him down 
there either, but I--it's such a wild story, I find it hard to 
believe. I mean, first off, selling hot dogs as a perk.
    Mr. Weller. Yes, but the question is, Mr. Beckstrom, this 
person was doing it at taxpayer expense. He's collecting a 
paycheck that my hard-working folks in the south suburbs of 
Chicago work hard to pay taxes, send them to Washington, DC. 
This guy's collecting a taxpayer financed check, and then he's 
out selling hot dogs while he's collecting that.
    And from what you're telling me, you've never investigated 
this? The management has never investigated this, even though 
this is a story that's going around----
    Mr. Beckstrom. I've never heard it before.
    Mr. Weller [continuing]. And Mr. Reusing has basically said 
it must be true?
    Mr. Beckstrom. I never heard this allegation before.
    Chairman Bunning. Let me get in here----
    Mr. Weller. Let me just close, Mr. Chairman. I realize I'm 
short of time.
    Chairman Bunning. You can close it. I'll let you have more 
if you choose.
    Mr. Weller. I just want to ask----
    Chairman Bunning. It's privilege of the Chair to have 
evidence of misdeeds and working outside of the union; you 
should immediately take it to the Inspector General. That's the 
function within your organization to do that. Now, go right 
ahead.
    Mr. Weller. Thank you, Mr. Chairman, that's a good point. 
And that's why I wonder why it was never looked into. I mean, 
do they just put blinders on in this office, in Baltimore?
    Mr. Beckstrom, I guess what I'm really asking you, are you 
saying it's impossible that this individual could have been 
selling hot dogs at Camden Yards on taxpayer time?
    Mr. Beckstrom. I'm not saying it's impossible, no.
    Mr. Weller. Do you believe that this should have been 
investigated by the management at the Social Security Office in 
Baltimore?
    Mr. Beckstrom. I would think management and the union would 
want to know about it.
    Mr. Weller. Mr. Chairman, I just can't understand, if the 
Inspector General has come forward with what some say might be 
hearsay, and others say it's pretty factual, and even a union 
official states that it's pretty common knowledge that someone 
was working at taxpayer expense, selling hot dogs at baseball 
games on taxpayer expense, I just don't understand why the 
Social Security Administration didn't look into this and put a 
stop to it. Thank you, Mr. Chairman.
    Mr. Neal. Will the gentleman yield for a question?
    Mr. Weller. Happy to.
    Mr. Neal. Who said it was factual?
    Mr. Weller. Well, my good friend--and I'm happy to yield to 
you. In my line of questioning here, I think Mr. Reusing said 
he believed this was going on. Mr. Beckstrom stated that it's 
not impossible that it could have. The Inspector General 
identified this as a problem. And the question is, why was it 
not investigated.
    Mr. Neal. But my point is, who said it was factual? Which 
one of the panelists said it was factual?
    Mr. Weller. I believe Mr. Reusing said he believed that 
this occurred, correct? And Mr. Beckstrom said it's not 
impossible that it could have happened.
    The question I have is, why did not the administrators of 
Social Security Administration look into this, investigate it, 
and put a stop to it? That's the question.
    Mr. Neal. I agree with the latter part of your assertion. I 
don't agree with the former, that somebody stated it was 
factual.
    Chairman Bunning. The gentleman's time has expired. That's 
a way to get out from under a mess.
    I would like to just give my good friend from Boston a 
little information on his supposed problem with Christmas 
shopping. It was brought to the attention of management, and 
management was going to stop it. But, the union filed a 
grievance, and therefore management got out from under the 
problem by allowing it to continue. That's the facts on the 
Christmas shopping problem in Boston. And it's only for this 
year, continues for this last year.
    Mr. Neal. Well, I'm proud to say, Mr. Chairman, I'm 90 
miles west of Boston, and it does not occur in Springfield.
    Chairman Bunning. OK. Does anybody else have any other 
questions?
    Often it is impossible for our Subcommittee to cover 
everything, all the issues that we're interested in during a 
hearing; therefore, we may be submitting additional questions 
in writing for you to answer for the record.
    Again, I want to thank you sincerely, each of you, for 
being here for our hearing. Your stewardship of the program and 
dedication to improving the agency is deeply appreciated by the 
Members of this Subcommittee and this Congress. The 
Subcommittee is adjourned.
    [Questions submitted by Chairman Bunning and their 
respective answers provided by Mr. Hardesty, follow:]

1. You said that you had three individuals who work full time 
as union officials. How many total employees are in your 
office? How did you acquire each of your 3 union officials?

    We have a total of 62 staff members in our office. This 
figure includes our 3 union officials. One of our union 
officials transferred to our office from an office in another 
region. He worked for several years as a Claims Representative 
and eventually began spending approximately 50% of his time on 
official time. He was later named an Administrative Officer by 
the Regional Vice President and notified local management that 
he would be using 100% official time for an indefinite period. 
He was later elected to the Regional Vice President position 
and continued to use 100% official time. He recently lost the 
election for Regional Vice President, but was immediately 
appointed by the local president a Chief Steward and given 100% 
official time. The National President has also given 
assignments to this person. He also serves as a National 
Council Representative. Another of our union officials was 
working as a Claims Representative Trainee when he was named by 
the Regional Vice President as a ``Presidential Designee'' and 
given 100% official time. He was later elected to the position 
of President of the local and has continued to use 100% 
official time. Our third full-time official was using 100% 
official time in another region and came to our office on a 
hardship transfer.

You mention that one was a hardship transfer case...how did 
that work?

    Our agency has a memorandum of understanding with the union 
that covers hardship transfers. A person who feels that they 
meet the criteria for a hardship transfer must submit a request 
to the appropriate management official. Relocation expenses are 
not authorized for employees who receive hardship transfers. 
The management official considers the employee's situation and 
the needs of the receiving office. If a decision is made to 
offer the transfer, the request is referred to a designated 
union official who can either approve of deny the hardship 
request. If the union approves the hardship, the transfer can 
be effectuated. In the case of the transfer to Tulsa of the 
union official, we attempted to apply the same criteria as we 
apply to other staff members. A decision was made to honor the 
request. Since the person would not be doing direct public 
service work, however, we did not consider our staffing pattern 
or the specific workload needs of our office. The transfer was 
requested because the person had married the full-time union 
representative in the Muskogee office. The union official 
transferred to our office and subsequently filed a grievance, 
citing unfair treatment and demanding reimbursement of 
relocation expenses.

2. You mention that the pursuance of abuse of official time 
allegations by full-time union representatives is virtually 
non-existent in your experience. Why?

    Article 30, Section 3 of our bargaining agreement in 
entitled ``Allegations of Abuse.'' The entire section reads as 
follows: ``Alleged abuses of official time shall be brought to 
the attention of an appropriate management official on a timely 
basis by supervisors and management officials. The management 
official will then discuss the matter with the local or council 
president as appropriate.'' Supervisors need to receive 
sufficient general information to assure the activity is one 
for which official time is authorized, but union officials are 
not required to discuss the substance of their activity. The 
burden falls on the union to police itself in allegations of 
abuse of official time. Our labor relations staffs can request 
copies of SSA-75's to insure that the official time was 
authorized, but, since specific details of the activities are 
not provided, it is difficult to pursue allegations of abuse. 
The definition of abuse is very nebulous. All of us at SSA are 
interested in having a strong, independent, yet accountable 
union. No one wants to see abuses of official time. The balance 
between independence for union officials and management 
oversight is a delicate one. Our present system creates a 
challenge in addressing allegations of abuse, since union 
officials are not required to provide details about the nature 
of their activities while on official time. If a union 
representative has a SSA-75 that has been approved, and the 
person is on duty, it is virtually impossible to prove that the 
person is actually engaged in the activity that is being 
reported.

3. You discuss the approval process for official time in your 
testimony quite clearly, yet you say full-time union officials 
operate by a different standard. How and why does this process 
work differently for them?

    It is important for us to schedule official time around 
public service activities for union officials who maintain 
agency workloads. Since many full-time union officials have not 
done direct public service work for years, different practices 
have evolved concerning the approval of their official time. 
The SSA-75 form that is used for the approval of official time 
does not call for the exact nature of the union activity. It 
simply asks the union official to designate broad categories of 
time, such as bank time, mid-term bargaining, etc. For example, 
if the union official requests time for mid-term bargaining 
there is no place on the form that requires to person 
requesting the time to identify the issue to be bargained or 
the management official with whom the person is bargaining. The 
union official, therefore, cannot be required to provide 
additional information to justify the use of official time. 
Past practices have evolved under which union officials who use 
100% official time simply turn in the SSA-75 after the fact to 
report how they spent their time. Other union officials have 
their SSA-75's approved in advance. The procedure for ``after 
the fact'' approval of SSA-75's for full time officials is 
based on past practices and a Memorandum of Understanding that 
was signed in 1990. I have recently asked out full-time 
officials to provide to me an interim SSA-75 in advance, which 
estimates how their time will be spend, followed by a final 
SSA-75 after the time has been used.

4. In SSA's response to the IG report, the Commissioner says, 
``the new automated Official Union Time Tracking System 
(OUTTS), will eliminate the errors that the IG identified in 
the Agency's manual reporting system. What are your experiences 
with this tracking system? Do you believe that it will 
eliminate the IG identified errors?

    OUTTS does not change the approval process for official 
time. It does not enable agency management to verify that the 
activity for which official time was approved was indeed the 
activity that was performed on official time. It does, however, 
do two key things: It allows us to track the use of official 
time by individual union official, and it provides a vehicle by 
which we can track bank time balances for each union official. 
The information is instantly available through our mainframe 
computer system. In this way it does represent an improvement. 
The information contained in OUTTS, however, is only as 
accurate as the SSA-75 that serves as the source document.
    The Commissioner also mentioned in his response to the IG 
report additional actions that SSA has taken to improve the 
accuracy of official time reporting, which include releasing an 
8-page question/answer guidance on official time, establishing 
a new official time reporting system for union officers, and 
numerous conference calls and meeting presentations on the 
importance of accurate reporting. Are you aware of these 
initiatives? Have they helped?
    I am aware of these initiatives. The agency has taken 
extraordinary steps to improve the accuracy of official time 
reporting. The initiatives have been helpful. The problem, 
however, is extremely complex and is driven by numerous past 
practices, memoranda of understanding, and third party 
decisions. In order to change those things they must be re-
negotiated. There are, therefore, situations to which some of 
the new instructions and guidance cannot be unilaterally 
applied. It is not because the agency leadership is not seeking 
to provide guidance; nor is it because local management does 
not understand or is ignoring the directives. We have simply 
found ourselves in a highly complex situation that has systemic 
problems that can only be solved through bargaining or 
legislation. We can issue instructions, hold meetings, and 
point the finger of blame at various individuals. Until we 
change our upstream process through the aforementioned methods, 
however, we will remain frustrated in our attempts to solve all 
of our problems.

5. Even though the SSA Inspector General has told us that they 
could not verify the cost of, and hours dedicated to, union 
activities, since SSA's information was not reliable, SSA did 
report in 1997, that expenditures for union activities went 
down from $14.7 million to $12.4 million and from 482,000 hours 
to 390,844 hours. They report that this decrease is due to 
reduced formal bargaining, a decrease in full-time 
representatives, and a continued emphasis on Partnership 
activities. What do you think about these numbers? Do you think 
these numbers and SSA's suggested reasons for their decline are 
accurate?

    I have no personal knowledge as to the accuracy of those 
agency-wide numbers. I do, however, know that the source of 
most local grievances was our old five level performance 
appraisal system. Grievances and the related cost and union/
management time virtually disappeared when we went to a pass-
fail system. I strongly support the pass-fail system. We can 
hold staff members accountable for performance, give feedback 
on performance, provide coaching, mentoring, and insure that 
people do the jobs they were hired to do without the tremendous 
cost and unmeasurable losses that a multi-level numeric 
appraisal system brings.

6. In your experience, how does the Union ensure that it is 
accurately representing employee's views before management?

    I cannot speak to an issue that is involves internal union 
processes and policies. The union is the exclusive 
representative of all of the employees in the bargaining unit 
regardless of whether or not the views of the employees are 
represented. I have had numerous complaints from employees that 
the union was not accurately representing their views. I 
consider that problem, however, to be internal union business. 
I cannot and should not involve myself in internal union 
business.

7. Who is the union accountable to?

    All public servants are ultimately accountable to the 
taxpayers. Those of us who do direct public service work must 
directly account for our actions to our immediate supervisors. 
While union officials are not directly accountable to agency 
management for their actions and the performance, of their 
duties, they remain public employees and are responsible for 
adhering to our standards of conduct and must be accountable to 
the taxpayers.

8. What benefits do taxpayers derive from official time?

    It is impossible for me to delineate specific, measurable 
benefits from ``official time.'' Taxpayers derive benefits from 
the service that public servants provide directly to them. Time 
spent in improving and innovating processes and in 
collaborating to improve working conditions represents a sound 
investment of tax dollars. I cannot say that those value-added 
activities can be attributed to the use of official time. 
Neither can I say that all official time adds no value to the 
taxpayer. My experience, however, does support the notion that 
collaboration and collective bargaining based in interest, 
rather than position, by parties who share a common aim adds 
value to the product that we deliver to the taxpayers.

9. What benefits do taxpayers derive from Partnership?

    Taxpayers derive immeasurable benefits from collaboration 
and process improvement. Our formal Partnerships in SSA are 
still in their infancy. The cost of our formal Partnership time 
is only beginning to be measured. It is difficult to do a clean 
cost-benefit analysis and attribute specific results entirely 
to Partnership when there is so much complexity and so many 
common causes in our processes that effect results. Our 
Partnership Councils have accomplished numerous things. We 
cannot, however, say with certainty that none of those things 
would have been accomplished without the Partnership Councils. 
Nor can we say that we could have accomplished all that we have 
without the Partnership Councils. We will have to give the 
concept sufficient time to become part of our organizational 
culture and allow sufficient time for long-term studies to 
compare our pre and post Partnership results.

10. We understand that in recent years, there has been a 
gradual consolidation of locals into larger area locals. These 
consolidated locals consist of 10 to 20 offices or more with 
appointed Presidents. What impact has this had on relationships 
with the union in the field?

    In many cases the impact has been minimal. Local managers 
and supervisors have continued to deal primarily with local 
stewards. In some cases the President of the local, rather than 
the local steward, might choose to interface with the local 
management staff. In these cases there is a likelihood that the 
President might not be as attuned to the specific needs of the 
local staff members as the local steward.
      

                                <F-dash>


    [Whereupon, at 11:45 a.m., the hearing was adjourned, 
subject to the call of the Chair.]


    LABOR-MANAGEMENT RELATIONS AT THE SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                         FRIDAY, JULY 24, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 1100, Longworth House Office Building, Hon. Jim Bunning 
(Chairman of the Subcommittee) presiding.
    Chairman Bunning. The Subcommittee will come to order. If 
our guests would please take their seats, we'd appreciate that.
    Good morning. I began this hearing on Wednesday by saying 
that Social Security is a sacred trust between the American 
people and their Government. When evidence of abuse is 
discovered, it is our duty to pursue it, and it is our duty to 
resolve it. All of us are in this together--Democrats, 
Republicans, the administration, and the unions. We all must 
root out any abuse that harms our Nation's seniors and their 
ability to receive service from the Social Security 
Administration.
    Having listened to the testimony this week, I am deeply 
troubled by what I have heard. Christmas shopping time is paid 
for by taxpayers. Workers are engaged in private business 
enterprises, personal endeavors, and political activities while 
on taxpayer-financed union time. Intimidation by union 
officials occurs, and even worse, management tells the workers 
to drop it. Full-time union officials are missing in action 
with no one knowing what these workers are doing while they are 
on official time.
    I am convinced this is not anecdotal. The Inspector General 
confirmed that, when it comes to official time, about 25 
percent of SSA managers suspect abuse. There's plenty of fire 
below the smoke, and we must find ways to put it out. We must 
proceed. We must help our dedicated Social Security workers, 
and we must respect the rights of organized labor, but we must 
never look the other way because we don't like what we've 
found.
    In the interest of time, it is our practice to dispense 
with opening statements except from the Ranking Democratic 
Member. All Members are welcome to submit statements for the 
record. I yield to Congresswoman Kennelly for any statement she 
wishes to make.
    Mrs. Kennelly. Thank you, Mr. Chairman. We've had 2 days of 
hearings that have included testimony from the SSA Inspector 
General and several SSA employees. These hearings have focused 
on employee-management relations and the use of official time 
at the Social Security Administration. Due to the structure of 
these hearings, we did not have a usual balanced panel where 
within the same time frame questions could be answered. We have 
had, on the record now, allegations and suspicions. My hope is 
today that we would have the opportunity to answer the 
allegations and to address the suspicions.
    However, I think it's only fair to say that today, 48 hours 
after the Inspector General testified, we will finally have the 
opportunity to hear from the Social Security Administration and 
the American Federation of Government Employees, an employee 
union representing 52,000 SSA workers who work very, very hard 
and probably don't even have any understanding or idea of some 
of things that we are talking about, and so I hope we can 
address these situations in a fair hearing today.
    I expect today's witnesses will offer us their views on the 
state of employee-management relations at the SSA and the value 
of the partnership agreement in improving those relations.
    Two days ago, I asked the Inspector General what system he 
would put in place at SSA if he were the Social Security 
Commissioner in order to resolve concerns raised in his own 
report. He responded that he would institute the same system 
that SSA has instituted with only a few minor modifications. I 
am greatly encouraged by the effort the SSA has made to 
modernize its official time tracking system. I hope to hear 
more today about the capabilities of the OUTTS system and its 
expected impact on preventing abuses and improving controls on 
official time. I look forward to hearing about these 
developments.
    Allegations, as I said, were made yesterday by two local 
office managers and union officials about the use of official 
time. We believe that any allegations of abuse ought to be 
looked into by the Commissioner and any actual abuses 
identified and corrected. We want to make sure that all rules 
are being properly followed. I hope the Deputy Commissioner can 
tell us what steps SSA has taken to address the concerns raised 
at yesterday's hearing.
    While the value of labor management partnerships have been 
recognized for years in the private sector, in 1993, the 
Clinton administration had the vision to see how partnerships 
could improve the quality of service provided by Government 
agencies to the public. We are here today to review the 
accomplishments of partnerships; to seek ways to improve those 
partnerships, and to find ways to further stress the SSA's 
ability to serve the American people.
    I look forward to hearing from today's witnesses and hope 
that we can set the facts straight. Thank you very much.
    Chairman Bunning. Thank you, Congresswoman Kennelly.
    Paul Barnes, Deputy Commissioner of Human Resources at the 
Social Security Administration in Baltimore, is our first 
panel.
    So if you will rise, Mr. Barnes. I will swear you in. 
Please, raise your right hand.
    [Witness sworn.]
    You may proceed with your statement.

  STATEMENT OF PAUL D. BARNES, DEPUTY COMMISSIONER FOR HUMAN 
           RESOURCES, SOCIAL SECURITY ADMINISTRATION

    Mr. Barnes. Mr. Chairman and Members of the Subcommittee, I 
wish to thank the Chairman and Members of the Subcommittee for 
inviting me to discuss the issue of union activities and our 
partnership activities between Social Security and the union 
which represents its employees, that make significant 
contributions to enhancements that we have made in customer 
service. I will summarize my remarks and ask that my written 
statement be placed in the record.
    Chairman Bunning. Without objection.
    Mr. Barnes. Thank you. One of SSA's three fundamental goals 
set forth in our agency's strategic plan is to create an 
environment that ensures a highly skilled, motivated work force 
dedicated to meeting the challenges of SSA's public service 
mission. We look to our partnership with the union as an 
important means for advancing that goal. By working with the 
unions we involve our employees in discussions about things 
that need to be done and how we will do them.
    At SSA, official time has traditionally been litigious, 
adversarial, and costly, because much of the matters, such as 
arbitration and unfair labor practices, are costly in terms of 
dollars and agency time. Under our partnership agreement, our 
relationship with the union has shifted away from litigation to 
more joint activities, such as involving union representatives 
in the decisionmaking process to help craft solutions to better 
serve our customers and creating labor management partnership 
councils and committees at the national and local levels of SSA 
including health and safety and security committees. The shift 
has made SSA a better agency and a much better provider of 
services to the American public.
    Earlier this year, SSA was the first Federal agency at the 
national level to complete a thorough evaluation of 
partnerships. This evaluation details numerous benefits of 
partnership within SSA. For example, in the area of customer 
service, partnership has facilitated numerous improvements in 
customer service, several of which directly impact upon our 800 
number services. Partnership also helps SSA customer service 
initiatives, such as the one-stop-shopping initiative we're 
pursuing.
    In the area of productivity and efficiency, partnership 
facilitated the disability redesign process, work sharing from 
one component to another and efforts to reduce the backlog in 
the Office of Hearings and Appeals. The partnership also was 
involved in developing and implementing recommendations that 
improve SSA's use of management information.
    In the area of employee empowerment, the partnership 
replaced traditional management control processes with 
processes involving the direct participation of employees, 
involving them as key stakeholders in workplace issues which 
affect them profoundly.
    In the area of work life, partnership has been found to 
enhance the work environment by helping to create developmental 
and growth opportunities for employees which had not previously 
existed. The Benefit Authorizer Intern Program in Kansas City 
is just one example of job growth, opportunities, and hope for 
career advancement.
    In the fiscal area, partnership activities have helped SSA 
save money and avoid expenditures as compared to traditional 
labor-management processes. Significant savings have resulted 
from reduced litigation costs; reduced relocation and 
renovation costs; re-missioning of employees; and the upgrade 
of our computer systems including the installation of 
Intelligent Work Station/Local Area Network equipment.
    I would also like to discuss the three reports recently 
issued by the Office of the Inspector General relating to 
labor-management issues at SSA. SSA respects the OIG's views 
expressed in the report, but, quite frankly, I believe that 
many of the conclusions drawn by the OIG in these reports 
reflect a fundamental misunderstanding of the nature of 
partnership and the relationship of activities arising out of 
partnership to the business of SSA.
    In its report on official time, the OIG attempted to 
determine whether official time used by the SSA was in 
compliance with laws, regulations, and collective bargaining 
agreements, and whether SSA produces reliable information to 
determine the costs of official time. However, the report 
failed to take into account what we're currently doing. The 
report took into account only SSA's past manual official time 
collection system without recognizing new automated systems 
which will eliminate the errors the IG identified in its 
report. SSA has been proactive in ensuring that it captures 
official time as well as partnership time in an accurate and 
timely manner.
    The OIG report on Council 220 Union Representative and 
manager observation on the Use and Management of Official Time 
at SSA is a collection of observations and is not, itself, an 
audit report. The survey represents an unscientific sample of 
opinions and perceptions and interpretations of survey data 
with no supporting evidence to verify any information given in 
the responses. Thus, the survey can only be of limited value in 
actually assessing the effectiveness of official time 
management at SSA.
    I would like to point out that the Commissioner reported to 
the House Committee on Appropriations on January 27, 1998 that 
in fiscal year 1997 there was a 19 percent decrease in the 
number of hours of official time that employees spent on union 
activities as compared to fiscal year 1996. The decrease is 
attributable in part to our continuing emphasis on partnership 
activities that have been instrumental in reducing official 
time usage by $2.3 million in 1997 as compared to the figure in 
1996.
    Moreover, the Social Security Trust Fund shall be 
reimbursed from general tax revenues for any expenditures made 
for official time and for facilities and support services for 
labor organizations.
    In conclusion, Mr. Chairman, let me summarize by saying 
that partnership activities at SSA greatly contributed to many 
of our successes in enhancing customer service. Although our 
partnership is still maturing, we expect further progress in 
the future. The partnership efforts between labor and 
management have been nothing less than a true success story at 
SSA. We believe that many of the OIG conclusions reflect, 
again, the fundamental misunderstanding of the nature of 
partnership and the activities that arise from it as it relates 
to the business of SSA. I will be happy to answer any questions 
that you may have.
    [The prepared statement follows:]

Statement of Paul D. Barnes, Deputy Commissioner for Human Resources, 
Social Security Administration

    I wish to thank the Chairman and the members of the 
Subcommittee for inviting me to discuss the issue of union 
activities and the conduct of union business on official time 
at the Social Security Administration (SSA).
    Since President Clinton issued Executive Order 12871 on 
October 1, 1993, a new spirit of cooperation has emerged 
between SSA and its union partners that has brought real gains 
for this Agency and for the millions of Americans that we serve 
every day. Although our relationship is still maturing, 
partnership efforts between labor and management have had a 
very positive impact on our ability to serve the American 
public.
    Today I would like to discuss SSA's efforts in forging 
effective relationships with its union partners; how 
partnership activities have made significant contributions to 
many of the successes we have achieved in enhancing customer 
service; and why SSA believes that many of the conclusions 
drawn by the Office of the Inspector General (OIG) in its 
recent three reports reflect a fundamental misunderstanding of 
the nature of partnership and the relationship of activities 
arising out of partnership to the business of SSA.

                History of Official Time and Partnership

    In 1962, President Kennedy issued an executive order that 
established a framework for Federal agencies to bargain with 
unions over working conditions and personnel practices. This 
executive order, along with a series of subsequent executive 
orders, was codified in the Civil Service Reform Act (CSRA) of 
1978, which established official time as an integral part of 
Federal labor-management relations and the Federal sector 
collective bargaining process.
    During the Reagan Administration, the first consolidated 
SSA-AFGE collective bargaining agreement to recognize agency 
payment of official union time from both the trust funds and 
general revenues was signed by then-SSA Commissioner John A. 
Svahn on June 11, 1982.
    SSA employees who serve as representatives of the unions 
use what is referred to as ``official time'' when performing 
union representational activities. Under the law governing 
union activities, the Labor-Management Relations Statute, 
(which was part of the CSRA), official time is defined as time 
employees spend acting as union representatives which they 
would otherwise spend in duty status and for which an agency 
pays the employees as if they were performing their normal 
duties.
    Official time granted to union representatives to engage in 
activities on behalf of the union is deemed to be Agency work. 
SSA, like other Federal agencies and many firms in the private 
sector such as Ford, Chrysler, Inland Steel and Armco Steel, 
pays for approved time spent by its employees on official time.
    The costs associated with union activities and the use of 
official time are an administrative expense charged to the 
Agency. In accordance with Public Law 105-78, the trust funds 
are reimbursed from general tax revenues for any expenditures 
made for official time and for facilities and support services 
for labor organizations.

                      Tracking Official Time Usage

    Tracking the use of official time is important to both SSA 
management and the unions. SSA recognizes past problems in 
accurately tracking and managing official time and has taken 
decisive steps to improve the tracking of official time usage.
    SSA has continually worked with its components and regions 
to collect accurate up-to-date listings of union 
representatives on a quarterly basis. These lists also show the 
percentage of official time used by each person.
    We work diligently to ensure that the lists accurately 
reflect union representatives and the amounts of time used. The 
Office of Labor-Management and Employer Relations (OLMER) is 
responsible for maintaining a list and for making changes based 
on information provided by the unions or reported by labor 
relations staff in the regions.
    In addition, in February 1998, SSA implemented the new 
automated Official Union Time Tracking System (OUTTS). OUTTS is 
an automated system that tracks use of official time and 
official bank time balances at the union representative level. 
It will enable SSA to monitor time spent on union activities by 
individual union representatives and ensure that total time 
spent on certain activities is not excessive.
    Users will be able to query the system for account balances 
and will be able to reallocate hours among representatives. The 
system will alert users when certain preset conditions arise; 
e.g., when a union representative is within 20 percent of 
exhausting his or her allocation of official time. OUTTS will 
also identify active and inactive union representatives.
    In future releases, OUTTS will enable SSA to make 
customized queries from the system. For example, an upcoming 
release will enable SSA to conduct an internal check on 
official time recording activities by differentiating between 
non-reporting field offices and reporting field offices. In a 
different OUTTS release to follow, a menu of administrative 
reports will be available. This menu will allow users to limit 
reports to specified regions or union locals.
    The OUTTS system applies only to the tracking of official 
time of union representatives in SSA's field components. This 
covers 75 percent of the union representatives in the Agency. 
For components other than field offices, SSA is considering 
alternative methods for ensuring accurate reporting. For 
example, a recent automation effort undertaken by OLMER has 
provided the capability for summarizing official time 
information on spreadsheets. Once finalized, this process 
should prevent duplication and minimize mathematical errors.

                  Handling Requests for Official Time

    The Federal Service Labor-Management Relations Statute 
provides that any employee representing a labor organization 
``shall'' be granted official time for negotiation of a 
collective bargaining agreement, including any impasse 
proceedings. The statute also provides that, except for certain 
specifically restricted activities, official time must be 
granted in any amount the union and management agree to be 
necessary, reasonable, and in the public interest. However, 
managers can, and do, request postponement of the use of 
official time due to workload considerations.
    The case law establishes the fundamental criteria for 
management and labor in substantiating requests for official 
time. SSA is in full compliance with both the statute and case 
law.
    The law does prohibit the granting of official time for 
union activities involving internal union business, such as 
soliciting membership, conducting elections of union officials, 
and collecting dues. Thus, SSA does not pay for union expenses 
related to these activities.
    In addition, SSA and the unions have negotiated collective 
bargaining agreements which set guidelines for the amount of 
official time allowable for management-initiated and union-
initiated activities. Union officials and SSA must agree on the 
amount of official time and the number of union representatives 
which are allowed for labor-management relations. These 
agreements are accomplished through mutual agreement or 
negotiations. If the parties disagree, the matter may 
ultimately be resolved by third parties such as arbitrators, 
the Federal Service Impasse panel (FSIP), the FLRA, or the 
courts. Thus, either the parties mutually agree on the number 
of full-time representatives or a third party will make the 
final decision. In fact, many issues such as the amount of 
official time a union representative may use, the number of 
full-time union representatives, and access to agency 
facilities have often been decided by third parties.
    Yet at the same time, as the Commissioner reported to the 
House Committee on Appropriations on January 27, 1998, in FY 
1997 there was a 19 percent decrease in the number of hours of 
official time that employees spent on union activities as 
compared with FY 1996. This decrease in reported official time 
hours is attributable to several factors, including reduced 
formal bargaining in some components, a decrease in the number 
of full-time representatives, and a continuing emphasis on 
partnership activities that have been instrumental in reducing 
official time usage by $2.3 million.

                    Importance of Partnership at SSA

    Let me now discuss the importance of the partnership 
between SSA and the unions which represent its employees. One 
of SSA's three fundamental goals set forth in our Agency 
Strategic Plan is to create an environment that ensures a 
highly skilled, motivated workforce dedicated to meeting the 
challenges of SSA's public service mission. We look on our 
partnership with the unions as an important means of advancing 
that goal. By working with the unions, we involve our employees 
in discussions about things that need to be done and how we 
will do them.
    The national performance review (NPR) recommended the 
formation of ``labor-management partnerships for success'' 
across government. In October 1993, President Clinton issued 
Executive Order 12871, which created the national partnership 
Council, a team of senior union, management, and neutral 
leaders in support of the NPR's goal of encouraging labor-
management cooperation and partnership throughout the federal 
government. SSA and the American Federation of Government 
Employees (AFGE), which represents about 50,000 SSA employees, 
signed an agreement on June 21, 1994, for the purpose of 
implementing and maintaining such a cooperative working 
relationship between labor and management in order to identify 
and solve problems, and to improve the day-to-day operations of 
SSA, especially those affecting service to the public. In this 
respect, it is in SSA's best interest to support the union's 
continued participation by funding certain activities, since 
the ultimate success of our efforts to improve our operations 
rests with the employees who put them into practice every 
business day.
    In the past, official time has traditionally been used in 
litigious, adversarial, costly third party matters such as 
arbitrations, and unfair labor practice complaints. Under our 
partnership agreement, our relationship with the union has 
shifted away from litigation to more joint activities, such as 
involving union representatives in the decision making process 
to help craft solutions to better serve our customers and 
creating labor-management partnership councils and committees 
at the national and local levels of SSA, including health and 
safety and security committees. This shift has made SSA a 
better agency and a better provider of services to the American 
public.
    To address SSA issues at the national level, SSA formed its 
own National Partnership Council which meets on the first 
Tuesday of each month. Also, Partnership Councils have been 
formed by many components at the Deputy Commissioner level in 
SSA's Central Office and in many of SSA's Regional Offices.
    The Partnership Councils charter workgroups and committees 
to handle special projects or long term initiatives. Since the 
implementation of the partnership agreement, SSA management and 
the union have participated in over 1,537 partnership projects 
at the national, regional, and local levels. These partnership 
projects have been used for a variety of purposes, primarily 
involving customer service initiatives and operational 
efficiencies, labor-management relations, and quality of work 
life.
    Earlier this year SSA was the first Federal agency to 
conduct and complete a thorough evaluation of partnership at 
the national level. This evaluation detailed numerous benefits 
of partnership within SSA. For example:
    In the area of customer service, partnership has 
facilitated numerous improvements in customer service, several 
of which directly impact upon the 800-number services. 
Partnership also helped to facilitate SSA's customer service 
improvement initiatives such as ``one-stop shopping.''
    In the area of productivity and efficiency, partnership 
facilitated the disability redesign process, work sharing from 
one component to another, and efforts to reduce the backlogs in 
the office of Hearings and Appeals. Partnership also was 
involved in developing and implementing recommendations that 
improved SSA's use of management information.
    In the area of employee empowerment, partnership replaced 
traditional management-controlled processes with processes 
involving the direct participation of employees, involving them 
as key stakeholders in workplace issues which affect them 
profoundly.
    In the area of work life, partnership has been found to 
enhance the work environment by helping to create developmental 
and growth opportunities for employees which had not previously 
existed. The Benefit Authorizer Intern program in the Kansas 
City Region is an example of job growth, opportunities, and 
hope for career advancement.
    In the fiscal area, partnership activities have helped SSA 
save money and avoid expenditures as compared to traditional 
labor-management processes. Significant savings have resulted 
from reduced litigation costs, reduced relocation and 
renovation costs, re-missioning of employees and the upgrade of 
computer systems including the installation of Intelligent Work 
Station/Local Area Network equipment.
    In the area of labor relations, partnership has replaced 
the traditional adversarial role with an emphasis on 
cooperation. Disputes have been settled effectively and at a 
lower cost through the utilization of Interest-Based 
Bargaining.

                       OIG Reports on Partnership

    Now, let me discuss the three reports recently issued by 
SSA's Office of the Inspector general (OIG) relating to labor-
management issues at SSA. SSA respects the OIG's views 
expressed in the reports but, quite frankly, I believe that 
many of the conclusions drawn by the OIG in these reports 
reflect a fundamental misunderstanding of the nature of 
partnership and the relationship of activities arising out of 
partnership to the business of SSA.
    The OIG's conclusions and recommendations reflect a rigid 
concept of partnership activities, such as meetings and 
training. One of SSA's goals is to deliver customer responsive, 
world-class service, and our relationship with the unions is an 
important means of advancing that goal. Issues that would have 
been previously dealt with in confrontational settings, such as 
grievances and unfair labor practices, can now be addressed by 
workgroups or during the normal course of business in an 
atmosphere of cooperation engendered by partnership. The report 
concluded that projects under interest-based bargaining should 
not have been included in the partnership activities inventory. 
However, the Executive Order itself specifies that agencies 
should train participants in interest-based bargaining as part 
of their implementation of Partnership.
    In its report on official time, the OIG attempted to 
determine whether official time usage at SSA was in compliance 
with laws, regulations, and collective bargaining agreements, 
and whether SSA produces reliable information to determine the 
costs of official time. However, the report took into account 
only SSA's past manual official time collection system without 
recognizing the new automated OUTTS system which will eliminate 
the errors that OIG identified in the manual system. SSA has 
implemented actions to deal with some of the issues raised in 
the OIG report prior to its investigation such as conducting a 
pilot on the OUTTS tracking system. SSA has been proactive in 
ensuring that it captures official time, as well as partnership 
time, in an accurate and timely fashion. In addition, the 
report did not acknowledge the impact of decisions made by 
arbitrators and the FLRA. This case law defines the parameters 
under which SSA must operate.
    The OIG's report on Council 220 Union Representative and 
manager observation on the Use of Management of Official Time 
at SSA is a collection of observations and is not an audit 
report. The survey represents an unscientific sample of 
opinions and perceptions, and interpretations of survey data, 
with no supporting evidence to verify any information given in 
the responses. Thus, the survey can only be of limited value in 
actually assessing the effectiveness of official time 
management at SSA.
    Nevertheless, the perceptions and opinions on union time 
are of value. Responses from small offices indicate that the 
managers and union representative work closely to foster 
trusting relationships. Survey responses show overwhelmingly 
that managers knew that there was an office where they could 
consult on official time issues, and nearly all of the managers 
described the assistance they had received as accurate, timely, 
and helpful. Information presented in the report show that 
there is communication and a common understanding of official 
time in Council 220 offices, providing the basis for a 
foundation for continuing, effective labor-management 
relationships.

                               Conclusion

    In conclusion, Mr. Chairman, let me state that SSA is 
committed to a new spirit of cooperation between management and 
its union partners to bring about real gains for SSA and for 
the millions of Americans that SSA serves every day. I can 
assure you that SSA's policies and practices regarding the use 
of official time fully comply with applicable labor laws.
    SSA has been proactive in forging effective relationships 
with its union partners and was the first federal agency to 
conduct an evaluation of partnership at the national level. 
Partnership activities at SSA have greatly contributed to many 
of the successes we have achieved in enhancing customer 
service, such as improvements in our national, toll-free 800 
number service. I believe that many of the conclusions drawn by 
the OIG reflect a fundamental misunderstanding of the nature of 
partnership and the relationship of activities arising out of 
partnership to the business of SSA. Although our partnership is 
still maturing, and we expect further progress in the future, 
partnership efforts between labor and management have been 
nothing less than a success story at SSA.
    SSA is committed to design, implement, and maintain within 
SSA a constructive working relationship between labor and 
management. Our emphasis is on developing an organizational 
culture in which labor-management relations are based on trust, 
mutual respect, common goals, and shared accountability. While 
we realize this will take time, we must take the long-term view 
and make these investments now that are vital to ensure future 
success. The American people deserve no less.
      

                                <F-dash>


    Chairman Bunning. Thank you, Mr. Barnes. First of all, are 
you questioning the integrity of the Inspector General?
    Mr. Barnes. No, sir. I would never question the integrity 
of the Inspector General. What I am saying is of the three 
reports that they have issued, only one of those reports is an 
actual audit. That's an actual audit----
    Chairman Bunning. We asked him to do that. That's exactly 
what we asked him to do.
    Mr. Barnes. Right, but what I'm saying is the report on 
partnership is really a report of their feelings of partnership 
activities, not an actual audit.
    Chairman Bunning. That's exactly what we asked him for.
    Mr. Barnes. That's the point that I'm trying to make.
    Chairman Bunning. Let me ask you, do you support Christmas 
shopping by SSA employees to be paid for by taxpayers?
    Mr. Barnes. No, I do not.
    Chairman Bunning. Why is it happening in Boston right now?
    Mr. Barnes. In Boston, several years ago, a practice 
evolved where employees were given limited amounts of time for 
Christmas shopping. It went on for several years. When the 
current Regional Commissioner became aware of that practice, he 
stopped it immediately. The issue was litigated with an 
arbitrator. The arbitrator ruled that since it was a past 
practice we had to give notice; that we could not stop this 
unilaterally. We've given notice; we've negotiated it, and the 
arbitrator has agreed with us that the practice can end 
completely this year. So, we have taken----
    Chairman Bunning. Is it happening anywhere else in the 
United States?
    Mr. Barnes. Not that I'm aware of.
    Chairman Bunning. Are you going to stop it before this 
year's Christmas?
    Mr. Barnes. No, the arbitrator's ruling says that 1998 is 
the last year for the practice to exist. We actually had to 
give notice----
    Chairman Bunning. Do you think I could get in on it?
    Mr. Barnes. Beg your pardon?
    Chairman Bunning. Do you think I could get in on it? In 
other words, that I could get paid for going Christmas 
shopping? In other words, could I go and file a grievance with 
someone and make sure that I could get in on the same kind of 
good deal, sweetheart deal? I mean, come on, that is the most 
outrageous, ridiculous thing I've ever heard of negotiated.
    Mr. Barnes. It was never negotiated. It was never part of--
--
    Chairman Bunning. It was part of an arbitration; that's 
negotiation as far I'm concerned.
    Mr. Barnes. No, sir, that's not what I'm saying. I'm saying 
that it was never negotiated. It was a practice that they had a 
number of years ago that continued for several years. It was 
stopped. Part of stopping the process----
    Chairman Bunning. In other words, after this year, they'll 
never do it again.
    Mr. Barnes. Yes, sir, that's correct. This is the last 
year. We did not allow people to do it in 1997 at all, but as a 
result of the litigation with the arbitrator, the arbitrator's 
decision was that we had to give appropriate notice since it 
was a past practice and that it could not continue after this 
year.
    Chairman Bunning. Do you support union officials 
threatening the managers of your Social Security offices?
    Mr. Barnes. Absolutely not.
    Chairman Bunning. If you had that individual poking a 
finger at your chest--if you had an employee or a union 
official poking his finger at your chest saying, ``Don't you 
ever know who you're dealing with. Boys like you can end up 
missing, and even your family will never find you.'' Don't you 
think this is a matter more than robust discussion or would you 
call it a threat? Do you think a matter like this should be 
investigated and not told the manager not to go and file an 
investigative grievance or any kind of report? Can you conceive 
of any situation where an individual found guilty of such a 
threat would not be fired?
    Mr. Barnes. Well, first of all, the incident, as I 
understand it--you're referring to the one mentioned in 
yesterday's hearing--the individual involved in the incident 
was not an SSA employee. The individual was a senior member of 
the union.
    Chairman Bunning. He was a union official.
    Mr. Barnes. He was a union official but not an SSA 
employee. When the Regional Commissioner in the Dallas region 
became aware of this, he took action to resolve it and worked 
with the union to make sure that that person never, never 
entered another Social Security facility and he has not. So, 
the Regional Commissioner took that----
    Chairman Bunning. Can you put that in writing to me?
    Mr. Barnes. Yes, sir. I'd be glad to.
    [The following was subsequently received:]

    Regarding the incident discussed, the union official 
involved is not an SSA employee, but is a national 
representative emeritus with the American Federation of 
Government Employees (AFGE). There was clearly 
miscommunication, or a misunderstanding, between the management 
and union officials who were involved in the use of the 
training room which spurred the incident. The lunchroom is in 
the same location as the training room, and the two areas are 
separated by a divider. When the management official requested 
that the union representatives move to the training space, the 
union official responded in a loud, and, what the manager 
perceived to be, threatening manner.
    On the day in question, various management officials 
advised and assisted the manager on how he should handle the 
situation. The Assistant Regional Commissioner for Operations 
and Support (ARCMOS), acting for the Regional Commissioner who 
was out of town, personally got involved. Subsequently, both he 
and the Regional Commissioner met with the local president, who 
is an SSA employee, and who had been in the office on that day. 
At different meetings, they both discussed moving forward in a 
positive manner so that relations could be improved despite the 
incident. As a show of attempting to establish such a 
relationship, she stated that the national representative would 
not go back to the office, and to this day has never been 
invited to an SSA office. Throughout this process, discussions 
were also held with the district manager, who has since filed a 
management-initiated grievance with the Regional Vice 
President, which is permitted under the SSA/AFGE contract.

    Chairman Bunning. And make sure that we're following up in 
making sure it doesn't repeat.
    Is it right for the manager who wanted to file a grievance 
against the union official who threatened him to be told by the 
regional office to drop it?
    Mr. Barnes. I'm sorry, I didn't hear the first part of your 
question.
    Chairman Bunning. Is it the right for a manager who wanted 
to file a grievance against the union official who threatened 
him to be told by his regional office to drop it? Will you 
investigate or did you follow up on the investigation? In other 
words, you can't fire the union official, but you can sure 
follow up and make sure anything like this never happens again.
    Mr. Barnes. That is the action that was taken by the 
Regional Commissioner to make sure that this did not happen 
again. The Regional Commissioner involved in this incident has 
since retired. This is an incident that happened several years 
ago.
    Chairman Bunning. Is this a widespread practice in the 
Social Security Administration and in the regional offices or 
in the district offices? Do you hear of other incidences like 
this?
    Mr. Barnes. No, sir. They're very, very rare.
    Chairman Bunning. How many of your managers are out there 
abandoning their frontline personnel and asking them to ignore 
misconduct?
    Mr. Barnes. Sorry, would you repeat the question?
    Chairman Bunning. I said, I'm trying to get them in, 
because my light's red--how many of our your managers are out 
in their district offices abandoning their frontline personnel 
and asking them to ignore misconduct?
    Mr. Barnes. I don't imagine that we would have any managers 
that would tell employees to overlook misconduct.
    Chairman Bunning. Mrs. Kennelly.
    Mrs. Kennelly. Thank you. Mr. Barnes, let me give you 
another opportunity. Yesterday, we heard allegations that the 
SSA employees could be full-time union employees or 
representatives abusing official time. First of all, could you 
tell me if there's a pattern of abuse of official time that is 
identified with SSA?
    Mr. Barnes. First of all, let me make it clear that SSA has 
a zero tolerance for any form of fraud; that's part of our 
strategic plan. It's also been part of our culture for the 30 
years that I have worked for this agency. The examples that 
were brought up yesterday from the union officials where he 
alleged that there was an individual on official time working 
for the Baltimore Orioles and another person selling real 
estate while on official time. When I read that testimony 
yesterday, I immediately referred cases to the Inspector 
General for investigation, so I have asked the Inspector 
General to look into those few allegations even though the 
person did not present any proof at the hearing; that is, he 
made an allegation that was unsubstantiated, but it was very 
serious and one that could be very easily reviewed by the 
Inspector General's Office of Investigations. I asked Mr. Huse, 
who is the Acting Inspector General, in writing last night to 
contact the individual who made the allegations to get whatever 
information he had and investigate it. All of those allegations 
we take seriously. If the person had made the allegation to us 
previously, we would have investigated them at that time. There 
is an abuse process in our contract. Most of our managers 
understand and follow that process.
    There was an article in the paper Wednesday that quoted, 
incorrectly, figures from the IG report on the Council 220 
survey. It said something to the effect that 20 percent of 
managers who responded to the survey said that they take no 
action when they see abuse. That figure is not correct. If you 
look at page 9 of the 220 report, the number is actually 5 
percent and not 20 percent, which means that 95 percent of our 
managers who responded do the right thing. Now, 5 percent is 
not acceptable, and there are some things we need to do to 
follow up on that, and I will, but I just want to make the 
record straight, clear that that information was not correct.
    Mrs. Kennelly. Then you're saying there's not a pattern of 
abuse.
    Mr. Barnes. No, ma'am, I do not believe that there is. We 
have a process in place to deal with it. Most of our managers 
avail themselves of that process. Again, even if you look at 
the survey and read what the IG reported in this area, most of 
our managers do, in fact, understand the process.
    Now, another point I want to make in terms of that report, 
on page 12 of the same report, it says quite clearly that most 
of the managers who responded--well over 90 percent--said that 
there was an office that they could go to whenever they needed 
help in issues involving official time; 95 percent of them, or 
in that range, said that they found the office helpful; over 90 
percent said they found their responses accurate. So, we need 
to understand that this is a matter that we take seriously and 
actually reflected in the IG report.
    Mrs. Kennelly. You say that the equipped system will enable 
the SSA to monitor the time spent on union activities to ensure 
that total time taken by union representatives does not exceed 
the specified number of hours. How long do you expect it will 
take before the system will be fully operational, first, and 
how well do you think the system will contribute to the 
prevention of abuse and improvement on controls?
    Mr. Barnes. The system was implemented--the OUTTS system, 
which is our automated tracking system for union official 
time--was implemented in February of 1998 in all regions. Prior 
to February, it was in pilots in a small number of the regions, 
but since February, the system has been in place, and we 
believe that it will eliminate entirely the kinds of errors 
that the IG found in the manual reporting system.
    The reporting system that we have used in SSA, again, is 
manual and is subject to errors in arithmetic because of human 
nature. They refer--if you look in the audit report--to several 
examples that they found when they reviewed some of the manual 
reports in the regions where we had dual reporting; that is 
where we had counted the same time twice. Going to the 
automated system eliminates those kinds of clerical errors and 
gives us a much more accurate report.
    Mrs. Kennelly. Thank you, Mr. Barnes.
    Chairman Bunning. The Subcommittee will recess. We have a 
vote on the floor. It's on the rule on health care, and we will 
be back, if you will bear with us.
    [Recess.]
    Chairman Bunning. The Subcommittee will come to order.
    Mr. Christensen will inquire.
    Mr. Christensen. Thank you, Mr. Chairman. Mr. Barnes, I 
want to go back to a question that the Chairman asked earlier 
about this Christmas shopping. I want to know personally from 
your point of view--you've been there for 30 years, is that 
right?
    Mr. Barnes. Yes.
    Mr. Christensen. How many years have you been in the HR 
Department?
    Mr. Barnes. I've been the Director of Human Resources since 
March of last year. All of the other 28 years I spent in 
Operations which is the part of Social Security that deals with 
field offices and the folks who actually provide direct 
service. So, 28 years before I came to the current job were all 
spent in that department.
    Mr. Christensen. In your personal testimony, Paul Barnes 
the individual, do you think it's right that the employees of 
SSA should have an opportunity to go Christmas shopping at the 
expense of American taxpayers?
    Mr. Barnes. No, sir, I do not. When we became aware of it, 
or when the current Regional Commissioner became aware of the 
practice, he started the legal process to stop that activity 
and has been successful in doing so. There is----
    Mr. Christensen. Mr. Barnes, I would not call success 
allowing Christmas shopping at the expense of the American 
taxpayer to go on one day more than when you discovered it. 
That is outrageous. I mean, if the American taxpayer had any 
idea what's going on in your administration, behind closed 
doors, out in the shopping malls each and every year, 1998 
included, they would be outraged. They would be outraged, and, 
yet, it's going to happen this year again according to your 
testimony. Is that right?
    Mr. Barnes. Yes, sir. As I indicated, we are bound by the 
law. We have followed the procedures to stop the practice. It 
was litigated, and the decision----
    Mr. Christensen. Listen, Mr. Barnes, I appreciate your 
straightforwardness is this answer, but you're not addressing 
the issue. When the Chairman talked about negotiation, you 
said, ``Well, it wasn't negotiated.'' Well, it was negotiated 
if the arbitrator continued to rely upon it as a past practice. 
It was part of the things that were on the table as far as 
negotiation. If you guys truly thought this was outrageous 
practice by union officials, that using American taxpayer 
dollars to go Christmas shopping year after year after year, 
1998 included, you would have said this is not something that's 
negotiable. This is an outrageous practice, and we're not going 
to let the American taxpayer be abused in this area. Now, let 
all the other areas be abused but not this area.
    Mr. Barnes. As I indicated, when we became aware of the 
practice, we stopped----
    Mr. Christensen. It's not stopped.
    Mr. Barnes. The issue was litigated. We are bound legally 
by the decision of the arbitrator in terms of how the practice 
is to be terminated which is what we did. We were successful, 
and the practice will stop.
    Mr. Christensen. OK, is working part time at Camden Yards 
while on official time necessary, reasonable, and in the public 
interest?
    Mr. Barnes. Absolutely not. As I indicated earlier, when I 
heard the allegation yesterday, even though there was no 
substantiation of the allegation, I immediately wrote the 
Inspector General and asked that they contact the union 
official so that it could be investigated.
    Mr. Christensen. Is the pursuit of personal business--
hobbies, fishing, golf, record collecting--necessary, 
reasonable, and in the public interest?
    Mr. Barnes. Absolutely not.
    Mr. Christensen. Is rallying stewards to support political 
candidates necessary?
    Mr. Barnes. No.
    Mr. Christensen. How come it happens?
    Mr. Barnes. What we had yesterday were allegations that 
I've asked the Inspector General to look into. I don't know how 
many of those allegations are true; how many of them are rumor; 
how many of them are innuendo. Our obligation is to investigate 
the allegation. The Office of Investigations in the IG is the 
appropriate place to investigate these kinds of allegations. 
Some less serious allegations we can investigate ourselves, but 
the magnitude of those allegations were such that I thought we 
needed professional investigators to look into it, which was 
why it was referred to the IG.
    Mr. Christensen. Well, according to the IG, 25 percent of 
the managers suspect that there if official abuse going on. 
Twenty-five percent of the managers also during sworn testimony 
are regarding this as official abuse. Now, if you've been there 
for 30 years, you've been in this position 2 years, it would be 
nice to see some action rather than just more inquiries and 
more delay type tactics. As you can tell, I'm not a big fan of 
some of the union activities that we've heard about already, 
and I'd like to see this stopped rather than go through another 
Christmas shopping season and allowing the American taxpayer to 
be abused once again. So, I would hope in your responsibilities 
as the HR head that you would bring this to a halt prior to the 
Christmas season.
    Mr. Barnes. In order to respond to the first part of the 
question that you asked when you talked about the IG survey 
where 25 percent of the managers said they suspected abuse, 
that report actually shows that most of the managers who 
suspected abuse took the right action to follow up on it, and 
many of those were resolved. That's what we are about. When 
issues come up, our commitment is to resolve them. Some of the 
suspicions turned out not to be abuse.
    Mr. Christensen. Well, I'm out of time, but I hope we have 
another opportunity to come back and reexamine this area. Thank 
you, Mr. Chairman.
    Chairman Bunning. The gentleman from Arizona.
    Mr. Hayworth. I thank the Chairman. Let's pursue that for a 
second. Mr. Barnes, what level of abuse is tolerable in your 
mind?
    Mr. Barnes. No level of abuse is tolerable. I indicated 
earlier, the agency has a zero tolerance for abuse and fraud of 
any kind.
    Mr. Hayworth. All right. I want the record to show, and I'm 
glad we have people here recording this, because now we have 
sworn testimony that there is zero tolerance for abuse. 
Therefore, in that spirit, Mr. Chairman, since there seems to 
be a difference of definition on what an arbitrator decides is 
tolerable--to allow Christmas shopping on the taxpayers' dime 
to continue through 1998--Mr. Chairman, I would hope that the 
Members of this Subcommittee and our Full Committee and, 
indeed, the Congress, would take specific action to ensure that 
we don't confuse Uncle Sam and Santa Claus in the Boston region 
this year and specifically move to abridge Christmas shopping 
on the taxpayers' dime. That is no abridgement of people's 
individual rights, because, as I'm sure our witness will 
concur, freedom to shop and take care of other errands should 
take place on private time and not on the Government bill.
    Mr. Barnes, you said you respect the report from the Office 
of the Inspector General, but you believe there are some 
misunderstandings, and you relayed those in your testimony. I 
appreciate the fact you respect that report. Can you offer some 
rationale, then, why so many managers were instructed by their 
union that they didn't even have to respond to the survey 
information requested? Do you think that's evidence of good 
faith and enlightenment on the part of the union to tell 
managers not to respond to the OIG inquiries?
    Mr. Barnes. The head of the IG at the time that the reviews 
were done was David Williams. He asked then Acting Commissioner 
Callahan for his assistance in resolving some issues of 
noncooperation. Acting Commissioner Callahan asked me along 
with our General Counsel, Arthur Fried, to work with the union 
and with the IG to resolve those issues. We did that. We met 
with the union; we had conference calls. Based on those 
discussions, the AFGE National Office issued a memorandum to 
all union officials asking for their cooperation. The Inspector 
General then wrote back to Dr. Callahan saying that the 
assistance he needed had been provided and that he could move 
forward with the audit. Now, I'll be glad to provide a copy of 
that----
    Mr. Hayworth. I'd love to see that written record, and I 
would, in fact, formally make a request.
    [The following was subsequently received:]
    [GRAPHIC] [TIFF OMITTED]61080A.232
    
    Mr. Barnes. I'll be glad to do that, but I----
    Mr. Hayworth. We'd love to see it, because it betrays--in 
fact, your accounting of this, Mr. Barnes, betrays a notion 
that is foreign to me in terms of requirements of Government 
employees on the public dime. To enter into discussions as if 
this were somehow negotiable when we're asking for proof of 
performance to get to the bottom of a problem, it seems to me, 
smacks of a tolerance level that betrays the fundamental notion 
of, first of all, of a management-labor relationship where 
certain reasonable requests for information are being abridged, 
but, secondly, it betrays to me the notion that there is no 
zero tolerance level of hijinks. People are allowed to rule the 
roost as they see fit, and then we enter into negotiations 
where, perhaps, an inquiry will result, and then maybe a memo 
comes out that says we've had those discussions and so now 
we've solved the problem. We've not solved the problem.
    The problem, as I see it, Mr. Barnes, in the words of 
baseball immortal Yogi Berra is deja vu all over again. We saw 
it with the IRS hearings where people would come from the 
Government, ``Oh, there's no problem. Oh, there are isolated 
incidents'' to the point where in the other body, finally 
employees stepped forward having their identities shielded and 
then finally, finally, people stepped forward to say, ``You 
know, there really is a problem.'' And it went beyond memos, 
and it went beyond bureaucratese into genuine abuses. I'm 
seeing the same type of abuses. This Congress must move forward 
to solve them. I thank you for your time.
    Chairman Bunning. The gentleman from Missouri, Mr. Hulshof.
    Mr. Hulshof. Thank you, Mr. Chairman. Mr. Barnes, on page 2 
of your written testimony, you say that ``SSA, like other 
Federal agencies and many firms in the private sector, such as 
Ford, Chrysler, Inland Steel, Armco Steel, pays for approved 
time spent by its employees on official time.'' And I guess the 
difference here that probably doesn't need to be stated but 
which I'm going to state is that union officials or union 
employees at Ford, Chrysler, Inland Steel, and Armco Steel are 
not paid by taxpayer dollars, and I think that's the reason 
that we are here. I think from the thrust of your written 
testimony and your statements, certainly, you don't believe 
that this is any sort of partisan witch hunt, what this 
Subcommittee's trying to get down to the bottom line, do you, 
Mr. Barnes?
    Mr. Barnes. No, I do not. The examples that we provided 
were to illustrate that the concept of official time is not 
unique to the Federal Government. That was the purpose of the 
example.
    Mr. Hulshof. A couple of things regarding your testimony 
and you talked about there is a process in place, and I think 
we've learned there is a process, and, yet, what we're trying 
to determine is if the process is flawed, are there ways that 
we can improve that process? For instance, you made reference 
to the number of official hours having gone down from one year 
to the next, and, yet, while we may be able to track overall 
hours, the specific activities during those hours--and you've 
heard my colleagues talk about some of the most blatant abuses 
of official time--what suggestions do you have to improve the 
process as far as not just keeping track of official time, but 
what activities are conducted during that official time to make 
sure that tax dollars are being spent in an appropriate manner?
    Mr. Barnes. The process that we have in place now, when 
followed, works well. We have shown that you can review 
allegations, review and investigate them, and where the 
allegations are found to be correct, to be true, we correct 
them. The allegations that were made yesterday are serious, and 
we are investigating them. Had they been made earlier, we would 
have investigated them earlier. So, the process is there in 
order for us to address issues of abuse. What we need to do is 
make sure that everybody is in compliance with the process. I 
believe, and the IG report reflects, that most of our managers 
are in compliance. There are 5 percent of the managers who 
don't follow the process, and they are the people that we need 
to follow up on.
    We now have scheduled biweekly conference calls on the 
appropriate procedures. In December of last year, in response 
to questions from managers, we issued eight pages of questions 
and answers on instructions for how to deal with official time 
issues. So, we've taken a number of steps to make sure that 
people have the information that they need so they can avail 
themselves of the process.
    Mr. Hulshof. Except, Mr. Barnes--and I'm not taking issue 
with you--but, for instance, when you talk about in your 
testimony the new automated official union time tracking 
system, OUTTS----
    Mr. Barnes. Yes.
    Mr. Hulshof [continuing]. OK you indicate or you believe 
will enable SSA to monitor official time and ensure total time 
spent on certain activities is not excessive, and yesterday the 
Inspector General and certainly the four witnesses, the 
gentlemen we had here testifying yesterday, said that the data 
that comes out will only be as good as the data that goes in, 
and union officials are refusing to supply the needed data. How 
can we make sure that this system that you champion is going to 
work?
    Mr. Barnes. Union officials have not refused to provide the 
data that go in. The issue of the IG questionnaire was one that 
dealt with the issue of cooperation. We have worked with the 
union; we've worked with the Management Association;we've 
worked with agency executives who have systems that accurately capture 
the time that's used. The IG audit report had some suggestions that we 
are implementing as part of that process. One of the things they 
suggested that we do is negative verification; that is, those offices 
from which we don't get a report, we should not assume didn't have any 
activity, but should follow up with them, which we're doing, in an 
automated way as part of this process to take every step humanly 
possible to make sure that the information is correct. That's what the 
OUTTS system will do.
    Mr. Hulshof. And we'll get to visit with the AFGE in a 
minute. Let me ask you, is it true that SSA recently negotiated 
away the agency's right to check references on employees 
seeking promotion, and, instead, managers are forced to select 
candidates blindly from an alphabetized list?
    Mr. Barnes. I'm not familiar with that. I need to check and 
see. I've not heard that that has occurred, but I would like to 
check and provide a statement for the record.
    Mr. Hulshof. I would appreciate that. Thank you, Mr. 
Barnes. Thank you, Mr. Chairman.
    [The following was subsequently received:]

    SSA has not waived its right to do reference checks on new 
hires. In Article 26, section 11(a) of the SSA/AFGE Merit 
Promotion Plan, however, there is a provision which provides 
that once a well-qualified list is established by an assessment 
panel for internal promotions, no additional information can be 
gathered by a selecting offical.
    It is important to note, however, that for the largest 
organizational component within SSA, the Office of Operations, 
the SAA/AFGE Merit Promotion Plan does not apply. Operations is 
still operating under a prior plan, the National Promotion 
Plan, which permits reference checks after a well-qualified 
list has been established.

    Chairman Bunning. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. Mr. Barnes, I've been 
in a small business for some time, about 35 years. In fact, 
I've been in the trucking business for equivalent length of 
time. And in our business--you know, everyone always has a 
little bit of a slogan for their own operation--we have a 
little saying that when we have a driver of one of our rigs who 
becomes lax, nonattentive, ignores a lot of things that he 
should be paying close attention to, we say at that point 
there's a lot of slack between the seat and the steering wheel. 
Based on the reports that we've seen and heard and read in the 
last few days, I believe there's a lot of slack between the 
seat and the steering wheel at the Social Security 
Administration. The IG report confirms that; the statements 
that we've read and heard have confirmed that; you, in a sense, 
have confirmed that. That's got to change. I know that you've 
said there have been some changes taking place and are taking 
place today. The IG says there are some changes taking place, 
positive changes. That must happen. We must have a change.
    You know, the funds that you deal with, they're not 
government funds. Those funds come out of the first dollar 
earned of every working American. Part of that first dollar, 
every dollar, goes to the Social Security Administration for 
you to look after, so that they will have it in their 
retirement years to help fill a void.
    When you're slack, negligent, not complying with the rules 
and regulations and the contracts that you have with your 
employees, that's wrong, and it must stop. I hope these 
hearings, I hope these reports will result in a lot of change. 
There will be change, if change doesn't occur.
    Thank you, Mr. Chairman.
    Mr. Barnes. I'd like to respond to that.
    Chairman Bunning. Go ahead and respond.
    Mr. Barnes. I have worked for the Social Security 
Administration for 30 years. I was born in the State of 
Tennessee. I've worked in Georgia. I've picked cotton; I've 
pulled corn; I've stripped sorghum. I understand what it means 
to work hard. I started as a claims representative. My mother 
receives Social Security.
    If you look at our record, if you look at what we are doing 
now, our performance levels are the best they have ever been. 
The customer satisfaction surveys that are done by independent 
groups show that customer satisfaction with our service is at 
its highest level ever. The 800 number that we have was voted 
as the best in either public or private sector. Our work on the 
Y2K has been recognized as the best in government.
    A lot of these things grew out of partnerships. I have been 
personally involved in a lot of the partnership activities that 
have led to improvements in customer service. Customer service 
for me is the most important thing that we do in Social 
Security to make sure that everybody, not just my mother, but 
everybody who is entitled to a check gets the right amount and 
on time.
    We take very seriously that responsibility. We are not 
slack. We're not perfect. There are things that we are working 
to improve that we talk about in this report, but the service 
level of our organization right now is the best it's been in 
the 30 years I've been with the agency.
    Mr. Collins. That is an indication of positive change, and 
it also is an indication that you're very defensive.
    Mr. Barnes. No, sir, I'm just reporting----
    Mr. Collins. We want the results, and the results are that 
the fleecing of the American taxpayer must stop. Fourteen 
million dollars in one year for union activities in the Social 
Security Administration is too much. That's down to about 13--
still too much. That's fleecing the American taxpayer, and it 
must stop.
    Chairman Bunning. Mr. Weller.
    Mr. Weller. Thank you, Mr. Chairman, and I want to also 
commend you for holding these hearings. As the guardians of the 
taxpayer dollar, which, of course, is the responsibility of the 
Congress, I want to commend you for bringing this issue 
forward.
    Mr. Barnes, you know, I'm a supporter of collective 
bargaining, as I've pointed out every day of these hearings, 
and I'm anxious to see collective bargaining work. As a 
legislator, I'm also anxious to work to protect the taxpayer 
dollar.
    I find in one's constituents' contact, our congressional 
offices, that most of the requests for help from constituents 
tend to revolve around Social Security. In many cases seniors 
need a little help cutting redtape. We appreciate the response 
of employees that you have, and sometimes we're frustrated when 
it takes too long because we know how frustrated senior 
citizens are when they haven't gotten their check yet or their 
benefits they feel they're due. We're anxious to work to see 
that.
    I become, frankly, a little concerned when those who are 
charged with safeguarding the Social Security dollar, 
safeguarding the Social Security Trust Fund, clearly, in case 
after case appear to be abusing the tax dollar. You use the 
term ``official time,'' and I believe it should be called 
``taxpayer time,'' because it's time at the taxpayer's expense.
    We've uncovered in the last few days cases where just 
examples which are easy to remember about employees of the 
Social Security Administration going shopping for Christmas 
gifts on taxpayer time while others are working. A case over in 
Baltimore where an employee, on taxpayer time, is two-timing 
the taxpayers by working over at Camden Yards, some speculate 
as a hot dog vendor.
    I'm trying to get a feel for how you, as Associate 
Administrator, go about investigating allegations. Yesterday 
John Reusing, under oath, who's a long-time official of the 
union and Social Security Office of Administration in 
Baltimore, pointed out under oath that there's virtually no 
supervision of officers and stewards by management or union 
officials. He stated that this has led to rampant abuse of 
official time, which, of course, folks back home call 
``taxpayer time.''
    When there's allegations regarding employees going 
Christmas shopping on taxpayer time or allegations where 
there's the appearance of abuse where somebody is two-timing 
the taxpayers by selling hotdogs at the ball game while he or 
she should be in the office helping taxpayers with Social 
Security benefits--how do you go about investigating this? 
Because, clearly, from the statements of those under oath 
yesterday, no one referred the hot dog vendor to the Inspector 
General, even though Mr. Reusing said it was common knowledge 
yesterday that this abuse was going on. Tell me what the 
process is when you hear this where an employee is abusing 
taxpayer time, that you begin an investigation into this type 
of allegation.
    Mr. Barnes. As I indicated earlier, when the issue of 
whether or not an employee is on official time while working 
for the Baltimore Orioles came to our attention, we did what we 
should do, which is to have the Inspector General investigate 
the allegation. It is an allegation, but we will investigate 
it, and we've already made----
    Mr. Weller. When did you make this request to investigate 
the hot dog vendor?
    Mr. Barnes. About 6:30 last night, I sent----
    Mr. Weller. So after this hearing brought forward, even 
though it was common knowledge in the office----
    Mr. Barnes. Well, it was not common knowledge to myself or 
to managers. If we had heard that earlier, we would have 
investigated earlier. What you have is a report, 
unsubstantiated, from one person that we are investigating.
    We investigate allegations of abuse. I have not found in 
those investigations any pattern of abuse. As I recall in the 
IG testimony, he made the same statement in terms of not 
finding any pattern of abuse.
    What people allege or what they may perceive in terms of 
what is actual reality are often two different things.
    Mr. Weller. Mr. Barnes, you said----
    Mr. Barnes. Our obligation is to investigate, which we do.
    Mr. Weller. And, Mr. Barnes, why, the question is, in the 
case of the hot dog vendor, why did you wait until this hearing 
uncovered this allegation, when there were allegations in the 
Inspector General's report, which we've all had in our hands 
for some time now?
    Mr. Barnes. There's nothing in the Inspector General's 
report that talks about an allegation of someone working for 
the Baltimore Orioles selling----
    Mr. Weller. Well, if the management and workers, including 
union officials, say it's common knowledge, why would the 
management not look into it?
    Mr. Barnes. One person who--you have one person who said it 
was common knowledge. It was not common knowledge, in my view. 
We were not aware of it. When we became aware of the 
allegation, we asked that an investigation be conducted.
    Mr. Weller. Do you have examples of where allegations were 
made where you investigated it and found the allegations were 
correct that you can share with us?
    Mr. Barnes. Beg your pardon?
    Mr. Weller. Do you have an example, a recent example, where 
there was an allegation made where you made an investigation 
and found out the allegation was correct? Have you 
investigated----
    Mr. Barnes. Yes, there was an example--and I can provide it 
in writing for the panel--of an abuse situation involving an 
official in the New York region. The Inspector General----
    Chairman Bunning. Without objection, you can send us that.
    Mr. Barnes. Beg your pardon?
    Chairman Bunning. Without objection, you can send us that 
report, if you will.
    Mr. Barnes. OK, we'd be glad to.
    [The following was subsequently received:]

    An example of an abuse situation in which the OIG conducted 
an investigation and action was taken against a union 
representative is as follows. OIG looked into irregularities in 
the travel practices of an employee who works in a field 
office. When the investigation was concluded, the U.S. Attorney 
declined to initiate criminal prosecution. However, the case 
was returned to the Agency for administrative action. After 
considerable deliberation, the employee was charged with 
knowingly and repeatedly accepting payment of travel and per 
diem to which he was not entitled. He received a 60-day 
suspension.

    Chairman Bunning. Thank you.
    Mr. Weller. Thank you, Mr. Chairman.
    Chairman Bunning. OK. I've got a couple of questions that I 
want to get some answers, and I don't want to delay the 
hearing, but I have got to get answers for these.
    How many people are specifically involved in the 
partnership activity?
    Mr. Barnes. In SSA, we have 42 partnership councils, 42----
    Chairman Bunning. OK.
    Mr. Barnes [continuing]. At various levels and----
    Chairman Bunning. How many people are involved?
    Mr. Barnes. Most of the partnership councils have 10 to 12 
members. I can give you a list and an actual count. I don't 
have that with me today, but I can provide for the record----
    Chairman Bunning. Would you please provide that for the 
committee?
    Mr. Barnes [continuing]. Yes--the members of the 42 
partnership councils.
    [The following was subsequently received:]
    [GRAPHIC] [TIFF OMITTED]61080A.233
    
    Chairman Bunning. Is it right to spend time away from 
serving the American people without accounting for what time 
has been spent away, which is what the union does?
    Mr. Barnes. Well, no, we----
    Chairman Bunning. You don't know what they're doing on 
their union or their time.
    Mr. Barnes. Beg your pardon?
    Chairman Bunning. You don't know what they're doing. They 
don't have to fill out and tell you what they're doing. They 
only have to say: We were on this time.
    Mr. Barnes. No, sir, the reports----
    Chairman Bunning. No, sir?
    Mr. Barnes [continuing]. The form that they complete 
requires more information than that, and most often the forms 
are completed properly. Where a form is not completed properly, 
then we need to have some dialogue we to make sure that it's 
done. But the forms--and we'll be glad to provide examples, as 
the IG did----
    Chairman Bunning. Well, I mean, you could provide examples 
with the ones that have the forms filled out correctly, but we 
know that there are forms that are not filled out, and you 
don't know what the people are doing on official time.
    Mr. Barnes. I'm sure there's some examples where forms are 
filled out incorrectly----
    Chairman Bunning. Why is a union allowed to determine the 
number of hours of union representation? In other words, have 
you negotiated that in your contract with them?
    Mr. Barnes. What we have in the contract is a provision 
that says that the amount of official time that's to be granted 
for a particular activity has to be reasonable and necessary. 
They provide their assessment of what's reasonable and 
necessary, and we have to make a judgment as to whether or not 
that's correct.
    Chairman Bunning. Why is the union allowed to determine the 
location of union representation? In other words, why would 
three be in one office and none be in another office?
    Mr. Barnes. The example in Tulsa that you are referring to 
is unusual. It's the only office where we have----
    Chairman Bunning. That's very unusual; we were told that.
    Mr. Barnes. I understand. I was trying to explain what 
happened. In Tulsa, three union officials who were 100-
percenters are officers at different levels of the union. One 
is a national officer; one is the regional vice president for 
the entire Dallas region, and one is the State president for 
the State of Oklahoma. By happenstance, they wound up in the 
same office. It's unusual. It's rare. But that office is not 
penalized for having those three full-time union officials 
there. The way we allocate resources to our field offices 
throughout the country is to not consider the union officials 
assigned to those offices. Since that's an activity that 
benefits the whole organization, whatever staffing that is 
assigned to union activity is literally taken off the top and 
then the staffing is allocated to the offices.
    Chairman Bunning. Mr. Barnes, your testimony conflicts with 
the manager's testimony from yesterday.
    Mr. Barnes. Well, I'll be glad to provide in writing a----
    Chairman Bunning. In other words, he said that when those 
three are not available to work, he has a difficult time in 
keeping up with regular Social Security business.
    Mr. Barnes. I will be glad to provide for the record, from 
the Regional Commissioner in Dallas, how staffing is allocated 
to the office in Oklahoma.
    [The following was subsequently received:]

    SSA addresses its need for union representatives in 
formulating the budget that it submits to Congress. SSA bases 
its allocation of staff to its 1,300 field offices on workload 
projections. However, at the regional and local areas, it makes 
allowances according to the level of authorized labor relations 
activity involving the local union representatives in each 
office.
    With respect to the Tulsa, Oklahoma office, the Dallas 
Region allocates one full-time equivalent (FTE) for each 100 
percent union official in that region. Those FTEs are 
distributed to the appropriate area. In turn, the area 
director, in determining staffing for each of his/her 
facilities, factors in the allocation for union 
representatives. The first determinant in allocating staff is 
based on workloads. Other special factors are considered as 
well. Such considerations included non-English speaking 
clientele, education levels, literacy, poverty, etc.

    Chairman Bunning. When does the current national agreement 
expire?
    Mr. Barnes. In March of next year.
    Chairman Bunning. And you're not going to roll it over, I 
hope?
    Mr. Barnes. Well, we have not decided what we're going to 
do with the contract.
    Chairman Bunning. We're going to be watching very closely 
to see what is done with that agreement, if you are really 
going to get to some of the problems that we're trying to 
address.
    This is the last question. You have indicated SSA's ability 
to monitor the union use of official time is severely hampered 
by a series of arbitrator or Federal Labor Relation Authority, 
FLRA, decisions. Can you explain this?
    Mr. Barnes. Before we worked out what was in the contract 
for 1990 that deals with the concept of bank and non-bank hours 
for official time, in terms of how much time is available, 
there was a decision from an arbitrator----
    Chairman Bunning. Is it binding on SSA?
    Mr. Barnes. Yes, sir, it is, and I'll be glad to provide 
you a copy of that.
    [The Arbitration Proceedings referred to by Chairman 
Bunning is being retained in the Committee files.]
    Mr. Barnes. Basically, the arbitrator's decision did not 
establish any limits on how much time could be used. So what we 
did in the negotiation process was to establish some limits, 
but, still, the decision also gets into how many questions you 
can ask in terms of the activity that the person is engaged in; 
that is, how much you need to put on the form. We'll be glad to 
share that form----
    [The following was subsequently received:]
    [GRAPHIC] [TIFF OMITTED]61080A.306
    
    Chairman Bunning. Can you make suggestions to this 
Subcommittee, if you are having problems, for legislative 
remedies, some of the problems and some of the things that you 
might see that we could remedy by legislation?
    Mr. Barnes. We believe that we have worked through those 
problems with the processes that we have established since 1990 
to deal with the issue of how official time is assigned----
    Chairman Bunning. Mr. Barnes, I'm very patient, but in 
looking at the record since 1990, there are a lot of people at 
this Subcommittee, and I'm sure at the Full Committee, that 
don't agree with that. So rather than us writing legislation 
that you may not agree with, I suggest that you make 
recommendations to this Subcommittee, because then we may be 
able to work together to better this partnership relationship 
that you have with your union. Otherwise, you're liable to get 
legislation that you don't like, and I don't want to do that. 
So I would suggest that you work with the Subcommittee, and 
then, if we can work together and find some solutions to what 
we think are very serious problems, we can do better that way 
than having it stuffed down someone's throat.
    You're not going to respond?
    Mr. Barnes. Oh, I thought I already did. We believe that 
legislation is not necessary----
    Chairman Bunning. OK.
    Mr. Barnes [continuing]. Because we've been able to work 
through the issues and to work them out.
    Chairman Bunning. Anybody else?
    [No response.]
    We may be submitting additional questions in writing to you 
for the record. Thank you for your testimony. We appreciate it 
very much.
    [Questions from Chairman Bunning, and Mr. Barnes' answers, 
follow:]
[GRAPHIC] [TIFF OMITTED]61080A.307

[GRAPHIC] [TIFF OMITTED]61080A.308

[GRAPHIC] [TIFF OMITTED]61080A.309

[GRAPHIC] [TIFF OMITTED]61080A.310

[GRAPHIC] [TIFF OMITTED]61080A.311

[GRAPHIC] [TIFF OMITTED]61080A.312

[GRAPHIC] [TIFF OMITTED]61080A.313

[GRAPHIC] [TIFF OMITTED]61080A.314

[GRAPHIC] [TIFF OMITTED]61080A.315

[GRAPHIC] [TIFF OMITTED]61080A.316

[GRAPHIC] [TIFF OMITTED]61080A.317

[GRAPHIC] [TIFF OMITTED]61080A.318

    The second panel today--and this is one name I'm going to 
mispronounce, I'll tell you, the name's tough--Witold 
Skwierczynski; is that right? No? OK. [Laughter.]
    Mr. Skwierczynski. Close.
    Chairman Bunning. Close?
    Would you pronounce your name, so I can----
    Mr. Skwierczynski. Yes, Witold Skwierczynski. I use the 
Polish pronunciation: ``W's'' as ``V's'' and the ``Cz'' and a 
``Ch.''
    Chairman Bunning. ``Sirchenski?''
    Mr. Skwierczynski. ``Skeer''----
    Chairman Bunning. ``Skeerchenski.''
    Mr. Skwierczynski. Like a ``V,'' ``Skwierczynski.''
    Chairman Bunning. Skwierczynski. Thank you.
    President of the National Council of the Social Securites 
Administration Field Operations locals, American Federation of 
Government Employees, AFL-CIO.
    Would you please rise and please raise your right hand.
    [Witness sworn.]
    Chairman Bunning. If you would begin your testimony, we 
would appreciate it.

STATEMENT OF WITOLD SKWIERCZYNSKI, PRESIDENT, NATIONAL COUNCIL 
    OF SSA FIELD OPERATIONS LOCALS, AMERICAN FEDERATION OF 
GOVERNMENT EMPLOYEES, AFL-CIO, CHICAGO, ILLINOIS; AND COCHAIR, 
                  NATIONAL PARTNERSHIP COUNCIL

    Mr. Skwierczynski. OK, I've submitted a statement which I 
would like included in the record.
    Chairman Bunning. Absolutely, without objection.
    Mr. Skwierczynski. My position in the union is I represent 
Social Security employees who work in 1,200 field offices 
across the country, the size ranging from 1 person in some of 
our resident stations, to teleservice centers, also 37 
teleservice centers I represent which are as large as 550 
people.
    I've been very disturbed about the statements and 
allegations that have been made by some Members of this 
Subcommittee in the past 3 days regarding alleged abuses by 
union officials of official time. In fact, I'm outraged by the 
kind of distorted statements and the kind of allegations that 
have come out of some Members of this Subcommittee. I think 
what I'm hearing is anti-union bashing at its fullest extent.
    Union reps in Social Security are dedicated and hard-
working and deeply committed to the Social Security program. 
Many of them work long hours, unpaid, after work and on 
weekends, in order to fulfill their representational 
responsibilities. I frequently work 70 to 80 hours a week doing 
my job, and I'm not paid for more than 40, and I'm proud of the 
dedication of the Social Security union representatives that 
represent the employees of this agency.
    Their primary concern is to create the best possible 
working conditions which benefit both the worker and the 
public. The public benefits from the unions' and the employees' 
concern that SSA deliver the best possible service.
    We have representatives in 1,300 offices. The Subcommittee 
has criticized the number of representatives we have. Based on 
the nature of our structure, we need representatives in all our 
offices.
    We are 72 percent women. Those are the employees of the 
Social Security Administration. Our reps are approximately the 
same number. We're talking about a female work force that is 
about an average age of 42 years old.
    We serve the disabled, widows, senior citizens, and the 
poor, and we do a great job doing that.
    Now it's been said by the Chairperson that we go slow, no 
show, and I think that those kinds of characterizations are 
unfortunate. I think our union officials weren't going slow or 
no-showing when the bombing occurred in Oklahoma City. I left 
the next day with my health and safety chairperson, Howard 
Eggerman, flew to Oklahoma City at night, and met with the 
employees the next day, and had one of the most traumatic 
experiences of my life. Those employees were begging for our 
assistance and for our effort, and were quite happy that the 
union understood their concerns.
    After that Oklahoma City disaster, we met with the agency 
and set up a National Partnership Council on Security. Through 
our efforts in that partnership council, we have set up a 
number of measures which improve the security of our Social 
Security offices and minimize threats to not only employees' 
security in these offices, but also the public that visits the 
offices. These are the kinds of partnership measures that do 
not show that the union is going slow or no-showing.
    Characterizations that the union is stealing taxpayer 
money--I don't think the union was stealing taxpayer money 
when, during the furlough, we had immediate meetings with the 
agency, the congressionally mandated furlough, we had immediate 
meetings with the agency to determine how we were going to 
continue to deliver services to the public while our offices 
were stripped to virtually no staff.
    During the second phase of the furlough, we also had 
meetings with the agency to try to minimize the problems that 
our employees were having when they had to work without pay. 
These are the kinds of actions that are responsible actions 
that the union has taken to improve services and to ensure that 
the public continues to get their appropriate services.
    We've met with the agency on a partnership level to respond 
to criticism from Congress about the dysfunctionality of some 
aspects of the disability program. We've cooperated with the 
agency and set up a number of work groups. We've even 
entertained shifting some of the work that's traditionally done 
by the Federal Government to the States in order to see--and 
the States have done the same--in order to see if we can come 
up with better ways of delivering disability services to the 
public, streamlining the service, and also having a more 
accurate product. These are responsible actions by a 
responsible union.
    These efforts take time. Our disability program is 
extremely complex. To radically change the way that operates 
takes the effort of a number of people--first, thinking out 
loud, trying to figure out methods that assist the taxpayers, 
and all this takes time. And that's one of the reasons in our 
partnership efforts where you see that there's an escalation in 
use of time. Things that normally were done formerly by 
managers and staffers in headquarters in Baltimore, who had no 
experience with the direct-service delivery aspects of the job, 
are now being looked at by actual workers.
    Our workers, a typical worker, according to the OIG report, 
spends less than two hours a week, our typical union rep spends 
less than two hours a week on official time activities. What do 
they do? They're meeting with management trying to look at how 
to improve operations in that office. They deal with employee 
concerns and problems, and by dealing with those kinds of 
problems, they prevent them from festering out of control. They 
file occasional grievances. They also are trained by us on how 
to deal with the agency and provide--they're trained in 
partnership aspects and how to work cooperatively with the 
agency to provide better services to the public.
    These are not official time abusers. These are people who 
spend--have full workloads, providing services to the public, 
and spend a few hours a week dealing with their management 
trying to solve the problems of the work force. I think the 
dedicated work of our union officials deserves applause, rather 
than the kind of criticism that we've been hearing in the last 
3 days.
    In the rare instances where abuse occurs, I encourage 
investigating that abuse. When alleged abusive situations have 
been brought to my attention, we've looked at it and we've 
taken action. Our local presidents do the same. Union 
representatives have had their time pulled when evidence showed 
that they are abusing time, and we'll do that in the future. We 
don't shy away from our responsibilities under the contract. 
The contract has a clause which requires management to bring to 
our attention abuse allegations, and when they have brought 
those issues to our attention, we've taken action, and intend 
to continue to take such action.
    We've always endorsed efficient time-reporting procedures. 
In the 1990 contract, there was a union proposal that was 
placed in the contract which led to the OUTTS system, which, 
hopefully, will improve the recordkeeping aspect of official 
time and allow Congress to see that the time that we're using 
is accurately reported.
    There have been comments made by individuals who testified 
yesterday that the employees are discouraged by the fact that 
we have union officials who are on 100 percent time and 
performing no direct services with the public. Well, in 
actuality, we have about one full-time official for every 360 
employees. We see our membership going up while staff is going 
down. I think the employees are voting with their wallets, that 
they are in favor of the type of representation we provide.
    In this kind of an organization, it requires some 
professional representation. Our full-time officials, like 
myself--and I'm a full-time official and, as I said before, 
work 70 to 80 hours a week representing the union with the 
agency. I'm on three partnership councils. That takes up great 
amounts of my time at the national level. We're dealing with 
rather large issues on how the agency operates with diminished 
staffing, and I think it's essential that we have some full-
time officials in order to fulfill that task.
    I'd be glad to respond to some of the other allegations 
that have been made. I'm sure I'll be asked the question, so 
I'll start off on the Christmas leave issue. The Christmas 
leave issue is a misnomer. Christmas shopping is a phrase 
that's used with regard to that situation. In private industry 
the employers frequently provide their workers with a Christmas 
party. In private industry, employers frequently provide their 
workers with a Christmas turkey. In private industry, employers 
frequently provide their employees with a bottle of wine. In 
Social Security, there are no appropriated funds for any of 
those activities. The agency in the Boston region was providing 
the employees, some of the employees in that region, not all 
the employees, some of the employees in that region with two 
hours of time off. Some of them went to church. Some of those 
employees went to see their families. Some of them may have 
shopped.
    But to say that employees in that region are not entitled 
to a reward for their dedicated services I think is wrong. I 
think you probably provide your staffs with time off during the 
Christmas holidays as a reward for their dedicated service to 
you, and if you don't, you should.
    What happened here was not something the union negotiated. 
This is something that developed over the years that management 
provided. It's been characterized as union officials going off. 
No, it wasn't union officials at all; it was employees. The 
union didn't negotiate the benefit. But when management tried 
to terminate it, we took our responsibility, which is our 
responsibility--we are a labor union; when management tries to 
terminate a benefit, a labor union's job is to fight to 
maintain that benefit, and that's all we did, and we lost. We 
went to arbitration and we lost. And that's the story on the 
Christmas leave issue.
    Chairman Bunning. I think your time has expired about 5 
minutes ago.
    Mr. Skwierczynski. OK. Well, in closing, Congressman, I 
appreciate the opportunity to present the views of the union at 
this hearing.
    [The prepared statement follows:]

Statement of Witold Skwierczynski, President, National Council of SSA 
Field Operations Locals, American Federation of Government Employees, 
AFL-CIO, Chicago, Illinois; and Cochair, National Partnership Council

    Mr. Chairman and members of the Subcommittee, my name is 
Witold Skwierczynski. I am the President of the AFGE National 
Council of SSA Field Operations Locals (AFGE Council 220). I am 
also the Co-Chair of the AFGE-SSA National Partnership Council. 
On behalf of some 50,000 working men and women represented by 
AFGE at the Social Security Administration, I appreciate the 
opportunity to testify today before this Subcommittee.
    I want you to know that AFGE is committed to providing the 
Subcommittee a complete and accurate account of both official 
time practices and partnership activities at SSA. AFGE is proud 
of its track record of effective and responsible union 
representation. We are especially proud of the work we have 
done to improve the delivery of services to the agency's 
customers. Without official time and partnership, that work 
would be impossible.
    That is why we believe it is important for this 
Subcommittee--and taxpayers--to understand fully how SSA 
managers and union representatives are using their time, 
talent, and resources to make SSA a better agency. In fact, 
this is part of what led AFGE and SSA to conduct a top-to-
bottom, agency-wide evaluation of our partnership in 1997.
    Before we turn to the substance of the three Inspector 
General reports, let me say a few words about AFGE's response 
to the IG's investigation. The IG reports mention that AFGE 
initially opposed this investigation of official time and 
partnership. That is true. We learned that many rank-and-file 
employees were, quite frankly, afraid to complete the survey 
forms used by the IG or submit to interviews. An IG 
investigation is often focused on alleged employee misconduct 
and can be the foundation for adverse actions. An IG audit, on 
the other hand, is generally used to evaluate the effectiveness 
of agency programs and operations. It is fair to say that an IG 
investigation is perceived by employees and managers alike as 
far more threatening and adversarial than the kind of routine 
audit that the IG conducted here.
    The problem was that many SSA employees (and not just union 
representatives) were having a difficult time distinguishing 
between the more menacing sort of IG investigation and the more 
benign audit. It did not help that we uncovered evidence of 
performance quotas in the IG's office requiring a certain 
number of investigations, something that we believe has led to 
overly aggressive investigations in the past.
    In addition, we were concerned about four of the questions 
that the IG proposed to ask in its surveys and questionnaires. 
These questions, we felt, were inappropriate, confusing, and 
simply unnecessary. All of these factors contributed to the 
initial delay in completing the survey forms.
    However, once we worked through these issues with the IG, 
AFGE's National Office sent written instructions to our union 
representatives urging full cooperation. We advised our 
representatives to complete the surveys (the IG agreed that 
employees would not have to answer the four objectionable 
questions) and to cooperate with the audit interviews. A letter 
from National President Bobby Harnage explaining AFGE's 
position in regard to the IG was sent to the Subcommittee Chair 
back on November 5, 1997. I trust this clarifies our position 
on this issue.
    Let me now turn to the IG reports that are the subject of 
today's hearing.

                         PARTNERSHIP ACTIVITIES

    In October of 1993, President Clinton issued Executive 
Order 12871, entitled ``Labor-Management Partnerships.'' This 
Order ushered in a new era of labor-management relations for 
the federal government. Federal agencies and labor 
organizations were challenged to move beyond the hostility and 
conflict which had defined labor relations for far too many 
years. The President directed labor and management to forge 
true working partnerships focused on improving the performance 
of government and the delivery of services to the American 
people.
    Modeled on the best practices of leading-edge private 
sector companies like Xerox, Corning Glass, and Saturn, the 
Executive Order was a true milestone in the history of labor-
management relations. For the first time ever, the nation's 
Chief Executive recognized that there is a meaningful role for 
federal workers and their unions in the day-to-day operations 
of the government. And the President also acknowledged that 
government-wide reform efforts would fail without the 
participation and support of labor unions. Reinvention, 
restructuring, reorganizing--give it any label you like--none 
of these efforts will succeed over the long haul if labor and 
management maintain an arms length, adversarial relationship. 
That is why partnership is not about ideology or politics. It's 
about results.
    AFGE and SSA have been working for almost five years to 
meet the ambitious goals set by the President. Our partnerships 
emphasize the common ground between labor and management, the 
stake that both parties have in making SSA successful. 
Partnership imposes on both AFGE and SSA a shared obligation to 
seek joint solutions to workplace problems in accordance with 
the common goal of effective, high-quality public service.
    Unfortunately, we believe that many of the IG's 
recommendations in this area betray a fundamental 
misunderstanding about partnership and labor management 
relations.
    To begin with, we believe that the IG's recommendation for 
a ``uniform definition of partnership'' is particularly unwise. 
Partnerships are many things, but ``uniform'' is certainly not 
one of them. Indeed, we have found that no two partnerships in 
the federal sector are exactly alike, nor can they be shoe-
horned into a once-and-for-all time definition.
    The unique nature of partnerships should come as no 
surprise since they are found in scores of different agencies, 
each with its own particular mission and its own history of 
labor-management relations. A definition of partnership that 
works for a VA hospital in Des Moines, Iowa will not fit the 
partnership at Tobyhanna Army Depot in Pennsylvania. And the 
local partnership between AFGE and SSA in Richmond, California 
is different in many respects from the National-level 
partnership between AFGE and SSA. Each, however, is a 
partnership in its own right.
    Keep in mind that partnership councils derive their 
strength--and their unique identity--from the people who serve 
on them. Councils are made up of union representatives, 
employees, and managers who work closely together every day. 
Partnerships can vary in interesting and important ways 
depending on the mission and culture of an agency, the 
understandings and expectations of the men and women who make 
up the council, or the level at which the partnership exists. 
Trying to capture such a rich and varied tapestry through the 
one, true ``uniform'' definition of partnership is really a 
search for fool's gold.
    That does not mean partnerships are without identifiable 
shape or character. Good partnerships have many common 
elements. Again and again we find that effective partnerships, 
no matter the agency, are based on trust, mutual respect, open 
and honest communications, shared responsibility, and top-level 
commitment from labor and management. But partnership is just a 
term--a vivid term, to be sure--that has become widely used to 
describe efforts by labor and management to build constructive, 
cooperative relationships and to do business in a new way. 
Different terms have been used in other industries and by other 
organizations to describe the same kind of relationship.
    For example, at Hennipin Steel Works, management and the 
Steelworkers Union created something they called the ``New Work 
System.'' The UAW and General Motors formed labor-management 
``Quality Networks.'' Well before Executive Order 12871 was 
signed by President Clinton, AFGE and the Department of Labor 
dubbed their new working relationship ``Employee Involvement 
and Quality Improvement.''' In none of these cases--and in no 
workplace or organization we know of--did labor and management 
try to come up with a uniform definition of their cooperative 
relationship. It's a little like trying to define a good 
marriage: a single definition doesn't begin to do justice to 
the complex, special nature of the institution.
    While a precise definition of partnership is neither 
possible nor desirable, there is no question that SSA and AFGE 
need to have a common understanding of the goals they want to 
reach in partnership and how they're going to get there. Coming 
to terms with the purpose and scope of partnership--rather than 
defining it in a narrow, prescriptive way--is the approach 
commonly taken by labor and management in both the private and 
public sectors when they form any kind of cooperative venture.
    The parties will typically develop a joint vision statement 
or draft a set of broad guiding principles or, as AFGE and SSA 
have done here, develop a written partnership agreement which 
sets out the essential elements of their new relationship. This 
approach has proven far more useful than attempting a single 
definition under which one would lump the assorted local, 
regional, and national partnerships typically seen with large 
employers like SSA.
    The IG also missed the mark in its treatment of interest-
based bargaining. The IG says that it would ``not necessarily'' 
include interest-based bargaining as a partnership activity 
because ``it is a problem-solving process or technique that is 
used in making group decisions and does not qualify as an 
activity in and of itself.'' If there is a meaningful 
distinction between a partnership ``process or technique'' and 
a partnership ``activity,'' it's not at all clear from the 
report. But that aside, does the IG really want to go on record 
as saying that interest-based bargaining is not a partnership 
activity? If so, the IG will stand alone in that flawed 
judgement.
    Interest-based bargaining is a non-adversarial, problem-
solving approach to negotiations designed to allow labor and 
management to bargain more effectively. By focusing on mutual 
interests, not inflexible positions, participants learn how to 
craft contract language that all parties accept and support. 
This approach to bargaining helps labor and management develop 
a working relationship based on shared goals.
    That is precisely why the President's Executive Order on 
labor-management partnerships directed federal agencies to 
provide training in ``consensual methods of dispute resolution, 
such as alternative dispute resolution techniques and interest 
based bargaining approaches.'' EO 12871, Section 2(c). And that 
is why agencies with labor-management responsibilities like the 
Federal Mediation and Conciliation Service (FMCS) and the 
Federal Labor Relations Authority (FLRA) provide extensive 
training in interest-based bargaining as part of an overall 
strategy to promote and develop partnerships across government.
    The IG is also critical of the ``diverse grouping of 
activities'' that SSA and AFGE consider partnership activities, 
a diversity attributed to the lack of a definition for 
partnership. We do not agree.
    The Executive Order requires agencies to ``involve 
employees and their union representatives as full partners to 
identify problems and craft solutions to better serve the 
agency's customers and mission.'' Meeting this ambitious goal 
should lead, as it has with SSA and AFGE, to a wide range of 
activities properly designated as partnership activities. This 
is all part of doing business in a new way, where labor and 
management spend less time handling grievances and more time 
trying to improve quality, efficiency, and customer service.
    Does that mean some blurring of the sharp lines that once 
divided purely representational activities from agency 
business? Sure. But that is not surprising when an agency is 
involving the union--and employees designated by the union--in 
its day-to-day operations and planning as never before. 
Insisting on rigid and formal definitions misses both the 
letter and the spirit of the Executive Order.
    The IG also reports that it ``could not conclude that a 
connection existed between partnership and the reduction in the 
number of grievances and unfair labor practice filings.'' Of 
all the conclusions reached by the IG, this is the most 
troubling because it exhibits an almost wilful disregard of the 
facts. And what are some of the important facts?
    FACT: In the seven years prior to the Executive Order, 
unfair labor practice charges in the federal sector rose 
steadily each year from around 5200 in 1986 to almost 9000 in 
1992. The Executive Order was signed in October 1993. In 1994, 
the first full year of implementation, ULPs dropped 13%. In 
1995, the decline was even sharper, falling 17%. All in all, 
there has been a 39% reduction government-wide in the filing of 
ULPs since 1993.
    FACT: 76% of the respondents to a government-wide survey of 
labor and management conducted by the National Partnership 
Council in 1996 reported that partnership had resulted in a 
reduction in labor-management litigation. Almost exactly the 
same percentage reported a reduction in 1995.
    FACT: In the Council's 1997 government-wide survey of labor 
and management, conducted by Professors Merrick Masters and 
Robert Albright, only 35.7% of the respondents described the 
past climate between labor and management as ``cooperative.'' 
When asked to characterize the labor relations climate today, 
almost twice as many (67.4%) said that it was cooperative. 
Building on these findings, Masters and Albright found a 
definitive correlation between an improved labor relations 
climate and reduced grievance rates. They also found a 
correlation between harmonious labor relations and improvements 
in productivity, product quality, and customer service.
    There are many examples in agencies throughout the 
government where ULPs and grievances were once filed with 
depressing regularity but where litigation and conflict dropped 
dramatically once the parties developed a working partnership. 
There is a strong connection between cooperative labor 
management relations and the kind of reduction in ULPs, 
grievances, and other forms of labor-management conflict that 
we've achieved at SSA. This connection is supported by hard 
evidence, hard-earned experience, and plain old common sense.

                             OFFICIAL TIME

    As this Committee is well aware, Congress concluded two 
decades ago that the public interest is served when federal 
workers, acting through labor unions they elect democratically, 
have the right to bargain with management over their conditions 
of employment. The Federal Sector Labor-Management Relations 
Statute, passed in 1978, expressly states that the union's role 
as a workplace representative ``contributes to the effective 
conduct of public business'' and ``facilitates and encourages 
the amicable settlement of disputes.'' This is as true today as 
it was 20 years ago.
    This Subcommittee also knows that a federal sector labor 
organization acts as the exclusive representative for all 
employees in the bargaining unit, whether or not those 
employees join the union. For example, AFGE is the exclusive 
representative for all 50,000 bargaining unit employees at SSA, 
and we are responsible for representing their interests without 
regard to membership in AFGE. However, the statute prohibits 
AFGE and other federal employee unions from charging fees to 
non-members for the services we are obligated by law to 
provide.
    In other words, non-members get a free ride; they 
contribute not a dime to the union yet they benefit directly 
from the hard-fought bargaining gains and skilled 
representation that the union must provide to members and non-
members equally. This differs significantly from the labor-
management relations system in the private sector. Unlike 
federal sector unions, unions in the private sector can and do 
negotiate contracts that require non-members to contribute a 
fair-share payment or fee to the union for the services and 
representation they receive.
    In recognition of the representational burdens placed on 
federal employee unions by this free-rider system, Congress 
allowed labor to negotiate with management for official time. 
This is not a give-away nor is it a taxpayer ``subsidy.'' 
Rather, it is a fair trade-off for the sweeping 
representational obligations imposed on unions by law.
    Official time has been commonplace in the federal sector 
since the early 1960s. Under the past eight Presidents, four of 
them Republican, official time has been allowed for union 
representatives either by Executive Order or statute. Since the 
Civil Service Reform Act was enacted in 1978, official time is 
authorized for such activities as collective bargaining, 
conducting and receiving training, handling employee 
grievances, and working with management to improve the delivery 
of services. Congress recognized that these activities 
contribute to a productive and stable working environment, and 
that agencies derive substantial benefits from the union's use 
of official time. That is why union representatives are 
considered to be performing the work of the agency when they 
are authorized to use official time.
    Official time can be used only for those purposes permitted 
by law. Moreover, labor and management must negotiate the 
amount of official time that can be used by union 
representatives, and that amount must be ``reasonable, 
necessary, and in the public interest.'' 5 U.S.C. Section 
7131(d)(2). Union representatives are also prohibited from 
using official time for any internal union business. This means 
that representatives cannot use official time to organize 
workers, solicit new members, campaign for office, or conduct 
union elections. We are also forbidden to use official time for 
partisan political activities.
    Official time is not unique to the federal government. In 
testimony to this Subcommittee in June 1996, the GAO reported 
that 7 of the 10 private sector contracts it reviewed provided 
for ``company employees, acting as union representatives, to 
perform certain union functions in addition to their company 
duties, at the expense of the employer.'' GAO also reviewed 
BNA's Basic Patterns of Union Contracts and testified that 
``over 50% of the 400 labor contracts guaranteed pay'' to 
employees engaged in representational activity on company time.
    Private industry has known for years that effective working 
relations between labor and management makes companies more 
competitive and improves the bottom line. The same is true in 
the federal sector. In an era of downsizing and tight budgets, 
it is essential for labor and management to develop a stable 
and productive working relationship. Official time is a tool 
that makes such a relationship possible.
    With the growth of labor-management partnership, the nature 
of official time use has changed dramatically. At SSA, AFGE 
union representatives spend more time than ever before working 
side-by-side with management to help redesign antiquated work 
systems, solve workplace problems, and improve the delivery of 
customer service. Official time has become an essential 
mechanism for creating an agency that works better, smarter, 
and more effectively for the American taxpayer. Here are just a 
few examples of what I mean:
    AFGE and SSA worked together to reengineer the agency's 
toll-free customer service line. As you know, this is the 
world's most heavily-used 800 number. Our efforts have paid off 
for the taxpayer as the SSA toll-free line was rated the best 
in the world by Dalbar Financial Services, the largest 
financial news publisher in North America. In topping Dalbar's 
rankings, SSA beat out such top-flight companies as Federal 
Express, LL Bean, Disney, and Nordstrom.
    A partnership team in Joplin, Missouri developed a ``one-
stop-shopping'' process for handling disability complaints. 
Together, SSA and AFGE reduced the number of interview steps, 
cut the number of employees involved in the interview, and cut 
the time it takes to schedule an appointment from 15 days down 
to one.
    AFGE and SSA jointly developed something called the 
Integrated Service Project. This initiative was designed to 
provide assistance to field offices when service delivery is 
affected by natural disaster, workload increases, or technology 
changes. As part of this effort we established a special work 
unit at the Birmingham PSC to handle retirement, survivor, 
disability, and health insurance claims. This unit was also 
trained to help with continuing disability reviews and other 
post-entitlement work. We are looking at other ways to 
streamline field office and PSC workloads.
    AFGE and SSA continue to work in partnership on the 
Disability Process Redesign Team (DPRT). This is a long-term 
partnership effort which began in 1994. Our objective is to 
improve quality and productivity, reduce the time it takes to 
process disability claims, and cut costs. At present there are 
eight major initiatives at various stages of development but we 
have already reduced disability backlogs and moved headquarters 
staff into direct service positions.
    With the growth of partnership and a more productive 
relationship between SSA and AFGE, we are saving millions of 
taxpayer dollars once spent on litigation and third-party 
appeals. Arbitration cases have dropped 32% from 488 in 1993 to 
331 in 1996; unfair labor practice charges fell 56%, from 382 
in 1993 to 168 in 1996; and grievances dropped 48% from a high 
of 465 in 1994 to 244 in 1996. The reduction in ULPs alone is 
saving SSA millions of dollars every year.
    Finally, AFGE and SSA are keeping their eyes on the prize. 
Litigation and labor-management conflict have fallen 
dramatically since 1993, while the amount of time spent by AFGE 
helping to improve the operations of SSA is at an all-time 
high. Through our Evaluation of Partnership, we found that the 
number of agreements negotiated by AFGE and SSA that address 
work process and customer service is up almost 40% since 1993. 
Indeed, we discovered that more time is spent by AFGE and SSA 
dealing with customer service than any other single issue. In 
total, SSA and AFGE are working on over 1,500 separate 
partnership initiatives and projects at all levels of the 
agency to create an agency that works better and costs less.
    There is no question that front-line involvement by AFGE 
union representatives is paying big dividends to SSA's 
customers in terms of better service and real cost savings. 
Gains in quality, productivity, and efficiency--achievements 
being duplicated by labor and management all across 
government--simply would not have been possible without the 
reasonable and judicious use of official time.
    Like other unionized federal agencies, SSA and AFGE have 
negotiated a collective bargaining agreement that sets out 
basic rules for official time. The contract covers issues like 
the amount of time authorized for union representatives and the 
process for handling official time requests.
    Is this a perfect system? Of course not. AFGE has 
represented employees at the Social Security Administration for 
over 30 years and we are continually working with SSA to refine 
and improve all aspects of our working relationship. Official 
time procedures are no exception. But one thing I can say with 
confidence is that the system we have negotiated fairly and 
effectively balances the statutory representational obligations 
of the union with the work requirements of SSA and its 
managers.
    The IG has made a number of specific recommendations on 
official time. Some make sense, others do not. I'd like to 
address each of the IG's recommendations in detail:

Recommendation 1: Maintain Accurate, Current Lists of Union 
Representatives

    We agree completely with the IG that the agency should have 
accurate and up-to-date lists of AFGE union representatives. In 
fact, our collective bargaining agreement with SSA obligates 
AFGE to provide such information to the agency. We have lived 
up to our obligations in the past and we will continue to do so 
in the future. We will be happy to work with the agency to 
ensure that the written notifications provided by AFGE reach 
the managers who need such information.

Recommendation 2: Improve Management Oversight To Help 
Determine Whether Official Time Is Used Appropriately

    We agree that union representatives should live up to the 
arrangements we have negotiated with SSA, and should complete 
the necessary forms when requesting official time. AFGE and SSA 
believe that these forms, which use official time codes and 
sub-codes or provide for a general description of the nature of 
the representational activity, provide all the information that 
managers need to determine whether or not to approve a request 
for official time. The procedures that we have negotiated 
protect the union's right to engage in representational 
activities free from excessive interference yet meet the 
agency's need to effectively and efficiently manage its 
resources.
    These procedures also safeguard the statutory rights of 
employees. When the union requests official time to meet with 
an employee to discuss a workplace issue, let's say a 
disciplinary situation, their conversation and the employee's 
identity is confidential. The FLRA has ruled that such 
conversations constitute protected activity under the Labor-
Management Relations Statute, and that employees must be free 
to make full and frank disclosures to their representatives. 
See Long Beach Naval Shipyard and FEMTC, 44 FLRA 1021 (1992); 
Department of Treasury, Customs Service and NTEU, 38 FLRA 1300 
(1991). This important right is compromised by the kind of 
excessive monitoring of official time suggested by the IG.
    More stringent reporting and monitoring requirements are 
unnecessary and unreasonable. AFGE and SSA have battled over 
this issue in the past and neither party wants to reopen those 
wounds. We have settled on a procedure that is not only fair to 
managers and employees, but mindful of the responsibility we 
both have to the taxpayer.

Recommendation 3: Monitor The Coding Of Representational 
Activity To Ensure That Contractual Limits on Official Time Are 
Not Exceeded

    We agree. AFGE and SSA have negotiated limits on the amount 
of official time that can be used by union representatives 
depending on where they work and what position they hold with 
the union. If a representative exceeds a contractual cap on 
time, then no more time should be authorized. AFGE will live up 
to the agreements we've made, it's as simple as that. We also 
expect that the agency's new automated Official Time Tracking 
System (OUTTS) will help both parties ensure that contractual 
limits are not exceeded.

Recommendation 4: Improve Procedures To Deal with Allegations 
of Official Time Abuse

    This is one we just don't get. The IG has offered 
absolutely no evidence of abuse. What we have in place of facts 
is an assertion from the IG that ``some managers suspected 
abuse of official time.'' Well, some Americans suspect that 
Oswald didn't act alone. Others suspect that accounts of alien 
abductions are true. We trust this Subcommittee is more 
interested in facts than vague notions or unreported 
suspicions.
    Article 30, Section 3 of the parties' collective bargaining 
agreement provides a clear procedure to deal with allegations 
of official time abuse. AFGE agreed to this article and we will 
be happy to abide by its requirements. That's a fact. The union 
will promptly deal with any allegations that we receive. We 
have no interest in letting a few renegade bad actors soil the 
good reputations of all the hard-working, responsible union 
representatives in SSA. That's another fact.
    Finally, there is no evidence that the current mechanism 
for handling allegations of abuse is failing in any way. If 
there is evidence of abuse, all that a manager has to do is 
report it rather than silently harbor his or her 
``suspicions.'' I can promise you that AFGE and SSA will deal 
with the allegations promptly and decisively. And if you have 
any evidence of official time problems, Mr. Chairman, AFGE 
would be happy to work with you to get those problems resolved.

Recommendations 5-9

    We can agree to work with SSA on all of these 
recommendations.

Recommendation 10: Evaluate The Benefits And Disadvantages Of 
Official Time

    This recommendation is completely unnecessary. Official 
time is not some new foreign concept foisted on the government 
by President Clinton. The right of unions to use official time 
to fulfill statutory responsibilities is well into its fourth 
decade. As far back as 1978, Congress strongly affirmed that 
federal employee unions and collective bargaining are in the 
public interest. The calculation of ``costs and benefits'' that 
the IG recommends has already been done under the past eight 
presidents and by scores of Congressional legislators since the 
early 1960s.
    In any case, official time is already subjected to regular 
and rigorous cost-benefit analysis. Remember, labor and 
management must negotiate for official time. The law does not 
entitle a union representative to use official time without 
regard to the agency's needs and the requirements of the 
agency's work. The amount, the allocation, and the scheduling 
of official time are all considered against a tough standard: 
does it interfere with the accomplishment of the agency's work? 
If it does, the law is clear that the agency's work will take 
precedence. In this environment, the kind of cost-benefit 
analysis recommended by the IG is superfluous.

                               CONCLUSION

    I began my statement today, Mr. Chairman, by describing how 
proud I am of AFGE's commitment to work with SSA every day to 
deliver better service to the agency's customers. We are 
convinced that the close working partnership we have forged 
with SSA has brought about real gains for the millions of 
citizens who lives are affected by the work we do.
    That is why we are so disappointed by the vicious anti-
union rhetoric that preceded AFGE's appearance today. Your 
overheated statement to the press contains so many distortions 
and exaggerations that we wonder why you bothered to hold a 
hearing at all. To take only the most egregious example, your 
chart on ``union activity'' ends in 1996. You conveniently left 
off the figures for 1997 which show that official time expenses 
at SSA are actually going down, last year by nearly 20%. In 
true Alice-in-Wonderland fashion, you have declared a verdict 
long before the case was heard.
    That is a shame, Mr. Chairman. It is a shame that anti-
union bias has left you blind to all that AFGE has done at SSA 
to build an agency that the American people can be proud of. It 
is a shame that you refuse to acknowledge all that is right 
about union representatives--almost all of them volunteers--who 
serve their government and the public with honor and pride. And 
it is a shame, Mr. Chairman, that you have chosen to ignore the 
thousands of managers, employees, and union representatives at 
SSA who are committed to finding new and more productive ways 
of doing business. When the lights are off and these hearings 
are over, you can rest assured that AFGE and SSA will go back 
to the difficult yet critical task of building a lasting and 
successful partnership.
      

                                <F-dash>


    Chairman Bunning. Well, we're glad to ask you some 
questions about it.
    Do you support union officials threatening anybody? Their 
managers?
    Mr. Skwierczynski. Threatening anybody? Of course not. I 
have no indication that----
    Chairman Bunning. Do you take action when you find it, as a 
union?
    Mr. Skwierczynski. Of course I would take action if a union 
official threatened another person.
    Chairman Bunning. I see. Do you? Or did you?
    Mr. Skwierczynski. The situation in Texas, in Waco, we OK a 
dispute. Yes, certainly, when I got wind of that situation, I 
called the local president, and the local president was present 
when the incident occurred, and she disputed what your witness 
testified to yesterday. I wasn't there. So I can't----
    Chairman Bunning. You're accusing the witness of perjury 
then?
    Mr. Skwierczynski. No. I wasn't there, Congressman. I'm 
saying that the local president informed me that----
    Chairman Bunning. She's accusing the witness of perjury? In 
other words, we can call her----
    Mr. Skwierczynski. Well, she informed me before the 
testimony, and she didn't say anything about perjury.
    Chairman Bunning. I'm going to let Mr. Christensen inquire. 
Oh, he's not here? Yes, he is. Go ahead.
    Mr. Christensen. Mr. Skwierczynski----
    Mr. Skwierczynski. Skwierczynski.
    Mr. Christensen. Skwierczynski; is that right?
    You know, I find it interesting how you continue to defend 
the idea of Christmas shopping with your union activities. I 
mean, it's like maybe my colleagues and I should allow our 
staffs to go out at the taxpayers' expense and Christmas shop 
on the taxpayers' time. You know, what would be your definition 
of reasonable, necessary, and in the public interest, in terms 
of activities? Would working at Camden Yards be reasonable and 
necessary? Would campaign activities be reasonable and 
necessary? How do you justify any of those activities to the 
American taxpayer in light of the fact that the Social Security 
Administration is to serve the American taxpayer, not to serve 
the employees?
    Mr. Skwierczynski. Well, I guess there's three parts to 
that. The first part, with regard to the Christmas leave, I'll 
remind you that President Reagan gave Federal employees eight 
hours on a few occasions off on Christmas Eve. So it's not 
unprecedented that even our Presidents provide time off for 
dedicated public servants around the Christmas holidays. So I 
don't think it's unusual that managers in a region would 
provide a similar kind of benefit that many of our Presidents--
Reagan, Nixon, Johnson--many of our Presidents through history 
have provided around the holiday season time off for public 
servants in appreciation for their dedicated service throughout 
the year. And that's what they were doing in the Boston region.
    Now the second part of your question about union officials, 
allegations that union officials work in Camden Yards, if that 
is correct, it's reprehensible conduct, and I would oppose it. 
I would favor--you know, if I was in charge of that situation 
for the union, which I'm not, I would engage in an 
investigation of that kind of conduct.
    And the third question I believe was another abusive 
situation. I would do the same. I'm not in favor of abuse at 
all.
    Mr. Christensen. But you are in favor of the Christmas 
shopping? You think that was a legitimate time-off excuse that 
the American taxpayer should be responsible for?
    Mr. Skwierczynski. As I testified, it was given a name of 
Christmas shopping, but the intent of it was to reward 
employees for dedicated service, just as Presidents have 
consistently done through the years.
    Mr. Christensen. Well, reclaiming my time, rewarding 
dedicated Social Security workers to go to church as time off, 
that is a reasonable use of taxpayers' dollars?
    Mr. Skwierczynski. They were given two hours off as a 
reward for their services. They could do whatever they want 
with the time.
    Mr. Christensen. But you consider that a reasonable time 
off----
    Mr. Skwierczynski. Yes.
    Mr. Christensen [continuing]. Expenditure, to go to church?
    Mr. Skwierczynski. Two hours to do whatever they wished as 
a reward for dedicated service, I think that's very reasonable. 
If you're dealing with GS-5 clericals, you're talking about $20 
in terms of salary there. I think that's a reasonable--an 
equivalent to the kind of gifts in the private sector that 
private sector workers provide for their employees.
    Mr. Christensen. Well, there's a difference between the 
taxpayers' dollars and private sector work. When you're working 
with the taxpayers' dollars, we try to be more frugal and more 
careful in how we expend those dollars, in light of the fact 
that the Social Security Trust Fund is continually looking at a 
shortfall.
    One of the things that I think this Subcommittee ought to 
do, Mr. Chairman, is add up the amount of money that has been 
lost in this area and maybe come up with an amendment that 
could be put together for the appropriators, and we could save 
the American taxpayers some money in this area. Or put an 
amendment on that would take the money from this particular 
area, from the appropriations, and add back into the Trust 
Fund. Because I'm hearing from this gentleman that this is a 
legitimate use of the taxpayers' dollars, and in 1998 we're 
still going to see this kind of waste, fraud, and abuse in the 
area. So I'd like to suggest to the Chairman that we try to 
correct it this year yet somehow.
    Chairman Bunning. We tried to correct it 2 years ago, and 
were able to see that the money wasn't spent out of the Trust 
Fund, but a general fund appropriation replacing the Trust Fund 
money, so that it wouldn't be used, and Representative Porter 
assisted us in that.
    Mr. Christensen. Thank you.
    Chairman Bunning. OK.
    Mr. Hayworth.
    Mr. Hayworth. I thank the Chairman. Thank you, sir, for 
coming to testify this morning.
    You've offered a rather outspoken and unapologetic 
assessment of your perception that your workers have done 
exemplary jobs with regard to servicing taxpayers through the 
Social Security Administration. If that is the case, sir, why 
did the union tell many managers, when they received inquiries 
from the Office of the Inspector General, that they should not 
answer the survey or the questions of the Inspector General?
    Mr. Skwierczynski. We did cooperate with the Inspector 
General on the initial distribution of the audit----
    Mr. Hayworth. Distributing the audit is one thing. I'm 
asking specifically, why the union instructed its membership 
not to answer the questions?
    Mr. Skwierczynski. Well, we instructed them to answer the 
questions. Originally, we instructed them not to answer the 
questions--we advised them; we didn't instruct them--we advised 
them not to answer the questions. And a few months later, we 
advised them to answer the questions.
    Now the reason we advised them not to answer the questions 
originally was because the Inspector General had decided that, 
rather than meeting with our national office--and our national 
president is here today, Bobby Harnage--rather than meeting 
with his predecessor, John Sturdivant, that they decided that 
they would go to local Social Security offices and send draft--
and discuss draft questions on the questionnaire with local 
union officials.
    And we insisted--Mr. Sturdivant wrote Mr. Williams, the IG, 
and said, you know, that's not proper procedure; he should be 
dealing with us. At the same time, we discovered that the OIG 
had established quotas for disciplining and----
    Mr. Hayworth. If you'd yield, do you----
    Mr. Skwierczynski [continuing]. Finding fraudulent 
activity----
    Mr. Hayworth. I want to go back to the verbiage you 
characterized from the national president. You told the 
Inspector General and the other officers in the Social Security 
Administration that it's not proper procedure to directly 
inquire of managers, that they should deal with you first with 
basic questions on a basic responsibility of duty, that their 
first allegiance is to the union, instead of the United States 
of America's Government, in whom themselves--with whom they 
find themselves employed?
    Mr. Skwierczynski. Well, we didn't tell managers to do 
anything. I mean, if I told a manager to do something, that's 
like----
    Mr. Hayworth. No, no, what I said was----
    Mr. Skwierczynski. That doesn't mean he's going to do 
anything. What I was saying is that we instructed our reps 
originally not to cooperate with the--not to answer the 
questions. Later on, after Mr. Sturdivant was able to meet with 
Mr. Williams and clarify some of the aspects of the 
questionnaire that was troubling him, we sent instructions to 
our union reps to cooperate, and they did.
    Mr. Hayworth. When you were hired by the SSA, what job were 
you hired to do, sir?
    Mr. Skwierczynski. I'm sorry; I was a claims rep.
    Mr. Hayworth. When was the last time you did that job?
    Mr. Skwierczynski. In 1983.
    Mr. Hayworth. 1983.
    Mr. Skwierczynski. I've been president of the national 
council since that time.
    Mr Hayworth. And that was how many years ago?
    Mr. Skwierczynski. Fifteen.
    Mr. Hayworth. So that was the last time you answered an 800 
number call?
    Mr. Skwierczynski. We didn't have an 800 number then, sir.
    Mr. Hayworth. OK. When was the last time you took a claim?
    Mr. Skwierczynski. Around that time--1982.
    Mr. Hayworth. And authorized a benefit?
    Mr. Skwierczynski. 1982.
    Mr. Hayworth. OK. So even in the midst dramatic, traumatic 
situations such as the tragedy at Oklahoma City, rather than 
stepping in to immediately help with clients and deal with 
workloads, your primary responsibility was to the union.
    Mr. Skwierczynski. Sir, I'm a national president of a 
council that represents 28,000 people.
    Mr. Hayworth. Are you also employed by the Social Security 
Administration?
    Mr. Skwierczynski. Yes, I am, and I work 70 to 80 hours a 
week, sir.
    Mr. Hayworth. And in a situation of severe trauma, where 
records had to be restored, where lines of communication had to 
be opened, where you were hired to do a job to help advance the 
role of the Government, that was secondary to your role with 
the union, even in the national trauma such as Oklahoma City.
    Mr. Skwierczynski. My role during the national trauma of 
Oklahoma City was to provide counsel and sustenance to the 
employees who were the survivors of that tragedy, and to ensure 
that those deaths of 16 Social Security employees would not 
occur again. That was my role, and I think that that is a 
honorable role.
    Mr. Hayworth. Well, I think it is honorable, too, to try 
and deal with trauma. The question becomes, even in the midst 
of that, is the responsibility not then first to the Federal 
Government and those employees and the legacy of the work they 
would do on behalf of the American taxpayers? It's just very--
here.
    Mr. Skwierczynski. That is my responsibility, and I believe 
I fulfilled it. I spent countless hours counseling those 
employees and attempting to ensure that that type of tragedy 
does not occur again, and I think the employees appreciate 
that.
    Mr. Hayworth. One final question, sir. Since you're proud 
of the 70 to 80 hours you work a week, in your words, would you 
be willing to submit your personal financial statements to our 
Subcommittee and for our record?
    Mr. Skwierczynski. I don't see a need for that. Why are you 
asking for my financial statements?
    Mr. Hayworth. Well, I just, again----
    Mr. Skwierczynski. I'll tell you what I make. I'm a GS-11, 
Step 10. I've been a Social Security employee for 25 years. The 
union gives me a salary of $400 a month. That's it, man. I 
don't get any overtime. You know, I'm not a rich guy.
    Mr. Hayworth. And with the union activities, there's no 
other compensation, nor do you pursue any other lines of work.
    Mr. Skwierczynski. I have no other job.
    Mr. Hayworth. OK; thank you, sir.
    Chairman Bunning. Kenny.
    Mr. Hulshof. Thank you, Mr. Chairman.
    Sir, do you believe this is a political witch hunt?
    Mr. Skwierczynski. Yes, I do. It's very--and I will expand 
on that. You have in your hearing focus----
    Mr. Hulshof. Do you think--excuse me. Do you think--are 
you----
    Mr. Skwierczynski [continuing]. It says you're focusing on 
non-Agency activities at SSA. I have heard nothing except the 
union being addressed at this hearing.
    Mr. Hulshof. Have you actually read the Inspector General's 
report?
    Mr. Skwierczynski. Yes, I have.
    Mr. Hulshof. Cover-to-cover?
    Mr. Skwierczynski. Yes, I have.
    Mr. Hulshof. So then you know that on page 3 it talks about 
the official time activities at a cost of $14.7 million and 
suspected--suspected--I'm not saying it actually occurred, but 
suspected abuse of 25 percent. I mean what's a couple of----
    Mr. Skwierczynski. I read the report. Yes, I read that.
    Mr. Hulshof. What's a couple of million, right, sir?
    Mr. Skwierczynski. No; that's obviously not what I think.
    Mr. Hulshof. Is it wrong for the American taxpayer to know 
what typical union activities and what portion of a 
representative's official time is spent on these activities? Do 
you think the American public has a right to know or not?
    Mr. Skwierczynski. I didn't say the American public didn't 
have a right to know.
    Mr. Hulshof. Well, I'm asking you the question now. Do you 
think that the American public has a right to know? Yes or no.
    Mr. Skwierczynski. I think the American public has the 
right to know about how all their tax dollars are spent. Yes, I 
do.
    Mr. Hulshof. Is it just coincidence that we found yesterday 
three representatives that were here who testified to specific 
abuses? Did we just happen to find those rare instances of 
abuse?
    Mr. Skwierczynski. Yes. I think you found rare instances of 
alleged abuse, and in reading the--I wasn't here for the 
hearings--but in reading and hearing reports about the 
testimony, it appeared it wasn't specific. It's very hard for 
me to pin down these kinds of allegations that aren't--where no 
names are mentioned and no specific situations are mentioned.
    Mr. Hulshof. Perhaps the reason----
    Mr. Skwierczynski. These are general allegations, and some 
of them by the union dissident were things that he heard in the 
office. He didn't see anyone's official time reports. He just 
heard something in the office, and certainly I'd like to 
investigate that, but, you know, I have my skepticism about the 
validity of those allegations.
    Mr. Hulshof. So then you're saying that based on--were you 
here, by the way, physically present to the witnesses?
    Mr. Skwierczynski. No.
    Mr. Hulshof. OK.
    Mr. Skwierczynski. I was involved in a 3-day health and 
safety conference, attempting to deal with severe health and 
safety problems that occur in Social Security offices. For 
example----
    Mr. Hulshof. Fine. I'm not questioning where you were, sir, 
but I'm saying--and be careful with this----
    Mr. Skwierczynski. Well, you asked me if I was here.
    Mr. Hulshof. Excuse me. This is my time. My question is--
and be careful, as you are under oath--you aren't suggesting 
that witnesses who've come before this hearing in previous days 
were committing perjury.
    Mr. Skwierczynski. My testimony was that their allegations 
were general, and I could not discern whether they were valid 
or not just on the basis of their allegations. And, again, I 
wasn't here; it's all what I read and heard about them.
    Mr. Hulshof. One of the allegations was from a gentleman, 
that he was seeking higher office in the union, running on a 
reform platform, and another representative came to him and 
said, ``If you would withdraw your candidacy, we can assure you 
that you will have 100 percent official time. You will never 
have to answer an 800 number or provide a benefit or take 
another claim.'' Do you think that's appropriate?
    Mr. Skwierczynski. No, it isn't, if that occurred. I don't 
know that it occurred.
    Mr. Hulshof. You suggest, sir, that in private industry--
that if you are in private industry you would get a Christmas 
turkey or that you would get time off for Christmas shopping. 
The fact is, sir, you are not in private industry, are you?
    Mr. Skwierczynski. No, but I don't think our employees 
should be treated as stepchildren just because they're Federal 
employees. I think our employees do fine work in Social 
Security.
    Mr. Hulshof. So do we, for the most part. But in opposition 
to your position that you think that this is simply a political 
witch hunt, it is our duty under the Constitution to make sure 
that we have oversight over inappropriate uses of political 
money--of taxpayer money. And we have a report from the 
Inspector General, who has no ax to grind, that suggests up to 
25 percent abuse, $14.7 million of official time. I think it's 
our duty to at least ask questions, and I'm sorry that you 
think that this is some political witch hunt to further some 
political advantage.
    The fact is--and let me ask you this question. Is it just 
the AFGE employees through SSA that get this specific time 
around Christmas, or do other employees, like IRS and HHS? Do 
you happen to know that answer?
    Mr. Skwierczynski. I have no knowledge of that, other than 
that when the President provides Federal workers with time, 
it's across the board.
    Mr. Hulshof. The fact is that during the challenge in the 
matter of the Social Security Administration in the Boston 
region and Local 1164 of AFGE, it was the position of the union 
that it was, quote, ``vindictive and a reprisal for the union's 
action challenging the termination in one office''--talking 
about Christmas leave. That was the union's official position, 
was it not? That it was vindictive to terminate this practice 
of a 20-year duration that promotes employee morale--vindictive 
and a reprisal to take away Christmas shopping time from AFGE 
employees at SSA.
    Mr. Skwierczynski. The reason that language is used is 
because the Agency selected one office in which to remove the 
benefit, rather than all the offices, so we felt that because 
they targeted one office that they did it in a vindictive 
fashion.
    Mr. Hulshof. My time has expired. Thank you, Mr. Chairman.
    Chairman Bunning. Mr. Collins will inquire.
    Mr. Collins. Thank you, Mr. Chairman.
    Sir, I'm not even going to try to pronounce your name.
    Mr. Skwierczynski. Skwierczynski.
    Mr. Collins. I'll call you Mr. President, since you're 
president of the union.
    Mr. Skwierczynski. That's good. [Laughter.] I like it.
    Mr. Collins. That ought to make you feel good. You probably 
were listening when I made my remarks to Mr. Barnes----
    Mr. Skwierczynski. Yes; I was.
    Mr. Collins [continuing]. Concerning my operation and the 
industry that I work in and how we have a slogan for slack and 
negligence. In my own operation, which is a small business, 
just a family-run business, there's a sign that sits on the 
front of my desk that says, ``The buck stops here.'' I believe 
that was a slogan by a former President of the United States, 
Harry S Truman. Sir, to me--Mr. President--the buck stops with 
the Social Security Administration and the executive branch of 
this Government.
    The reports show, and even some of your own comments 
reflect, that there's a lot of slack, a lot of negligence, a 
lot of weakness within the Social Security Administration. I 
believe that labor organized early in this century due to the 
abuse of management. Is that not true?
    Mr. Skwierczynski. Yes.
    Mr. Collins. You know, as I listen to you talk about how 
you are continuously adding to your ranks and organizing, it 
appears that you're organizing to abuse--to abuse the system 
and to take advantage of management that is slack, negligent, 
and weak. The problem in the area of the activities of both the 
union and management is costing each and every working person 
in this country part of their hard-earned money. That includes 
the employees of the Social Security Administration.
    I respectfully request that you turn your defensive 
attitude in defending the union and that you aggressively work 
and cooperate with management in servicing the needs of the 
people of this country, whether that be through a partnership 
or team work or whatever you want to call it is fine. 
Partnerships work and teams work between organized labor and 
management in the private sector. It will work in this area, 
too, but the defensive position and attitude that you have, the 
weakness that they possess, will never allow it to work.
    Thank you for coming today.
    Chairman Bunning. Mr. Weller. He's not here? Mr. Portman.
    Mr. Portman. Thank you, Mr. Chairman, and Mr. 
Skwierczynski, thank you for being here today. We've heard a 
lot of troubling information in the last 2 days of hearings, 
and you may or may not have been here yesterday when I objected 
to one of your senior officials calling this political theater. 
Today we've elevated it to a political witch hunt.
    Mr. Skwierczynski. That wasn't my word.
    Mr. Portman. Well, you were asked by Mr. Hulshof whether 
you thought this was a political witch hunt, and I think the 
witness nodded.
    Mr. Skwierczynski. Yes; I think it is, but it wasn't my 
word. That's all I'm saying.
    Mr. Portman. I'm very troubled by that because, although I 
don't see it in my colleagues from the other side of the aisle 
here, the approach is clearly bipartisan. This is a bipartisan 
Subcommittee. We're responding to a report from the Inspector 
General. Let's just go over those data again--and you said 
you've read it cover-to-cover, and I'm glad you have. I hope 
some of your other colleagues have, because there are some 
serious allegations there. We've had a series of findings from 
the IG.
    The background is that when GAO looked at union activity in 
1993, they found about $6 million of taxpayer money being spent 
per year. The IG looked at it in 1996. They found $14.7 
million, which is a 145 percent increase.
    Mr. Skwierczynski. Yes.
    Mr. Portman. The work force, of course, increased a little 
less than 1 percent during that period, so basically a flat 
work force; an 81 percent increase in the number of full-time 
union reps during that time period--again, a flat work force; 
and a 53 percent increase in the number of union related hours. 
Then, in that context, the IG findings come to us saying that 
they can't verify--the IG cannot verify the hours, cost, 
dedicated union activities because it's just not out there; the 
SSA information is unreliable.
    Mr. Hulshof talked about a specific reference to the fact 
that there was a considerable amount--maybe a quarter of the 
full-time union activity work was not really union activity. 
One data piece that I thought was particularly troubling was 
that 25 percent of the managers themselves suspect abuse of 
time on union activities, and a number of them--20 percent of 
them--said they didn't do anything about it. Why? Because they 
said nobody cared.
    So, you may view this as a political witch hunt or 
political theater, but I think it's irresponsible for us not to 
get into this issue and to begin to get at the truth and put in 
place accountability measures that work. A quarter of the SSA 
managers suspect abuse. The supervisors couldn't provide 
documentation to prove who union reps were and what work was 
union related. There were inadequate controls to ensure the 
authorized number of union reps were not exceeded, and so on 
and so forth.
    You said earlier you're proud of the dedication of the SSA 
employees. I think the SSA employees should be commended for 
their work, for their hours that they put in, and that we owe 
it to them to get at this abuse, to get at the problems, to get 
at what--as I said yesterday--what is tarring the whole work 
force that you represent.
    The issue is accountability. The issue is--you mentioned 
recordkeeping aspects could be somewhat improved. I saw a 
glimmer of hope in your testimony when you said that, but what 
I would say to you today is that, having heard the sworn 
testimony from SSA employees yesterday, having read the IG's 
report, there's something here. You may view it as a witch 
hunt, but I think it's absolutely our responsibility and our 
prerogative to review these issues and facts and to begin to 
address them, and in a constructive way change them.
    Yesterday we heard sworn testimony that despite all the 
provisions that may be in place to keep such activities from 
happening, they are occurring: organizing workers, soliciting 
new members, campaigning for office, engaging in partisan 
political activities. Mr. Reusing stated, for example, 
yesterday, that official time had been used for political 
activities. He said he had been at training meetings that have 
been used to rally stewards to support political candidates; 
union dues had been used for political contributions. He also 
cited examples of abuse of official time. We also heard at the 
same time about long waiting lines, phones not being answered, 
backlogs, and so on, and that puts the recipients, our seniors, 
at the short end of the stick.
    I guess I have two questions for you. First, could you give 
us some specific recommendations, personal recommendations, as 
to what we should be doing about these abuses and how we should 
put accountability measures in place? And, second, has AFGE 
ever disciplined any of its members for engaging in such 
activities over the past, let's say, 5 years?
    Mr. Skwierczynski. Well, certainly we have abuse provisions 
in place in the contract which provide for, if the Agency 
suspects abuse, that they communicate with either the local 
president or the council president. I'm the council president, 
and it's been a rare instance that any situations of abuse have 
been brought to my attention by SSA management. Our local 
presidents have had such situations brought to their attention. 
I know in the local in Baltimore I'm aware of a situation where 
somebody's time was pulled for inappropriate usage. It's 
happened elsewhere, also.
    I, myself, have had such rare instances where they've been 
brought to my attention. When I looked into it, we alleviated 
the situation without pulling anyone's time. And some of the 
allegations we felt were inappropriate allegations, so, you 
know, that's----
    Mr. Christensen. Would the gentleman yield for just a 
minute? Would you tell the Subcommittee what that specific 
abuse was that you said you corrected?
    Mr. Skwierczynski. It had to do with the information that 
was reported on the reporting form, whereby individuals--and 
sometimes it's a lack of training, where some of our reps 
think--we have what we call bank time and non-bank time; it's 
two different types of time. And I advise individuals, when 
it's brought to my attention, that they were perhaps reporting 
under the wrong type of time, that they should report under the 
proper time.
    Mr. Portman. If you could answer the second question of----
    Mr. Skwierczynski. Which was?
    Mr. Portman. In the past 5 years, have you disciplined any 
of your members for engaging in such activities?
    Mr. Skwierczynski. I haven't personally because I haven't 
had any of these instances brought to my attention that I felt 
warranted discipline.
    Mr. Portman. Has the union been engaged in disciplining 
members?
    Mr. Skwierczynski. There have been instances of discipline, 
yes.
    Mr. Portman. And what would the discipline be from the 
union?
    Mr. Skwierczynski. Reducing time or removing time 
altogether. You have to understand, it's a little dicey issue 
here in that there are union officials who are local reps who 
tend to be appointed and those people we can pretty much 
control how much time they get. But elected officials, on the 
other hand--members elect them, and it's a little more 
difficult situation in terms of controlling their time. The way 
to deal with that is to get them out of office at the next 
election----
    Mr. Skwierczynski [continuing]. And just like any other 
union, you have elections and you have to deal with that 
process.
    Mr. Portman. My time has already been exceeded, and I 
appreciate the Chairman for indulging me for a minute, but if 
the testimony you've given today in written form does not 
include specific recommendations, and if the Subcommittee 
doesn't have that, I certainly would be very interested to see 
what your specific recommendations are as to how to resolve 
some of these problems, get more accountability. And you did 
mention earlier, again, recordkeeping could be improved. I 
think it could be vastly improved.
    Mr. Skwierczynski. Would you like me to send something in 
writing to the Subcommittee?
    Chairman Bunning. That would be fine.
    Mr. Portman. That would be great, and I will get it through 
the Subcommittee's offices.
    But that's what this is all about. It's trying to clean up 
a clear problem identified by the IG.
    Thank you, Mr. Chairman.
    Chairman Bunning. Thank you, Mr. Portman. Let me just 
comment on a couple of things. In June of 1996, we received a 
report from the General Accounting Office that there had been 
an increase of 145 percent in official time and the expenditure 
of actual trust fund money on that official time. That was a 
red flag because the partnership came in in 1993. Everything 
had been flat until 1993, and then we saw this major escalation 
of cost. That was a red flag.
    We asked for the Office of Inspector General to follow up 
on that report in 1996, and we said to do it as soon as 
possible. Well, it's 1998, and they've just finished it. So, I 
want you to know that this is our duty and our obligation--when 
we see red flags come up to do something about them. It is the 
duty and obligation of this Subcommittee to oversee the Social 
Security Administration. You know that; I know that. I'm not 
sure that the public knows that.
    So the descriptions that you have given of these hearings 
are incorrect. You're entitled to your opinion. We can't do 
anything about that; you're entitled. Anybody is entitled to 
their own opinion, but we have an obligation to the taxpayers 
to make sure that we look at that $14-plus million that was 
being spent, compared to the $6 million that was being spent in 
1993.
    Thank you for your testimony. Often it is impossible for 
our Subcommittee to cover everything, every issue we're 
interested in. Therefore, we may be submitting additional 
questions to you in writing for you to answer for the record. 
We need to protect the integrity of the Social Security system 
and respect union rights, while rooting out any abuse in the 
workplace. Therefore, I will immediately request an in-depth 
investigation by SSA's offices of the Inspector General of the 
allegations of official time abuse brought before this 
Subcommittee in sworn testimony.
    I am also considering a number of legislative options--and 
I'm glad that Mr. Portman asked for your suggestions because we 
don't have all the answers. You're on the job; you ought to 
have some suggestions for this Subcommittee so that we can 
narrow whatever we think might be the gap of abuse.
    Over the last 3 years, many dedicated Social Security 
employees have voiced their concerns about labor-management 
relations. These employees were afraid to speak up, afraid to 
take action. As we've heard from our witnesses, the threats are 
real. However, I continue to urge employees to step forward, 
share their views and their solutions, because we're listening.
    I thank the witnesses for their testimony, all the 
witnesses. This hearing stands adjourned.
    [Whereupon, at 12 p.m., the hearing adjourned subject to 
the call of the Chair.]

                                <greek-d>

</pre></body></html>
